<html>
<title> - [H.A.S.C. No. 115-54] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-54]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          THE FISCAL YEAR 2018

                     NATIONAL DEFENSE AUTHORIZATION

                        BUDGET REQUEST FROM THE

                         DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                             JUNE 12, 2017

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-739                 WASHINGTON : 2018      
 
 
 


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                     Jenness Simler, Staff Director
                         Tim Morrison, Counsel
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Dunford, Gen Joseph F., Jr., USMC, Chairman, Joint Chiefs of 
  Staff..........................................................     7
Mattis, Hon. James N., Secretary of Defense, U.S. Department of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Dunford, Gen Joseph F., Jr...................................   100
    Mattis, Hon. James N.........................................    86
    Smith, Hon. Adam.............................................    83
    Thornberry, Hon. William M. ``Mac''..........................    81

Documents Submitted for the Record:

    Senate Testimony of Under Secretary of State for Arms Control 
      Rose Gottemoeller, July 13, 2016...........................   121
    Study by Dr. Colin Gray......................................   115

Witness Responses to Questions Asked During the Hearing:

    Dr. Abraham..................................................   128
    Mr. Byrne....................................................   128
    Mr. Carbajal.................................................   128
    Mr. Langevin.................................................   127
    Mr. Moulton..................................................   128
    Ms. Speier...................................................   127

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................   145
    Mr. Hunter...................................................   139
    Mr. Langevin.................................................   135
    Mr. O'Rourke.................................................   144
    Ms. Rosen....................................................   146
    Mr. Scott....................................................   136
    Mr. Smith....................................................   133
    Ms. Speier...................................................   139
    Ms. Tsongas..................................................   136
    
    
    
THE FISCAL YEAR 2018 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM 
                       THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                  Washington, DC, Wednesday, Monday, June 12, 2017.
    The committee met, pursuant to call, at 7:04 p.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee meets to receive the testimony of the 
Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on the administration's fiscal year 2018 budget request. 
We welcome Secretary Mattis for the first time before our 
committee, and we welcome Chairman Dunford back.
    The question today, as it is each year for this hearing, is 
how well the administration's proposal meets the security needs 
of the Nation, factoring in both the external threats and the 
current state of our military.
    This committee has repeatedly heard testimony over the past 
2 years that our country faces more serious, complex security 
challenges now than we have ever faced before. And the hearings 
and briefings we have held on the current state of our military 
have been disturbing.
    The administration's budget request of $603 billion for 
base requirements is 6 percent above the 2017 enacted level and 
3 percent above the last Obama administration budget proposal. 
It is also $37 billion below what this committee assessed last 
fall was needed and about $58 billion below the fiscal year 
2012 Gates budget, which was independently validated by the 
bipartisan National Defense Panel.
    But, of course, the issue is not about numbers. The issue 
is about what those numbers provide for the men and women who 
serve and what security the budget provides to the Nation. It 
is about whether we can defend the United States and our allies 
against North Korean missiles, for example. It is about whether 
we have the number of ships and planes and other military 
capability to deter aggression and maintain peace.
    It is about doing right by our most valuable asset: our 
people. The men and women who serve deserve the best weapons 
and equipment our country can provide, and I am afraid today 
they are not getting it.
    It is always tempting to divert this discussion into a 
broader budget debate about taxes and other spending issues. 
Those issues are not within the jurisdiction of this committee 
or of these witnesses. But, regardless of our views on those 
other issues, we cannot wait until we solve our budget problems 
to adequately fund our military. We cannot wait until we 
perfect our acquisition system to have planes that fly and 
ships that sail. The world is not stopping and waiting on us to 
get our act together. It moves on, and it is moving on in a 
dangerous direction.
    2018 is a key decision point. We have spent 6 years just 
getting by, asking more and more of those who serve, and 
putting off the choices that have to be made. We cannot keep 
piling missions on our service members without ensuring they 
have all they need to succeed.
    Does the administration's budget proposal accomplish that 
goal? That is the question we intend to examine tonight.
    I yield to the ranking member, Mr. Smith, for any comments 
he would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 81.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And I agree with much of what you said, and I think the 
best way to sum it up is what you said about putting off 
choices. That is what we have done for quite a while, and not 
just on the defense budget but on our tax reform, on all 
aspects of the budget as well.
    And I think the impact on the military is as the chairman 
describes. And the real problem we have right now is a major 
disconnect between what we would like to do and the amount of 
money that we are prepared to do it.
    As the chairman mentioned, even the President's budget at 
$603 billion does not match what our committee assessed was 
needed. I think even more tellingly, it does not match what the 
President has said he is going to do. In fact, it is very, very 
distant from that.
    If you talk about a 350-ship Navy and, I think, 570,000-
person Army, you talk about all the planes, all the nuclear 
modernization that they want to do, I do not even begin to know 
what the yearly number would be to get to that. I am suspecting 
it is well north of $700 billion, $800 billion.
    So we have all these grand ideas of what we want. We do not 
have the money to get there. And who is left in the lurch? The 
people that you serve. The men and women of the military are 
left with missions that they do not have the resources to 
fulfill.
    And I think we have to start making choices. And I have got 
a bit of a preview with your opening remarks, and I agree with 
you. Certainly, the House of Representatives is in no position 
to lecture you about making choices. We do not have a budget. 
It is the middle of June. I have been here 20 years; we have 
never gone this long without providing numbers for the basic 
appropriations bills, defense being chief among them.
    So we continue to stall, I think, in hopes that the money 
will magically appear or we will figure out some way to spend 
money that does not count, something. But we have got to make 
choices. We have got to decide what we are going to fund.
    And I will disagree with the chairman on one issue, and 
that is the notion that somehow as the Armed Services 
Committee, everything else that goes on in the budget really 
does not have anything to do with us and we should not worry 
about it. One thing most certainly does, and that is revenue. 
Because how much money you have, in my experience anyway, has a 
profound impact on how much money you are able to spend.
    You know, I will skip for the moment the argument about the 
Department of Homeland Security and how important the State 
Department is--well, I lied. I did not skip it. But I think all 
of those things are important.
    But if you just want to get right down to the basics, even 
if you just want to say forget about all that, all we are 
concerned about is the Armed Services Committee and providing 
for the men and women in our military the resources that they 
need, the planes, the ships, the equipment, the training, the 
readiness, all of that, it is nonsensical to say that the 
amount of revenue we have available does not impact that. It 
absolutely does.
    And if we are talking about putting together--and I use 
``we'' loosely here--a tax reform proposal that is going to 
further cut taxes by $2 trillion to $3 trillion, and if there 
are members of this committee who want to support that and then 
want to keep coming back to this committee and talking about 
how terrible it is that we do not fund our military, I think 
that is a huge inconsistency that we need to reconcile.
    We have clear needs in the Defense Department. Let us make 
sure we provide the money for them. If we are not prepared to 
provide the money for them, then we need to come up with a 
different set of strategies, which I agree with the chairman: 
It will be very difficult. We have a very complex threat 
environment, from North Korea to Iran to Russia to a rising 
China to--not to mention the terrorist groups that are still 
out there and active. So it would be difficult to redo that 
strategy. But we would be better off doing that than to have a 
strategy that we have no intention of funding, and right now, 
that is kind of what the executive branch looks like they are 
doing. They have a strategy that they have no intention of 
funding. We have to fix that.
    Just two quick things, and I will ask questions about this 
when we get the chance. I think countering what Russia is doing 
is an enormously important step for us. They are in a very 
comprehensive effort to undermine the very values that our 
country has fought for in the post-World War II environment. 
They have an incredibly complicated cyber effort, propaganda 
effort. They are doing all of this stuff to basically foster 
authoritarian regimes at the expense of democracies and to 
undermine alliances that the United States has relied on in 
that post-World War II world to maintain peace and security and 
to protect our interests. I think we need a strategy on that.
    And I will be very curious to get your take on exactly what 
we are doing in Qatar. We hear what the Secretary of State says 
about it, and mere hours later, the President says something 
diametrically opposed to that. It is a very destabilizing 
situation right now in the Middle East.
    I agree with the Secretary of State. We should be finding 
ways to solve that problem, not ways to throw gasoline on the 
fire. But I am just not clear what the administration's 
strategy is.
    And considering the fact that CENTCOM [U.S. Central 
Command] is located in Qatar, I would think that, Mr. 
Secretary, you would have some opinions on what we ought to do 
to try to resolve that situation. And I would look forward to 
that comment.
    And, with that, I yield back and look forward to your 
testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 83.]
    The Chairman. The committee is pleased to welcome the 
Honorable James Mattis, Secretary of Defense; General Joseph F. 
Dunford, Jr., Chairman of the Joint Chiefs of Staff; and Mr. 
David Norquist, the Under Secretary and Comptroller, who has 
been on the job, I think, about a week.
    So, welcome, all of you, to the committee.
    Without objection, any written comments you would like to 
make will be included in the record.
    Mr. Secretary, the floor is yours.

 STATEMENT OF HON. JAMES N. MATTIS, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Mattis. Well, Chairman Thornberry, Ranking Member 
Smith, and members of the committee, I appreciate the 
opportunity to testify in support of the President's budget 
request for fiscal year 2018. And I appreciate the committee 
accepting my written statement for the record.
    I am joined by Chairman Dunford and the Department's new 
Comptroller, Under Secretary of Defense David Norquist. As 
noted by the chairman, he is new, but he will be vital to 
gaining your confidence that we know where our money is going 
once you give it to us through a good audit.
    This budget request holds me accountable to the men and 
women of the Department of Defense. Every day, more than 2 
million service members and nearly 1 million civilians do their 
duty honoring previous generations of veterans and civil 
servants who have sacrificed for our country, and it is a 
privilege to serve alongside them.
    We in the Department of Defense are keenly aware of the 
sacrifices made by the American people to fund our military. 
Many times in the past, we have looked reality in the eye, met 
challenges with the help of congressional leadership, and built 
the most capable warfighting force in the world.
    There is no room for complacency, however, and we have no 
God-given right to victory on the battlefield. Each generation 
of Americans, from the halls of Congress to the battlefields, 
earns victory through commitment and sacrifice. And, yet, for 4 
years, the Department of Defense has been subject to or 
threatened by automatic across-the-board cuts as a result of 
sequester, a mechanism meant to be so injurious to the military 
it would never go into effect. But it did go into effect, and 
as forecast by then-Secretary of Defense Panetta, the damage 
has been severe.
    In addition, during 9 of the past 10 years, Congress has 
enacted 30 separate continuing resolutions to fund the 
Department of Defense, thus inhibiting our readiness and 
adaptation to new challenges. We need bipartisan support for 
this budget request.
    In the past, by failing to pass the budget on time or 
eliminate the threat of sequestration, Congress sidelined 
itself from its active constitutional oversight role. 
Continuing resolutions coupled with sequestration blocked new 
programs, prevented service growth, stalled industry 
initiative, and placed troops at greater risk.
    Despite the tremendous efforts of this committee, Congress 
as a whole has met the present challenge with lassitude not 
leadership. I retired from military service 3 months after 
sequestration took effect. Four years later, I have returned to 
the Department, and I have been shocked by what I have seen 
about our readiness to fight.
    While nothing can compare to the heartache caused by the 
loss of our troops during these wars, no enemy in the field has 
done more to harm the combat readiness of our military than 
sequestration. We have only sustained our ability to meet 
America's commitments abroad because our troops have stoically 
shouldered a much greater burden. But our troops' stoic 
commitment cannot reduce the growing risk. It took us years to 
get into this situation. It will require years of stable 
budgets and increased funding to get out of it.
    I urge members of this committee and Congress to achieve 
three goals: first, fully fund our request, which required an 
increase to the defense budget caps; second, pass a fiscal year 
2018 budget in a timely manner to avoid yet another harmful 
continuing resolution; and, third, eliminate the threat of 
future sequestration cuts so we can provide a stable budgetary 
planning horizon.
    Stable budgets and increased funding are necessary because 
of four external forces acting on the Department at the same 
time. The first force that we must recognize is 16 years of 
war. When Congress approved the All-Volunteer Force in 1973, 
our country never envisioned sending our military to war for 
more than a decade without pause or conscription. America's 
long war has placed a heavy burden on men and women in uniform 
and their families.
    A second concurrent force acting on the Department is the 
worsening global security situation. We must look reality in 
the eye. Russia and China are seeking veto power over the 
economic, diplomatic, and security decisions on their 
periphery. North Korea's reckless rhetoric and provocative 
actions continue despite United Nations' censure and sanctions, 
while Iran remains the largest long-term challenge to Mideast 
stability. All the while, terrorist groups murder the innocent 
and threaten peace in many regions and target us.
    A third force acting on the Department is adversaries 
actively contesting America's capabilities. For decades the 
United States enjoyed uncontested or dominant superiority in 
every operating domain or realm. We could generally deploy our 
forces when we wanted, assemble them where we wanted, and 
operate how we wanted. Today, every operating domain, including 
outer space, air, sea, undersea, land, and cyberspace, is 
contested.
    A fourth concurrent force is rapid technological change. 
Among the other forces noted thus far, technological change is 
one that necessitates new investment, innovative approaches, 
and new program starts that have been denied us by law when we 
have been forced to operate under continuing resolution.
    Each of these four forces--16 years of war, the worsening 
security environment, contested operations in multiple domains, 
and the rapid pace of technological change--requires stable 
budgets and increased funding to provide for the protection of 
our citizens and for the survival of our freedoms.
    I reiterate that security and solvency are my watchwords as 
Secretary of Defense. The fundamental responsibility of our 
government is to defend the American people, providing for our 
security, and we cannot defend America and help others if our 
Nation is not both strong and solvent.
    So we in the Department of Defense owe it to the American 
public and to the Congress to ensure we spend every dollar 
wisely. President Trump has nominated for Senate approval 
specific individuals who will bring proven skills to discipline 
our Department's fiscal processes to ensure we do so.
    This first step to restoring readiness is underway, thanks 
to Congress' willingness to support the administration's 
request for an additional $21 billion in resources for fiscal 
year 2017 to address vital warfighting readiness shortfalls. 
Your support put more aircraft in the air, more ships to sea, 
and more troops in the field to train. However, we all 
recognize that it will take a number of years of higher funding 
delivered on time to restore readiness.
    To strengthen the military, President Trump requested a 
$639 billion top line for the 2018 defense budget. This budget 
reflects five priorities:
    The first priority is continuing to improve warfighter 
readiness begun in fiscal year 2017, filling in the holes from 
tradeoffs made during 16 years of war, 9 years of continuing 
resolutions, and Budget Control Act caps.
    The second priority is increasing capacity and lethality 
while preparing for future investment, driven by results from 
the National Defense Strategy. Our 2018 budget request ensures 
the Nation's current nuclear deterrent will be sustained and 
supports continuation of its much-needed modernization process.
    The third priority is reforming how the Department does 
business. I am devoted to gaining full value from every 
taxpayer dollar spent on defense, thereby earning the trust of 
Congress and the American people. We have begun implementation 
of a range of reform initiatives directed by the 2017 National 
Defense Authorization Act and are on track to enter into a full 
agency-wide financial statement audit as required by statute. I 
urge Congress to support the Department's request for authority 
to conduct the 2021 Base Realignment and Closure, or BRAC, 
round. I recognize the careful deliberation that members must 
exercise in considering it. But BRAC is one of the most 
successful and significant efficiency programs. We forecast 
that a properly focused base closure effort will generate $2 
billion or more annually over a 5-year period, enough to buy 
300 Apache attack helicopters, 120 F-18s, or 4 Virginia-class 
submarines.
    The fourth priority in the fiscal year 2018 budget request 
is keeping faith with service members and the families. 
Talented people are the Department's most valuable asset, but 
we must continually balance these requirements against other 
investments critical to readiness, equipment, and modernization 
to ensure the military is the most capable warfighting force in 
the world. Investment in military compensation, blended 
retirement, the military health system, and family programs are 
essential to fielding the talent we need to sustain our 
competitive advantage on the battlefield.
    The fifth priority is support for overseas contingency 
operations. The fiscal year 2018 President's budget requests 
$64.6 billion, focusing on operations in Afghanistan, Iraq, and 
Syria, increasing efforts to sustain NATO's [North Atlantic 
Treaty Organization's] defenses to deter aggression and global 
counterterrorism operations. ISIS [Islamic State of Iraq and 
Syria] and other terrorist organizations represent a clear and 
present danger, and I am encouraged by the willingness of our 
allies and partners to share the burden of this campaign.
    Moving forward, the fiscal year 2019 budget informed by the 
new National Defense Strategy will have to make hard choices as 
we shape the fiscal year 2019 to 2023 defense program. The 
Department will work with President Trump, Congress, and this 
committee to ensure future budget requests are sustainable and 
provide the Commander in Chief with viable military options 
that support America's security.
    I am keenly aware that each of you understand the 
responsibility we share to ensure our military is ready to 
fight today and in the future. I need your help to inform your 
fellow Members of Congress about the reality facing our 
military and the need for Congress as a whole to pass the 
budget on time.
    Thank you for your strong support over many years and for 
ensuring our troops have the resources and equipment they need 
to fight and win on the battlefield. I pledge to collaborate 
closely with you for the defense of our Nation and our joint 
effort to keep our Armed Forces second to none.
    Chairman Dunford is prepared to discuss the military 
dimensions of the budget request.
    [The prepared statement of Secretary Mattis can be found in 
the Appendix on page 86.]
    The Chairman. Mr. Chairman.

STATEMENT OF GEN JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Dunford. Chairman Thornberry, Ranking Member Smith, 
distinguished members of the committee, it is an honor to join 
Secretary Mattis and Under Secretary Norquist here tonight.
    I am honored to represent your men and women in uniform, 
and it is because of them I can begin by saying with confidence 
that your Armed Forces today are the most capable in the world. 
However, the competitive advantage that the United States 
military has long enjoyed is eroding.
    A number of factors have contributed to that erosion. Since 
9/11, an extraordinarily high operational tempo has accelerated 
the wear and tear of our weapons and equipment. Meanwhile, 
budget instability and the Budget Control Act have forced the 
Department to operate with far fewer resources than required 
for the strategy of record. As a consequence, we prioritize 
near-term readiness at the expense of replacing aging equipment 
and capability development. We have also maintained a force 
that consumes readiness as fast as we build it. We lack 
sufficient capacity to meet current operational requirements 
while rebuilding and maintaining full-spectrum readiness.
    You know, the Secretary and the service chiefs have 
addressed that dynamic in their testimonies, and I fully concur 
with their assessments, but beyond the current readiness, we 
are confronted with another significant challenge that I assess 
to be near term. While we have been primarily focused on the 
threat of violent extremism, our adversaries and potential 
adversaries have developed advanced capabilities and 
operational approaches, and these are specifically designed to 
limit our ability to project power. They recognize that our 
ability to project power is the critical capability necessary 
to defend the homeland, advance our interests, and meet our 
alliance commitments.
    Secretary Mattis alluded to it today: Russia, China, and 
Iran field a wide range of cyber, space, aviation, maritime, 
and land capabilities. And these are specifically designed to 
limit our ability to deploy, employ, and sustain our forces.
    Russia and China have also modernized their nuclear arsenal 
while North Korea has been on a relentless path to field a 
nuclear ICBM [intercontinental ballistic missile] that can 
reach the United States. In just a few years, if we do not 
change the trajectory, we will lose our qualitative and 
quantitative competitive advantage. The consequences will be 
profound. It will adversely affect our nuclear deterrence, our 
conventional deterrence, and our ability to respond if 
deterrence fails.
    Alternatively, we can maintain our competitive advantage 
with sustained, sufficient, and predictable funding. To that 
end, the fiscal year 2018 budget is an essential step. However, 
this request alone will not fully restore readiness or arrest 
the erosion of our competitive advantage. Doing this will 
require a sustained investment beyond fiscal year 2018.
    Specific recommendations for fiscal year 2019 and beyond 
will be informed by the forthcoming strategy development. 
However, we know now that continued growth in the base budget 
for at least 3 percent above inflation is the floor necessary 
to preserve today's relative competitive advantage.
    We ask for your support, and while we do that, we recognize 
the responsibility to maintain the trust of the American 
taxpayer. We take that seriously and will continue to eliminate 
redundancies and achieve efficiencies where possible.
    Thank you again for the opportunity to appear before you. 
And, more importantly, thanks for ensuring that America's sons 
and daughters are never in a fair fight. With that, I am ready 
for your questions.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 100.]
    The Chairman. Thank you, sir.
    Mr. Norquist, do you have a statement you would like to 
make?
    Secretary Norquist. I agree with the Secretary, Mr. 
Chairman. I have no statement to make.
    The Chairman. Thank you.
    Let me just alert members that under the circumstances, I 
think it is important to hold members to the 5-minute rule, 
and, therefore, short, direct questions will--I have no doubt 
with these witnesses--evoke short, direct answers. They are 
known for that. And put me on the clock, please.
    Mr. Secretary, when the budget came to Congress on May 23, 
I think, other than the past week, you were the only Senate-
confirmed person in the Department of Defense of the Trump 
administration. And if you look at that budget request, it has 
basically the same number of ships and planes, no change in end 
strength for the Army and Marines that had already been 
planned.
    So is it fair to say that essentially what has been sent to 
us for fiscal year 2018 is what was already in the works with 
some minor adjustments?
    Secretary Mattis. Chairman, what we attempted to do with 
the fiscal year 2017 supplemental was to fill in as many of the 
holes in our readiness as possible. With $21 billion, we were 
unable to fill them all. So part of what we are doing, 
admittedly, right now, is continuing to fill in holes.
    But the growth that we are developing right now this year 
is into areas where we balance the force. In other words, we 
have got to bring in more cyber troops. We need to do some 
things to expand where we have already got gaps that we cannot 
simply repair our way out of.
    We have got to actually buy some new equipment, this sort 
of thing. So we are still in getting the force back on its 
feet, a force that you have paid a lot of money for, but it was 
not maintained at full readiness, sir.
    The Chairman. Well, and just following up on Mr. Smith's 
point, the President has said specifically he would like to 
have a Navy of 350 ships. He has talked about 12 aircraft 
carriers. He talked about Army end strength of 540,000. He has 
talked about increasing the number of fighter aircraft and so 
forth.
    So, for this budget in 2018 that we have gotten so far, it 
does not really advance any of those goals, does it?
    Secretary Mattis. Sir, it gets us in the right direction. 
As the Chairman and I said, it is going to take 3 to 5 percent 
in the future to actually grow the force along the lines of 
what you are talking about.
    But I would also point out that this is $52 billion above 
the BCA [Budget Control Act] cap, and that is not something 
that we can simply walk in and ignore knowing it is a reality 
that you have to deal with.
    The Chairman. Yeah. I would just editorially comment: I do 
not think anybody thinks that BCA cap is anywhere appropriate 
to what we need for our military. And that is what we are 
trying to focus on.
    Let me just ask you one other question about this. Again, 
the White House talks about developing state-of-the-art missile 
defense systems. And I think the biggest surprise to me was to 
look at the budget for the Missile Defense Agency and see that 
go down in 2018 from what it is in 2017. Can you explain that 
to me?
    Secretary Mattis. Sir, it is a worsening situation. We have 
a Ballistic Missile Defense Review underway. But right now, I 
am confident that we have what it takes to secure us against 
the North Korean threat and buy us some time until we can get 
the review done and come to you with a defensible, sustainable 
ballistic missile defense buildup.
    The Chairman. Chairman Dunford, you talked about that the 
2018 budget does not fill all the readiness holes. Secretary 
just testified that he was shocked when he came back into the 
Department and saw the state of our readiness. I looked through 
all of the services' unfunded requirements, which they are 
required to give by statute, and there is a lot of readiness in 
those unfunded requirements.
    So it is true, is it not, that, if there is additional 
funds above the President's request, especially on readiness, 
that those funds can be well used? Would you agree with that?
    General Dunford. Chairman, I would. And I think it is 
important at this point to realize that, you know, where 
traditional readiness has been considered just operations and 
maintenance money, when you have a squadron that has only six 
of the primary aircraft authorized that it rates, you can only 
have those aircraft so ready and it is still not going to make 
a difference. The squadron is still 50 percent ready.
    So I would just argue that there is really maybe, this year 
now, as a result of the last several years, in many cases there 
is a distinction without a difference between readiness and 
procurement. In many cases, procurement is necessary in order 
to get units ready.
    The Chairman. I think that is what is--a point that we have 
learned over the past year as well. Thank you.
    I would yield to Mr. Smith.
    Mr. Smith. Thank you.
    I am just wondering, has anyone added up all of the 
President's promises in terms of defense, as the chairman and I 
have outlined some of them, and is there any notion of what it 
would cost to meet those goals in a 5-year plan?
    If I am not mistaken, there actually was not a FYDP [Future 
Years Defense Program] offered by the President's budget, which 
is unusual. And I cannot help but think that it is because--and 
you can start the clock on me--I cannot help but think that 
that is because you did not want to look at it and see just how 
outlandish those numbers would be versus the money we have.
    So do you have a number, I mean, if you have 5-year 
numbers, to begin to get to what we are--what the President has 
talked about?
    Secretary Mattis. I do not, sir. We have been digging down 
into what we can do right now to get the force ready in its 
current situation that we confront. I think there is pretty 
common understanding here that the force is going to have to be 
improved. That is the common ground we have. And we are going 
to have to move out smartly and in concert with the Congress as 
we sort out what can be done and what the targets are.
    Mr. Smith. Well, I would suggest, as I said in my opening 
remarks, that we get more realistic about that. I do not think 
it serves any particular purpose to make promises that nobody 
has any intention of keeping. So if we could down that to 
something that is reasonable.
    And, with that, let me just say, one of the things I hope 
that the NDAA [National Defense Authorization Act] is able to 
do is, when we are on the floor, we have an amendment to repeal 
the BCA and the budget caps. And I would urge in a bipartisan 
way that we try to get that out there on the floor and let 
Members take that vote, because the Budget Control Act was 6 
years ago. It was passed with the goal of reaching a grand 
bargain. That did not happen. It is irrelevant. Now, that is 
not to say that a $20 trillion debt and a $700 billion deficit 
is not a problem. It is just that it is obvious that the Budget 
Control Act is a terrible way to go about trying to address it.
    Can you help me out on the Qatar question that I raised 
earlier? Now, I certainly do understand that Qatar has a mixed 
record. But, you know, we are doing this primarily at the 
behest of Saudi Arabia, and if you want to talk about a mixed 
record, they have a pretty mixed record too: 15 of the 19 
hijackers; Wahhabism is one of the more extreme forms of Islam; 
they funded madrasas all across the Middle East and South Asia 
and North Africa. Now, I have met with the Foreign Minister. I 
have been assured that they are trying to reform and move in a 
more positive direction. But it just seems odd that we are 
working with Saudi Arabia to go after Qatar because Qatar is 
doing too much to support groups that are radical extremists.
    So what is going on over there, and what should our policy 
be?
    Secretary Mattis. Sir, it is a very complex situation. You 
know, each of those countries manifest its own trajectory of 
forward progress. I would tell you that there is common ground, 
and that is something President Trump was attempting to 
generate and reinforce with the trip that we recently 
witnessed.
    In that regard, you see Qatar itself, for example, houses 
the largest single airbase that we have and the forward 
headquarters for our Air Force, our Central Command, and our 
special operations.
    I would simply point out that we have interoperability 
capability with Qatar. And I believe that Prince Thani 
inherited a difficult, very tough situation, and he is trying 
to turn the society in the right direction.
    But we all agree that funding of any kind of terrorist 
group is inimical to all of our interests, and I believe that 
it is moving in the right direction. We have got to try and 
help sort this out with them all.
    Mr. Smith. Well, why the disconnect between what Secretary 
of State Tillerson has said about the situation and what the 
President has said about it?
    Secretary Mattis. Sir, I believe that the President coming 
back from the Middle East was extremely focused on what they 
had done in order to try to get everyone to agree on how we 
would stop the funding of the enemy groups, to include at times 
gray funding. In other words, it is not black and white. It 
goes into some kind of nebulous area and shows up there.
    So what you are seeing is a continued focus on that. At the 
same time, we have obviously got shared interests with Qatar 
that, again, holds the biggest base that we have there. So it 
is one of those areas where we have got to find the common 
ground, make common ground, and move out together, and it has 
been a challenge. It is not tidy, I will admit it is not tidy, 
but it is something that we have got to work together on.
    Mr. Smith. And just a couple of quick comments before my 
time runs out. One, that Saudi Arabia is a country that we also 
have to work on that issue, because while--I mean, they have 
cut this deal. They will support the Wahhabism version of the 
religion as long as they do not get violent. The Wahhabism 
version of the religion pushes you right up to the edge of that 
violence and some would argue is the logical conclusion of it. 
So I think we need to put pressure on Qatar. Certainly, we 
really need to put pressure on Saudi Arabia to stop the spread 
of that ideology.
    And I will assume that one of my other colleagues will ask 
the question about Russia. We lack a comprehensive strategy to 
counter what they are doing. I would like an update on, are we 
going to develop one? Do you see that as a critical need? Am I 
being, you know, alarmist about what Russia is attempting to do 
in so many parts of the world?
    So I would be curious about your comments on that, but I 
will leave that to my colleagues to follow up on, and yield 
back my time.
    The Chairman. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Secretary Mattis, General Dunford, thank you for being here 
and for your service.
    Funding for cyber warfare command and U.S. Cyber Command 
has been protected in the budget since 2013. This has been a 
very high priority for me given responsibilities on both this 
committee and House Intelligence Committee.
    Admiral Rogers testified recently that, and I am quoting: 
To execute our missions, I requested a budget of approximately 
$647 million for fiscal year 2018, which is nearly 16 percent 
increase from fiscal year 2017. However, cuts to the services 
impact our cyber warfare capabilities. Cyber operations to 
counter ISIS are funded via OCO [overseas contingency 
operations], which could represent a hollow forces structure, 
and cyber capability and readiness gaps still exist for 
European Command against Russia and U.S. Pacific Command 
against China and North Korea.
    General Dunford, for you, could you describe the readiness 
of our cyber forces to carry out the variety of missions they 
need to conduct around the world?
    General Dunford. I can, Congressman. Thank you.
    We identified a requirement for 133 cyber mission teams, 
and that was done in conjunction with U.S. Cyber Command. Right 
now, 70 percent of those teams are what we call fully 
operational capable. So they have had all the manning, they 
have all the training, and they are fully operational capable.
    The balance at 133 teams are in initial operational 
capability, and they will be in the coming months fully 
operational capable. So we are moving towards those 133 teams 
being there.
    But I think none of us are complacent with where we are in 
cyberspace, given the number of threats we face every day. We 
need it to defend the network, develop effective offensive 
tools, and be in a position to grow the force.
    And, Congressman, I think, in fiscal year 2018 and in 2017, 
for that matter, we began to reverse a trend that, for over the 
past 5 years, in areas like space, cyberspace, electronic 
warfare, we have been underfunded. This year is the second year 
in a row where we have increased our resources to Cyber 
Command.
    Mr. LoBiondo. And as a follow-up, General, right now we are 
conducting operations against ISIS. But do we have the capacity 
to ramp up for additional operations against a different 
adversary simultaneously if required?
    General Dunford. We do, Congressman. Without going through 
details, we are actually simultaneously conducting cyber 
operations now against multiple adversaries.
    Mr. LoBiondo. And can we handle the current level of 
aggressive cyber activity to counter Russia, North Korea, 
China, Iran, and others that we are seeing today?
    General Dunford. We need to continue to grow the force to 
be able to deal with those emerging threats, Congressman.
    Mr. LoBiondo. Can you talk to us about what we are doing to 
track people and support cyber as a career field--to attract 
people and support cyber as a career field?
    General Dunford. Congressman, I know Admiral Rogers has 
worked very hard on that, as have the services. And I think 
there is a combination of incentives as well as going out there 
and recruiting high-quality people and then setting good 
conditions for them to be retained. But that is something that 
we are working on very hard as well.
    Mr. LoBiondo. So we are looking at things such as incentive 
pay, or bonuses to attract and keep key cyber professionals?
    General Dunford. We are actually using those tools now, 
Congressman, and always monitoring the force to make sure to 
what extent we need to increase use of those tools.
    Mr. LoBiondo. Okay. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you all for 
being here as well.
    Secretary Mattis, I know in your testimony you spoke about 
the 3 million service members and civilians that make up the 
Department of Defense. And I certainly agree with you and agree 
with my colleagues that this committee cannot be expected to 
deal with all the issues that we face today, but the reality is 
that the people who come into our service, the men and women, 
they came from somewhere. You know, they were educated. Perhaps 
their families were on food stamps at one time. They got 
Federal student loans.
    How do we reconcile--and in your position, where I think 
you have such a strong voice in this--how do you work with 
those issues while we are struggling here to fund defense 
appropriately and looking at all of our readiness issues and, 
at the same time, we see that the President is cutting many of 
the programs that service the people who actually are in the 
military? We know that over a third of kids are obese today, 
and they cannot serve. They are not able to serve because they 
have--they had drug addictions.
    There are so many issues that we kind of put them over 
there and say, ``Well, those do not really relate to our 
military and certainly not to our national security.'' I know 
you have thought about this issue. And what is the role that 
you see yourself playing even within the Cabinet to try and 
have people focus on these issues?
    Secretary Mattis. Well, Congresswoman, as you know, I am 
not shy about speaking up. I would tell you that we are meeting 
our own quality demands right now. We have not had to lower our 
standards at all.
    But you are absolutely accurate that we have a shrinking 
percentage of our 18-year-old, 20-year-old--that population we 
do a lot of recruiting from--we have a shrinking percentage 
that can qualify to enlist in the Army, for example, as a 
private. So I would take no issue with it. I think it is all of 
our responsibilities, whether we are in the executive branch, 
the legislative, or we are a local school district member.
    But it is not one that I can speak about with authority. I 
have been rather consumed, as you will understand, with the 
portfolio I have. But I do not take any issue with what you are 
saying.
    So far, I will tell you, it has not inhibited our quest for 
high-quality young men and women who are rallying to the flag.
    Mrs. Davis. Do you hear other voices speaking up on this in 
this room?
    Secretary Mattis. Absolutely.
    Mrs. Davis. Okay. Well, I hope so. And I appreciate your 
doing that as well.
    I wonder if you could just turn for a second and, 
certainly, General, as well, and just speak to us about your 
current thinking on Afghanistan. As I think that the public is 
aware, it is becoming--feels much more chaotic and violent, and 
there are very few options for us.
    What do you see as the status, and where can we go with 
this?
    Secretary Mattis. Congresswoman, we are taking a regional 
approach to this. We are looking at everything from the 
situation between India and Pakistan, Pakistan and Afghanistan, 
obviously Iran, that whole South Asia area, because if we look 
at it in isolation, you will probably have something that is 
lacking in some area.
    We are going to have to recognize that problems that come 
out of ungoverned spaces like that, as we experienced on 9/11, 
those problems do not stay there. They can come home to roost 
here. So there will be no turning a blind eye to it.
    We have got to determine what level of support is necessary 
and how we orchestrate the international community, not just 
the American but the international community, to deal with 
this. We will take that forward to the President for a decision 
very soon.
    Mrs. Davis. And, General Dunford, I know that you serve 
very actively there as well. Do the numbers that are being 
talked about and--are those in isolation from other tools in 
our toolbox essentially? Do we need to be doing something else 
with civilians?
    General Dunford. Sure. We have listened very carefully to 
General Nicholson's assessment of the situation. I think we are 
all concerned about the security trends over the last 2 years, 
not the least of which is the significant number of casualties 
the Afghan forces have suffered.
    So we have gone to Secretary Mattis and the President with 
some options that might be considered in order to reverse those 
trends. But as the Secretary said, we will consider Afghanistan 
in the broader context of a regional strategy as well.
    But we do have some things that we are considering to turn 
around the trends and better enable the Afghan security forces, 
who, as you know, have been in the lead for the last 2 years 
providing security for their country. So this is not about us 
being in the fight. It is about us doing things for the Afghans 
to be more successful than they have been over the last two 
summers.
    Mrs. Davis. Do you have the resources that you need, both 
in the military and on the civilian side?
    General Dunford. As you suggested, Congresswoman, the 
options will include not just--it is not just about numbers of 
troops. It is about authorities. It is about other things we 
can do, diplomatic and economically as well.
    Mrs. Davis. Thank you.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Mattis, thank you for being here. You referenced 
that President Trump has talked about rebuilding the military 
and has called for an end to sequestration. You have called on 
us to help you rebuild the military and to end sequestration. 
And on all that, we agree.
    As we look to 2018, though, we are very concerned that this 
budget falls short of our ability to help you do that. There 
are important needs that you know that we see that are not met, 
and one of those is the concerns that we have for the end 
strength and what numbers are needed.
    So, in the discussion of what do we need, we can look to 
your statements, that we currently have an Army that is doing 
more than it has ever done. And if we look backwards to a time 
when the Army had less to do, when we thought the world was 
more safe, it certainly is pre-9/11. Pre-9/11, we had 482,000 
troops in Active Force. Today, we have 476 in current Active 
Force.
    Now, we know where we were going. President Obama had 
proposed drawing down the Army even further. He was going to be 
460 for fiscal year 2017, 450 for fiscal year 2018. Chris 
Gibson and I working with the chairman drafted the POSTURE Act 
[Protecting Our Security through Utilizing Right-Sized End-
Strength Act of 2016], and the Republican Congress prevented 
that drawdown, which keeps us at 476 today, still below the 
peacetime 482 of pre-9/11.
    Now, General Milley has recently come out and said: I need 
100,000 more. In this article here, he is proposing that we 
have Active Forces of 550,000, higher than the pre-9/11.
    If we look at the unfunded requirements for fiscal year 
2018, we know that the Army has asked for an additional 10,000 
Active, an additional 7,000 National Guard. Those are troops 
that they said that they needed but did not get. And it is very 
unusual in unfunded requirements to actually have force 
requests. Usually, they have like planes and tanks, not people.
    So, Secretary Mattis, we do not want to give you a hollow 
force. But if we are going to do more, do you need more 
soldiers?
    Secretary Mattis. I believe we do. I do not take any issue 
with the unfunded priorities list as far as a requirement. I 
think the base budget has the right priorities. If there is 
more money available, then I think that is a pretty good list: 
Army, Navy, Air Force, Marines.
    I would add, however, that we have got to have a stable 
budget horizon in the future. If we bring those troops in and 
we do not have a good budget by next year, then it is going to 
come out of our operation and maintenance and our modernization 
as we pay their salaries because, if we go under a CR 
[continuing resolution]--again, 9 out of the last 10 years, we 
have had some form of this--then we end up with an Army that 
actually, with the best of intentions, starts hollowing out.
    So it has got to be a balanced approach, sir. And right 
now, I think this is the way to set the conditions with fiscal 
year 2018. Excuse me, go ahead, sir.
    Mr. Turner. No, that is okay. As you know, we have been in 
those CRs because we have not had agreement between the House 
and the Senate and the outgoing administration on what to do. 
And so I am going to ask you about your conversations with OMB 
[Office of Management and Budget] because that currently is 
where one of our problems are as we are looking at the House 
trying to increase spending to give you what it is that you 
need.
    Could you give us some ideas? What do they say? Do they 
know that you have planes that cannot fly, that you have pilots 
that do not get flying time, that you have soldiers that are 
not ready, and that you have shortfalls in ammunition, 
training, and spare parts? Because the budget that they gave us 
does not fix that. And what is OMB saying? Because we would 
like to fix it now. We do not want to wait.
    Secretary Mattis. Well, sir, as you know, that is why we 
came to you for $21 billion just a few months ago to start 
reversing this. Fiscal year 2018 is how we are going to try to 
stabilize the problem and fill it in in a way that allows us to 
balance the force.
    This is where we will get the additional cyber troops and 
start building out like this. But the real growth comes in 2019 
to 2023 with a program that OMB is keenly aware we need and 
President Trump has highlighted to OMB. So we have his support 
on this.
    Mr. Turner. Secretary Mattis, I have got a question and I 
think I know the answer and that you are going to want to 
answer, and that is on sequestration: 142 of us sent the 
Speaker of the House a letter asking him to put on the House 
floor a bill repealing sequestration. Every member of the Armed 
Services Committee signed it on the Republican side. We 
certainly believe that the President's call for ending 
sequestration is important.
    I recall--and I am not sharing classified information 
here--when you called us in for a classified meeting on North 
Korea, we were all waiting to hear what you were going to say, 
and the first thing you said is repeal sequestration. That was 
more important than what you were going to tell us about what 
the threat was from North Korea.
    So I have got a question for you: Secretary Mattis, should 
we vote to repeal sequestration?
    Secretary Mattis. Yes, sir.
    Mr. Turner. Thank you. I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Secretary, Mr. Chairman, thank you very much for your 
service to the Nation and for your testimony today.
    Secretary Mattis, in the past, you have acknowledged the 
impacts of climate change on our National Security Strategy, 
stating, and I quote: ``Climate change is impacting stability 
in areas of the world where our troops are operating today,'' 
end quote.
    We are certainly aware of these coming dangers, first here 
in Rhode Island, being a coastal State. As such, I think it is 
critical to address how the Department of Defense quantifies 
the cost of climate change.
    I also assume that there is a cost in adapting our National 
Security Strategy to defend new sea-lanes in the Arctic or 
respond to regional instability abroad as a result of 
desertification, famine, and climate-related economic 
challenges.
    As someone who has thought deeply about this in the past, 
how are you guiding DOD [Department of Defense] to address 
these strategic and tactical challenges?
    Secretary Mattis. Yes, sir. I cannot quantify the cost. I 
will tell you, it is part of the physical environment, the 
warming. And for us, it comes down to, for example, we have a 
new sea that is navigable more year round, where the winter ice 
no longer extends as far south. So that is a national security 
consideration.
    We look at these as they develop, sir, from the warming 
climate. And we take it into account. But it is hard to 
quantify the cost. It is simply part of the broadening 
appreciation of the situation that we confront.
    Mr. Langevin. Can you talk about the steps that at least 
you are taking to identify those costs?
    Secretary Mattis. Sir, let me get back--I want to give you 
a good answer. Let me get back to you on that one.
    [The information referred to can be found in the Appendix 
on page 127.]
    Mr. Langevin. Fair enough.
    Secretary Mattis. Because there is, as you know, almost a 
Rubik's Cube of ways that you address one thing because it 
impacts another, and how you contain the analysis is actually 
quite challenging.
    But the bottom line is we have to address whatever the 
physical environment brings, whether it is storms in an area 
where we are responding with humanitarian or whatever else. I 
mean, this is all part of the physical environment.
    Mr. Langevin. I take you at your word, and I look forward 
to your more thorough answer then, Secretary.
    Secretary and Chairman Dunford, I believe that the value of 
our American power projection lies in our diverse and flexible 
abilities beyond traditional warfighting domains. Today, these 
strengths are jeopardized by the administration's shortsighted 
budget proposal, which fails to recognize the overlapping 
impacts of these varied interests.
    For example, underfunding the State Department will strain 
U.S. efforts to maintain our present level of diplomatic and 
military influence across the globe, and underfunding the 
Department of Education and Health and Human Services will 
undermine the military's ability to recruit the best and the 
brightest should we fail to invest in science, innovation, and 
programs that ensure Americans can meet the educational and 
fitness criteria of the Armed Forces.
    This is especially important in areas where technological 
change is outpacing our ability to match our adversaries and 
especially where focusing heavily on the third offset strategy. 
Would you agree with this assessment? What other specific 
challenges do you face when national interests are underfunded?
    General Dunford. Congressman, I will start with that. Look, 
I would agree with the point that you make. In every challenge 
that we are dealing with right now, there is a military 
dimension to the challenge, but also we require assistance from 
the State Department, Justice Department, other elements of the 
government, what we call whole-of-government solutions are 
required.
    And all of the challenges that you recited all require 
whole-of-government challenge. What we have done in the fiscal 
year 2018 budget, of course, is address the resources necessary 
for the military dimension of those challenges you referred to.
    Mr. Langevin. Mr. Secretary.
    Secretary Mattis. Sir, the State Department, the Defense 
Department are tied very tightly as we go into these 
situations. I will give you an example of ISIS. We just had a 
conference here. State Department hosted it. Sixty-six nations 
plus INTERPOL [International Criminal Police Organization], 
Arab League, NATO, European Union, and they all sat down 
together, not to talk about just the combat part, which we were 
able to address in about 15 percent of the conference, but 85 
percent was spent talking about the post-combat and how do we 
make certain, when we defeat them, how do we keep the next 
group from rising?
    My point is that these take the whole-of-government effort. 
And right now, the Defense Department and State Department work 
very closely. Not a week goes by where Secretary Tillerson and 
I are not personally sitting down together for hours. And we 
talk probably five, six, seven times a week as we try to make 
this a real tight team to address this sort of situation.
    Mr. Langevin. Thank you, Mr. Secretary.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Dunford and Secretary Mattis, the last 
administration was not very aggressive or, in my opinion, 
serious in confronting Russia about its INF [Intermediate-Range 
Nuclear Forces] violations. We have not had a senior military 
or DOD official testify before this committee that they believe 
that Russia is going to come back into compliance with the INF 
Treaty.
    So my question is, is this administration going to 
seriously confront Russia about their INF violations? And are 
you prepared or will you be prepared anytime in the near future 
to give us a set of military options for their violation--
continued violation?
    Secretary Mattis. Sir, we are meeting on the apparent 
violations, alleged violations, what looks like violations to 
us. We are meeting on it interagency-wide as we speak. And 
probably in closed hearing, at least initially, because we will 
also be consulting with NATO allies, for example, on this.
    As we build the international understanding of what has 
happened, we can brief you, I would say, soon. I cannot give 
you a specific date, but we are engaged on the effort right 
now.
    Mr. Rogers. Okay. Thank you.
    General Dunford, in March, your Vice Chairman, General 
Selva, testified before us and said, quote: ``There is no 
higher priority for the Joint Force than fielding all of the 
components of an effective nuclear deterrent, and we are 
emphasizing the nuclear mission over all other modernization 
programs when faced with that choice. Nuclear modernization can 
no longer be deferred as a result of previous delays in 
deferrals, all well considered. We are currently depending on 
just-in-time modernization and replacement of many of the 
components for our nuclear triad,'' closed quote.
    General, do you share this priority and emphasis on 
ensuring our nuclear modernization programs remain on schedule?
    General Dunford. Congressman, I do. And that priority has 
been reflected in both the 2017 and the 2018 budget.
    Mr. Rogers. Thank you.
    Secretary Mattis, do you believe that we should fully fund 
your fiscal year 2018 budget request for these programs or 
decrease the funding until we see the results of the NPR 
[Nuclear Posture Review]?
    Secretary Mattis. Sir, I am confident right now that 
maintaining a safe and secure nuclear deterrent is supported by 
the current budget, and we do not have to wait. What that 
review will do is tell us where we are going in the longer 
term, but right now, we know what we can do right now to keep 
the deterrent safe.
    Mr. Rogers. Great.
    Secretary Mattis, I would like to commend you a study by 
Dr. Colin Gray, which I request be entered into the record, Mr. 
Chairman.
    [The study referred to can be found in the Appendix on page 
115.]
    Mr. Rogers. In it, Dr. Gray states, quote: ``The American 
triad now begs for modernization to remain operational in 
coming years and deserves the attention and support of the U.S. 
leadership. In particular, the LRSO [Long Range Standoff] 
cruise missile will be a weapon with a performance character 
that must be highly desirable, even essential, to meet the kind 
of challenges of most concerned,'' closed quote.
    Dr. Gray also points out the long history of the use of 
dual-capable cruise missiles by both Russia and the United 
States, and said concerns about the LRSO as being destabilizing 
are overwrought, overstated, and unpersuasive.
    Secretary Mattis, I am going to save my question for the 
record, but I know you are a reader. And I would commend this 
study to you as you review the NPR.
    Thank you. And I yield back, Mr. Chairman.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. Welcome, everyone.
    Mr. Norquist, I have got a question for you, just very 
quick. Do you anticipate, as Comptroller, that you will be able 
to keep the timelines this committee would like to see the 
Pentagon keep in conducting the audit of Pentagon programs?
    Secretary Norquist. Yes. We will have the Department, all 
the major elements of the Department under audit in 2021--in 
2018, as required. That will include stand-alone audits for 
many of the organizations and an overarching audit of the 
entire Department overseen by the DOD IG [Department of Defense 
Inspector General].
    Most of those contracts are already awarded. There is one 
or two that are waiting to be finalized and awarded. But we 
have every expectation to be fully compliant and fully under 
audit.
    Mr. Larsen. Okay. And I anticipate other folks will have 
questions for you on that, but I wanted to be sure you were 
listening. No, I am sure you are.
    General Mattis, I want to return to Mr. Rogers' questions 
in theme only when it comes to the Nuclear Posture Review. Do 
you anticipate the NPR will decide on a triad versus dyad 
debate, or do you anticipate it will focus on specific programs 
within the nuclear enterprise? How are you approaching it?
    Secretary Mattis. Sir, we are going to have to address 
both. I think that whether it is a triad or a dyad will be 
resolved very, very early because of the strength of the triad 
right now, frankly. And then we will continue with the rest of 
the review.
    Mr. Larsen. At that--okay. All right. Do you anticipate 
that it will come out in stages like that, or do you anticipate 
one report at one time?
    Secretary Mattis. Right now, I anticipate one report, but, 
you know, if it looks like it can come out in stages, I would 
be willing to look at it. Right now, it is going to come out as 
one report.
    Mr. Larsen. Yeah. Thank you.
    Perhaps for General Dunford: So some of this debate in the 
recent past is that the NSC [National Security Council] has 
been more of an operational--too operational. It needs to 
return to being more strategic. And part of that discussion has 
resulted in this conversation about giving operators and 
combatant commanders and those below them in the hierarchy more 
authorities, additional authorities, especially when it comes 
to anti-ISIS and other counterterrorism operations.
    I do not have a big heartburn with that myself, but I do 
believe that there is still the oversight question is 
important, that it is still--whether it is policies set at NSC, 
whether it is policies set at NSC and DOD together, or if it is 
a set of actions taken by operators that then evolves into a 
policy, it is still policy, and it should be coming back to us 
for oversight.
    Now, that is a statement. And I kind of want to get your 
feel on, one, do you think the changes on authorizations have 
been either that noticeable or that great in the last 4 months, 
first? And, second, what is your thought on the oversight 
question from this committee?
    General Dunford. Congressman, I think the issue really is 
speed of decision making. And that more than the level at which 
decisions are made has been the point that Secretary Mattis has 
emphasized since he came in.
    I will tell you, having been in both administrations, the 
fundamental issues of force levels, authorities, and those 
kinds of things have rested either with the Secretary of 
Defense or the President in accordance with established policy. 
So there has not been a change in that regard. What the 
Secretary has emphasized is speed at the speed of relevance, 
meaning to support the commander. So we have emphasized that.
    And the other thing I would just say is that, in my 
experience, the national security decision-making process 
reflects the decision-making style of the President. And I am 
not sure there is a good or bad. It is the process reflects the 
degree of detail that the President wants to maintain oversight 
on.
    So what we have seen is that the President has delegated to 
the Secretary certain authorities in order to make him more 
responsive to commanders on the ground. But I can assure you 
that, on some of the major issues, there has been no change in 
the oversight nor will there be a change in what Congress is 
able to provide oversight for.
    Mr. Larsen. Thanks. Just in my last 30 seconds, it is 
really not a question, but I do want to put a plug in for the 
Electronic Warfare EXCOM [Executive Committee]. It has been a 
long road to get to an EXCOM, and I urge you to make EW 
[electronic warfare] a priority both in terms of leadership and 
investment and training and in R&D [research and development]. 
We have lost it in the past, and I think we finally got the 
Pentagon where it needs to be on EW overall, not just sort of 
service-to-service, so I would like to make sure you note that.
    Thank you. I yield back.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Secretary Mattis and General Dunford, for 
your lifetime commitment to human freedom.
    Thank you, Secretary Mattis, that you keep our enemies 
awake at night.
    Secretary Mattis, defense officials in South Korea and the 
U.S. as well have confirmed claims by North Korea that their 
ballistic missile launch of a liquid-fuel Hwasong-12 on May 14 
successfully survived reentry. I consider that to be a very 
significant and dangerous development. And then, a few days 
ago, the Director of the Missile Defense Agency Vice Admiral 
Syring, testified in open committee before the Strategic Forces 
Subcommittee that, quote: We must assume that North Korea today 
can range the United States with an ICBM carrying a nuclear 
warhead.
    Mr. Secretary, this new and alarming judgment suggests that 
the North Koreans are making significant progress as a result 
of their ballistic missile tests, yet the President's budget 
request for the Missile Defense Agency is $7.9 billion, which 
is the average MDA budget throughout the Obama administration. 
So my question is, in your best military opinion, is the threat 
posed by ballistic missiles greater now than it was under the 
Obama administration, and is that threat growing, shrinking, or 
staying the same? And if the threat is increasing, why would we 
wait for the Ballistic Missile Defense Review to at least fund 
the $1 billion unfunded request recently submitted by the 
Missile Defense Agency?
    Secretary Mattis. Congressman, right now, I would say that 
the threat is growing. However, what we have in Fort Greely now 
and in California I believe is sufficient to buy us time so 
that, when we come to you with a program, I can defend it and I 
will not come back and say we had it misjudged or targeted in 
the wrong direction.
    As you know, this is something that takes a high-tech, very 
focused effort, and I want to make certain that what I am 
asking for can sustain the way ahead in terms of giving us a 
real capability. And I also assume that every time they fire 
one of these, they are learning something more. So it is a 
worsening situation. But we can buy the time right now, 
Congressman.
    Mr. Franks. Well, let me, if I could, just leverage off of 
that and say that, under your budget requests, in Fort Greely 
and Vandenberg, once we deploy those 44 ground-based 
interceptors this year, we will not be able to continue to test 
and improve their reliability of the system without having to 
pull interceptors out of the ground, which means we will fall 
below 44 operational deployed interceptors to protect the 
United States homeland. And I guess I would just ask, are you 
aware of that, and do you believe that is an acceptable risk in 
this threat environment?
    Secretary Mattis. I am aware of it, and based on what we 
think North Korea has and could have in the near future, I am 
still confident that we can defend the country, and we will 
take steps to expand and distribute this capability, ballistic 
missile defense capability, further.
    In fact, right now, should we need another site, for 
example, on the East Coast to defend the East Coast, we are 
doing the environmental impact statement, so, in the event we 
have got to come to you and say we need to do more, we are not 
starting at that point with something that would take some 
time.
    So we are not at all blind to this, Congressman, and I 
accept your concern 100 percent.
    Mr. Franks. Thank you, Secretary. And General Dunford, 
would you have anything to add to either one of those points?
    General Dunford. The only thing I would say, Congressman, 
is that, when we look at the North Korean threat, you correctly 
point out ballistic missile defense as being critical, but when 
we balance it and you look at our investments in cyber 
capabilities in the intelligence community, maritime 
capabilities, all of those also are designed for North Korean 
threats. When we look at the North Korean challenge, we have 
got to balance capability development across multiple areas and 
not just the missile defense capability area.
    Mr. Franks. Well, thank you both, and keep them awake if 
you can. Thank you.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. And thank you to our 
witnesses, Secretary Mattis, Chairman Dunford, and Under 
Secretary Norquist.
    Secretary Mattis, it was a pleasure to meet you during the 
CODEL [congressional delegation] that our chairman led to the 
Shangri-La Dialogue. With two visits to the Indo-Asia-Pacific, 
I have particularly appreciated your commitment to positive 
engagement within the region. While we, our allies, and 
partners have been subjected to mixed messages, at best, from 
the administration, it is my hope that the rhetoric and the 
actions of the Department of Defense will signal consistency.
    So, Secretary Mattis and General Dunford, if you could 
speak about the value of forward-deployed forces in the Indo-
Asia-Pacific region in augmenting your toolbox, given political 
and financial considerations, what additional value is gained 
by having forces stationed on a United States territory? And 
what flexibility does it provide and what limitations does it 
remove to allow you and your force providers to be ready and 
ready to engage, when necessary?
    Secretary Mattis. Congresswoman, the Asia-Pacific theater 
is a priority theater for the United States for the United 
States Department of Defense. The value of the forward-deployed 
forces in themselves is that they are a stabilizing element. If 
we did not have them out there and we had to flow them in the 
event of a crisis, it could actually be a destabilizing 
element, as people were adjusting to a force that was not there 
before, whereas if they are out there in position, then they 
are present and any adversary would have to consider that if 
they were up to mischief.
    I would also say that having these forces on United States 
territory, whether it be Guam or Hawaii, obviously our 
sovereignty allows us certain freedoms of action and 
sustainment out there that we would not otherwise have the 
confidence in.
    Ms. Bordallo. General Dunford.
    General Dunford. Congresswoman, the Secretary kind of 
outlined it. From our perspective, I would just tell you, 
having been in the Pacific with you last week let me look at it 
through the lens of our allies and our adversaries. I would 
tell you us being forward certainly is great assurance to our 
allies that we can meet our alliance commitments, and it also 
serves as a deterrent to our potential adversaries in a region, 
as well.
    Ms. Bordallo. Well, I thank you both for your comments. I 
have another question for you, Secretary Mattis. Reflecting on 
your visits and discussions with senior military and political 
officials in the region, what role do our alliances, 
particularly the United States-Japan relationship, play in 
strengthening our posture and furthering our national 
interests?
    Additionally, how is the DOD strengthening partnerships 
through incorporating inter-organizational cooperation into 
planning and operations in the Indo-Asia-Pacific region?
    Secretary Mattis. Well, ma'am, I came into the Department 
with the priorities of strengthening our military, 
strengthening our alliances, and reforming our business 
practices so we get the best use of every dollar that we get.
    In terms of strengthening alliances, the United States-
Japan alliance has stood the test of time. They pay an enormous 
amount of the costs of our forces that are there in the 
Japanese islands, and we also have a technological relationship 
with them. They are a very capable force. Their navy, as you 
know, uses our systems, our ballistic missile defense systems, 
for example. So this is a two-way street in terms of benefit 
for the defense of our own homeland as well as for the defense 
of Japan.
    But I do not think that right now we can find--they are in 
that top tier of allies, frankly, that we have around the 
world. I do not think we can find a better one.
    Ms. Bordallo. So you feel then that Japan and the United 
States in its partnership for the buildup in the United States 
territory is solid?
    Secretary Mattis. I absolutely am certain. I have met with 
Prime Minister Abe, and he is committed to it, to include 
helping to fund the move of the Marines from Okinawa and the 
other Japanese islands down to Guam, and we will continue 
working it along those lines of a partnership with Japan and 
get the Marines in place.
    Ms. Bordallo. Well, I thank you both for your support. And 
I yield back, Mr. Chairman.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Gentlemen, thank you.
    General Mattis or Secretary Mattis, thank you for your 
clear statement on supporting the audit of the books and 
records of the financial statements of the Department of 
Defense. Thank you for that continued leadership and 
supportive, obviously, leadership from the top.
    General Dunford, I took a quick look at your statement, did 
not necessarily see something there, but I hope we can count on 
your leadership among the uniformed folks, because they are the 
ones at the pointy end of the sword on most of those 
transactions, and making sure that you have added your 
leadership to making sure that happens, and so I assume that is 
the case.
    General Dunford. That is the case, Congressman.
    Mr. Conaway. Thank you. And, Mr. Norquist, welcome to a 
terrific team. You and I were having a brief conversation at 
the start of the hearing that your experience--was it DHS 
[Department of Homeland Security]?
    Secretary Norquist. Yes, sir.
    Mr. Conaway. They have now finished 4 years of audited 
financial statements?
    Secretary Norquist. Correct. They did not have a clean 
opinion when I was brought there as the CFO [chief financial 
officer], but they already had an audit, and we implemented a 
process to turn that around with corrective action plans. DHS 
now has had four clean opinions.
    Mr. Conaway. Well, that is fantastic. Obviously, the 
Department of Defense spends a few more dollars than DHS, but 
thank you for bringing your talent and leadership to that task 
as well.
    General Dunford mentioned something about a 3 percent above 
the base rate of inflation would be necessary just to simply 
keep pace with where we are going. Mr. Norquist, could you give 
us a dollar amount what that might look like, assuming just a 
flat 3 percent, a zero-based inflation, what the dollar amount 
would be? I know the math, but would you put that in record 
what that math would look like?
    Secretary Norquist. I would be happy to. You want it for 
the record, sir?
    Mr. Conaway. I would rather have you just state it right 
out, something in the order of $20 billion.
    Secretary Norquist. $639 billion at 3 percent would be 
about $18 billion to $20 billion a year, sir.
    Mr. Conaway. All right. Thank you very much. I appreciate 
that. I did not mean to put you on the spot. General Mattis, 
you mentioned BRAC in 2021. Obviously, it takes a lot of money 
to implement a BRAC--obviously a BRAC process to go through 
will spend that money, but actually those recommendations then 
result in a--construction and decommissioning, all kinds of 
expenses that go into that. Saving those dollars on the back 
end are clearly important, but could you talk to us somewhat 
about, are there operational reasons why we would go through a 
BRAC, given that today's force looks dramatically different in 
terms of training needs--I am maybe trying to answer your 
question for you, but I want folks to know that, while it takes 
a long time to recoup those dollars, there may very well be 
things that, other than the dollars and cents, that would lead 
us to make some of those hard decisions.
    Secretary Mattis. Well, exactly, sir. The money that we 
free up from closing an unneeded base continues to accrue to 
us. It takes a couple years to start taking the profits, of 
course, because we have to close the base down, but once those 
reduced costs for that unnecessary base go away, then every 
year you are gaining that money for training, for buying new 
equipment, for modernization.
    I am not comfortable right now that we have a full 20-some 
percent excess. I need to go back through and look through this 
again because I do not want to, you know, get rid of something 
or come to you with something that we cannot sustain and we try 
and say we have got to buy some land here in 10 years. So we 
will take a look at it, sir, but it is a great way to free up 
money.
    Mr. Conaway. Clearly, we try to do that, and the 2005 BRAC 
may today be saving us money, but I guess what I was looking 
for, are there reasons, operational reasons, training, better 
locating folks together that have been in separate bases 
across, are there reasons why we would do that separate and 
apart from the savings and where those savings would accrue to 
the future?
    Secretary Mattis. I am sure we would find some of that, 
sir. I would have to look at each individual case to state that 
firmly.
    Mr. Conaway. I think as we start down that path of doing a 
BRAC, the checkered history of the 2005 BRAC, we are going to 
need reasons other than just a straight savings in terms of 
making that happen, and if there are operational reasons why we 
would close some bases, open other bases, build new places and 
certain other spots in order to train better, more efficiently, 
be able to deploy quicker and more efficiently, all those 
things would be helpful as well.
    So, again, thank all three of you for your service. And I 
yield back, Mr. Chair.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you to the witnesses for your testimony today. I 
would like to go back to where the chairman and ranking member 
started off talking about this budget in the context of a lot 
of the expectations that have built up before it was submitted, 
in particular in terms of the Navy.
    Over the last 3 years, we have had strategic reviews 
including a Cooperative Strategy for 21st Century Seapower--
actually, General Dunford participated in that review again--
which talked about the need to grow the fleet larger than 308 
ships. We had the Force Structure Assessment that Secretary 
Mabus submitted last December, which, again, put an exact 
number saying that we should build a fleet of 355 ships. We 
had, in early 2017, an accelerated shipbuilding plan, which 
Assistant Secretary Stackley sent over, which actually showed a 
roadmap in terms of how we can jump-start that process and 
called for a minimum of 12 ships in the 2018 budget to again 
get us moving in that direction. Three force structure and 
architectural studies that Navy--architectural studies that 
this committee commissioned--which actually talked about even 
bigger numbers in terms of the fleet.
    And now we get a budget which, on the 23rd, it actually had 
only eight ships on it; on the 24th of May, it grew a ship. 
But, you know, there is just no debate really about the fact 
that, you know, what is going on out there, and we hear from 
Admiral Harris, and we hear from General Scaparrotti in terms 
of the demands out there, and we are living off a legacy fleet 
in terms of the ships that we have out there.
    I do not understand the hesitation in this budget in terms 
of taking advantage of all the work that has been done over the 
last 3 years to have, again, a more robust shipbuilding plan 
than what was sent over.
    Secretary Mattis. Yes, sir. I think, once we get our 
strategy review done, so we can give you a compelling logic, 
not just for number of Navy ships but number of Air Force 
fighter squadrons, bomber squadrons, the number of Army 
brigades--we have got to weave this whole fabric together to 
make certain we have a joint force that is ready to fight. I 
would love to have more ships. You are right. There are nine 
ships in this one, in this 2018 budget, and we know that we 
need more, but we have got to get our plan together. As you 
know, we have been in place here only about 5 months, and we 
need to get our analysis basically harvested from all those 
that you just mentioned and then come up with a planned way 
ahead.
    But as you know, ships are expensive, and we have got to 
make certain that we have the budget to support it. And, right 
now, I cannot ignore the reality of the U.S. Army situation or 
the Air Force fighter squadrons, the Navy aircraft, all the 
other things we are having to spend money on.
    Mr. Courtney. Well, again, I mentioned all those prior 
studies, which really were built around a strategic foundation. 
Again, it was not just a wish list that was put out there.
    And I would also just know, having been on the subcommittee 
for 10 years now, is that shipbuilding is a long game. You have 
got to send a demand signal out, not just the big shipyards but 
also the supply chain, which frankly went through a 
shipbuilding holiday in the early 2000s and which really 
destroyed, you know, a really healthy industrial base and 
supply chain. And I, frankly, think this budget, you know, 
undercuts that demand signal that people really, I think, were 
really starting to believe in, in terms of what we have seen 
over the last 3 years.
    So I would just say that I think our subcommittee is not 
going to wait. I mean, I think you are going to see, frankly, 
some work being done on this side to really take advantage of 
the great work that all these studies have accumulated over the 
last 3 or 4 years and, again, which we hear in person from 
combatant commanders about the fact that they are playing zone 
defense out there against the Chinese navy and the Russian 
navy. And that is really just not an acceptable state of 
affairs, particularly given the fact that we are going to see 
legacy ships coming offline in greater numbers than the 
replacement volume that a nine-ship budget calls for. That is a 
308-ship Navy budget that was sent over here, not a 350-ship 
budget.
    And, again, I have the highest respect for all of you, and 
I think you understand, you know, what is going on out there 
and the need to grow the fleet, but we have got to do better 
than what was sent over.
    And I yield back, Mr. Chairman.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Chairman Dunford, Secretary Mattis, Mr. Norquist, again, 
thank you so much for your commitment and service to our 
Nation. I do want to continue along the lines of questions 
about shipbuilding.
    Secretary Mattis, you stated, which I think is 
extraordinarily important, the need for us to understand that 
we have been marking time, at best, here in the last several 
years and that our adversaries are advancing. That is 
problematic. You also talked about the capabilities that they 
have, the ones they continue to develop, and if we are going to 
have the ability to make sure that we influence the course of 
events, United States presence is critical around the world. 
The Navy-Marine Corps team is a critical part of that, and I 
know I am speaking to the choir here.
    But I do want to build on the question asked before, and 
that is, across the spectrum, I have not heard anybody that has 
disagreed with saying 355 is not a number that we should direct 
our efforts toward. And this year's budget has us on track to 
get to the number that is in the outdated 30-year shipbuilding 
plan of 308 ships.
    So the question being is, if there is this near universal 
agreement that 355 is where we need to be, we cannot mark time; 
we need to catch up. Our adversaries are doing everything they 
can in building additional capacity, whether it is under the 
seas, across the spectrum with aircraft carriers, surface navy. 
The question is, is it does seem counterintuitive to say we are 
just going to do eight ships this year or nine ships. I 
understand wanting to maintain those and making sure we are 
doing those things. But another thing that is additionally 
troubling, not with just the number of ships, but this year's 
budget request actually cuts a billion dollars out of 
shipbuilding accounts.
    So, in that realm, my question is, why only nine ships this 
year, but more fundamentally, with cutting a billion dollars 
out of the shipbuilding accounts, how do we see our Navy 
getting to 355 ships, and when will we be able to get there? 
You know, the CBO [Congressional Budget Office] has done an 
assessment about when we believe we can get there. We think we 
have the industrial capacity to get there. The question is 
strategically for our Nation the urgency of getting there.
    Give me your perspective, both Secretary Mattis and 
Chairman Dunford, about those two elements, the numbers and the 
dollars reflected in this year's budget.
    Secretary Mattis. Well, I share your sense of urgency, sir. 
As I mentioned in my opening remarks, we did not get into this 
situation in one year, and we are not going to get out of it in 
one year. And I recognize that Congress has responsibility to 
raise armies and sustain navies, but we cannot do in one year 
or put a marker down in one year. It is unrealistic. And I 
mentioned that we are going to have to have sustained growth 
fiscal year 2019 to 2023, and this is where you will see the 
biggest growth Army, Air Force, and Navy showing up, as we are 
still digging ourselves out of a readiness, operation, and 
maintenance hole. Furthermore, we are engaged in operations 
where we have to come to you and ask for OCO funding, overseas 
contingency operations funding. When you get done, there is a 
carrying capacity that we can carry as part of the present 
budget, and we just have to recognize that.
    But I take no issue with what you are saying or the sense 
of urgency as we try to deal with what amounts to years of 
falling behind.
    Mr. Wittman. Chairman Dunford.
    General Dunford. Congressman, I think that this highlights 
the debate we had internal inside the Department as a result of 
not modernizing in so many areas at the same time. What I can 
tell you is I am confident we have the right priorities within 
the budget, but I am also, as the Congressman mentioned 
earlier, I was part of at least one of these studies that 
articulated the need for more ships, and so I understand that 
also as Secretary Mattis' global force manager trying to meet 
on a day-to-day basis the combatant commanders' demands.
    This really does reflect the challenge outlined in my 
opening remarks, is that this year and last year it started, we 
are confronted with literally what has been described as a bow 
wave of modernization in the nuclear enterprise, in the cyber 
capabilities, our electronic warfare capabilities, space 
resilience, maritime capabilities, land forces. And so what we 
try to do is just get the right balance within the top line 
that we have been given.
    It is also why I highlighted that minimum of 3 percent just 
to maintain the competitive advantage that we have today. And 
that actually is a marker for saying that if we do want to get 
to 355 ships, if we do want to get to the number of the brigade 
combat teams that have been identified, if we do want to get to 
the numbers of squadrons that are required, it is going to take 
sustained growth over time. And that is why 2019, 2020, 2021, 
and 2022 are so important because we just could not get there 
in 2018.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and welcome to you 
both this evening. It is good to see you before us. It seems to 
me, as we have been talking here today and you have both given 
voice to the variety of threats we face, whether it is from 
those who wish us ill but also from the changing dynamics of 
how we have to respond to, for example, cyber and making sure 
we are making all the appropriate investments, it is sort of a 
dual-track challenge we have.
    It is clear to me that the military services, you all need 
to recruit from a talent pool that is as broad as possible. 
General Dunford, you represented, you said how important it is 
to secure our competitive advantage, and, Secretary Mattis, you 
talk about having the most capable warfighting force in the 
world, and that does come down to people.
    An analysis conducted for the Defense Advisory Committee on 
Women in the Services estimated that only 29 percent of young 
people ages 18 to 23 are eligible to serve after you apply all 
the filters that rule people out. And I think you referenced 
that number, too. Of that population of eligible individuals, 
more than 51 percent happen to be women. However, less than 20 
percent of today's Active Duty Force is comprised of women. In 
an era where the eligible military recruiting population 
remains on the decline, it seems to me it is ever more 
important that we recruit from the entire population and not 
disregard or discourage half of our Nation's talent pool.
    So, with that in mind, how do we--how are you all thinking 
about your recruiting efforts around bringing women into the 
military so that you do have that full array of talents that 
are needed in this very dynamic environment, and in thinking 
about that, how do you make the case for the invaluable 
contributions they could be making to serving their country in 
the military?
    So I will start with you, Secretary Mattis.
    Secretary Mattis. Yes, Congresswoman.
    I do not think in any way we disregard or discourage it. In 
fact, we are fortunate for decades now to have had superb 
women--they are not good; they are outstanding--in our ranks. I 
think the quality standards are being met across the board, men 
and women, enlisted and officer ranks. So right now I would 
just tell you that they are, without the pressure of 
conscription or the draft, we are getting volunteers of eye-
watering quality of men and women.
    Ms. Tsongas. Well, I would agree that is the case of those 
who come in, but the reality is, of that larger pool, only 20 
percent are seeking to serve. So, yes, I think there has to be 
some thinking on better recruitment efforts in order to bring 
more of that pool in.
    But I also wanted to follow up that I was glad to hear in 
January that, in your confirmation hearings, you were committed 
to having men and women serve alongside each other as long as 
all parties met the standards necessary for the job. Under your 
predecessors, the services launched a review of the physical 
standards that all services have to meet in combat arms--and I 
have seen some of that process at Natick Soldier Systems in 
Massachusetts--but to establish the physiological standards in 
order to integrate women into every occupation specialty.
    My question is, how are you planning on assessing the 
progress of ongoing integration efforts?
    Secretary Mattis. I would have to see if the services have 
identified any problems or our various surveys find a problem. 
If there is a problem, we will assess it and solve it, I 
guarantee you.
    Ms. Tsongas. So, in your time, as has been a rather brief 
tenure, are you monitoring those efforts?
    Secretary Mattis. Ma'am, I have met with the Joint Chiefs 
of Staff, the service chiefs, with Chairman Dunford. I did it 
in my quarters to make it a casual evening where this issue was 
brought up, and none of them surfaced any problems right now.
    Ms. Tsongas. And then one other quick question. In the wake 
of the various social media scandals, what do you think needs 
to be done to improve the culture of respect across the 
Department as a whole?
    Secretary Mattis. I believe that it is very important, as 
we recruit from American society, that we make clear not just 
what the military stands for but what it absolutely will not 
stand for and make certain we maintain good order and 
discipline.
    A unit cannot be effective in combat that does not maintain 
a disciplined lifestyle. I do not care whether it is DUI, 
driving under intoxication, or sexual harassment or anything 
else, when a unit does not maintain discipline standards, it is 
of less capability on the battlefield. So we maintain a mission 
orientation and make very clear what we will not tolerate, and 
we field the force.
    Ms. Tsongas. Thank you, Secretary Mattis, and thank you for 
your service.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And, Secretary Mattis, General Dunford, thank you so much 
for your service to this country.
    Secretary Mattis, current law requires that military pay is 
to keep pace with government inflation projections. This year, 
that would be a 2.4 percent pay raise. Unfortunately, the 
administration submitted a budget request that would cut our 
service members' pay raise. Secretary Mattis, were these 
decisions based on budget constraints or your belief that pay 
for the military should not keep pace with government inflation 
projections?
    Secretary Mattis. Thank you, Congressman.
    We have a responsibility to take care of our families, take 
care of our troops and make certain they are paid what we need 
to draw very good people and that they do not go off to combat 
worried about whether or not their family is being taken care 
of. Whether it be healthcare or retirement program pay, all 
those go into making certain we keep faith with them.
    I also have a responsibility to ensure that they can win on 
the battlefield, that we are providing them the best equipment, 
that we are doing the research and development that will keep 
them at the top of their game. It is a balancing act, sir, as 
we try to balance what we need to outfit them with to bring 
them home alive and victorious with what we need to pay them to 
maintain basically our obligation to these people who volunteer 
to serve.
    Mr. Coffman. Thank you, Secretary Mattis.
    Military services are already having trouble recruiting men 
and women to join the services due to competition with an 
improving private sector economy. How do you maintain the All-
Volunteer Force if you will not pay them competitive wages?
    Secretary Mattis. Sir, I think our analysis shows that we 
are paying them very competitive wages. When you stack them up 
against high school graduates, for example, for the enlisted 
ranks, we probably have a better benefits package than most 
places, not all of them. I mean, there are some out in Silicon 
Valley, where I lived for 3 years, that could probably beat us 
hands down. When you look across the United States, we are 
drawing in very high-quality people because we are competitive.
    Mr. Coffman. Secretary Mattis, one thing that I would like 
you to take a look at in terms of containing costs where we can 
shift those resources around to things like pay raises that 
keep up with inflation is to look at every opportunity to shift 
capability to the Guard and Reserve, and granted those training 
requirements would have to probably be revised accordingly if 
we are going to rely on them more, but I just think that there 
are cultural impediments within the Active Duty Force that 
argue against that, and I think we need to look beyond that in 
terms of our force structure and how we can maintain 
capability, how we can certainly maintain capability without 
compromising national security, but at a lower cost.
    Secretary Mattis. Yes, sir.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Gentlemen, thank you for your service and 
leadership.
    I will try to do some quick questions here about choices. 
We are looking at tax cuts that might create a $3 trillion to 
$7 trillion deficit in the next 10 years. We are looking at a 
State Department budget immediately that calls for a $30 
billion reduction and a dyad and a triad. How would you 
prioritize these?
    Secretary Mattis. Well, sir, in my role maintaining a safe 
and secure--inside the Department of Defense--maintaining a 
safe and secure nuclear deterrent with a decisive conventional 
force that can also fight, has the capability of fighting 
irregular warfare, the problem--Dr. Colin Gray was mentioned 
earlier. The most near-faultless strategist alive today has 
pointed out the enemy will always move against your perceived 
weakness. So we cannot decide we are only going to upgrade the 
nuclear, we are only going to upgrade the Navy, because the 
enemy will move against our weak area. So it is going to be 
safe and secure nuke capability deterrence so those weapons are 
never used; and a conventional capability that no one wants to 
take us on, or if they do, we change their mind very quickly.
    Mr. Garamendi. So we do not have to make choices, we can do 
all the above.
    Secretary Mattis. I believe that we can, that America can 
afford survival, yes, sir.
    Mr. Garamendi. Even though it is estimated to be a 
trillion-plus dollars in the next two decades for the nuclear?
    Secretary Mattis. We have gone through this twice before in 
our history, sir, where we had to hit one of these upgrade 
times, and both times the Congress rose to it, yes, sir.
    Mr. Garamendi. Thank you. I will just move on to something 
perhaps a little less important. Current law prohibits 
military-to-military contacts with Russia. Should the new 
National Defense Authorization Act continue that policy?
    Secretary Mattis. Sir, I think that we are right now 
carrying on deconfliction. We do not do cooperation or 
collaboration. We do deconfliction in the Syria theater, but 
for right now, I believe that there cannot be business as usual 
military-to-military. There may be advantages to us 
deconflicting and perhaps even having talks once they are led, 
first of all, by our foreign policy and our State Department to 
set the conditions for the military-to-military talks.
    Mr. Garamendi. So we should continue the prohibition on 
military-to-military, other than deconfliction?
    Secretary Mattis. I think at least the Congress should give 
a sense of its direction. If it is not a requirement, if it 
leaves some flexibility to the executive branch and the 
Secretary of State and the President, it would be best.
    Mr. Garamendi. You mentioned that we have a new ocean or a 
sea opening up. I assume you are referring to the Arctic. Is 
the U.S. Coast Guard an important and integral part of the U.S. 
defense, and if so, is a heavy icebreaker necessary?
    Secretary Mattis. I believe the Coast Guard is essential--
an integral--distinct but integral--part of our Nation's 
defense, and that is not an area I am an expert in, I assure 
you, sir, but I would imagine getting through the ice is 
probably a pretty good idea up there when it starts moving in 
to keep us relevant.
    Mr. Garamendi. An icebreaker is about a billion dollars a 
copy, a heavy icebreaker. Should we allow $1 billion of the 
$638 billion budget to be used to build an icebreaker?
    Secretary Mattis. Sir, this is really beyond my area of 
expertise. I am not trying to get out of the question, but it 
is not one I have studied. I would prefer to study it before 
answering it.
    Mr. Garamendi. I thank you. And I yield back my remaining 
time.
    The Chairman. Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. And thank you, 
gentlemen, for your service.
    I have a few questions I would like to ask on the LRS [Long 
Range Standoff] program.
    Secretary Mattis, last July, then Under Secretary of State 
for Arms Control Rose Gottemoeller testified before Congress 
regarding the Long Range Standoff cruise missile program, and I 
would like to introduce her written testimony for the record.
    [The information referred to can be found in the Appendix 
on page 121.]
    Mrs. Hartzler. Here are a few quotes from Secretary 
Gottemoeller's testimony, which she said were focused on three 
key points: ``First, the LRSO is consistent with our arms 
control commitments and the President's Prague agenda. Second, 
the LRSO supports strategic stability and does not undermine 
it. Third, it is important in the eyes of our allies.'' She 
elaborated: ``There is no evidence that the LRSO or our nuclear 
modernization program are prompting an action-reaction cycle or 
catalyzing arms race. . . . The LRSO is valuable at maintaining 
strategic stability. . . . Indeed, it is the absence of a 
nuclear armed cruise missile that might leave us more 
vulnerable to unintended escalation during a crisis. Without a 
standoff cruise missile option, future Presidents may find 
themselves facing the unpalatable choice of responding to 
nuclear coercion or attack with SLBMs [submarine-launched 
ballistic missiles] or ICBMs.''
    So, Mr. Secretary, as the Nuclear Posture Review continues, 
and you examine the LRSO program, how will you and your team 
consider the input of the Nation's senior diplomats like Ms. 
Gottemoeller, and do you agree with her position that the LRSO 
enhances strategic stability and is important for assuring our 
allies?
    Secretary Mattis. Ms. Gottemoeller's reputation stands on 
its own merit. I have had private discussions with her as 
recently as this last month in Brussels, and she is a trusted 
adviser.
    As far as whether or not I would stand on the LRSO right 
now, I am going to wait until we have the study done, and then 
I can let you know, but I have no reservations about taking Ms. 
Gottemoeller's ideas on board, no reservations at all.
    Mrs. Hartzler. Great. And I hope you will read her comments 
and her testimony on that because I think it was very good 
insight there.
    I want to shift gears just a little bit here to another 
topic. So, General Dunford, in 2012, the Obama administration 
ended the U.S. military strategy that required a force 
structure and readiness levels capable of fighting two large-
scale wars simultaneously. At the time, the Pentagon stated 
that times have changed, and the United States no longer faced 
a peer military on par with the Soviet Union. This worldview 
was quickly disrupted by a resurgent Russia and expanding China 
and continued instability of North Korea and Iran.
    So my question is, what do you see as the force structure 
requirement in order to guarantee American security of our 
allies across the globe? Do we need to be able to fight a 
conventional war with China and Russia simultaneously? And are 
we currently able to fight two conventional wars at once, and 
if not, what do you see as the greatest capability gap that 
must be addressed?
    General Dunford. Congresswoman, we do confront today 
Russia, China, Iran, North Korea, and violent extremism. And we 
are going to go through the Defense Security Review. We are 
going to have a closed hearing on Thursday night, and I would 
like to talk to our force size and construct and the challenges 
we face in a closed hearing if we can do that.
    Mrs. Hartzler. Yes, but you agree it is important to be 
able to address all of these at the same time?
    General Dunford. Certainly one or more.
    Mrs. Hartzler. Right. Okay. I look forward to that.
    The last question, back to Mr. Secretary. I remain deeply 
concerned about our strike fighter shortfall. According to the 
Vice Chief of Naval Operations, Admiral Bill Moran, two-thirds, 
more than 60 percent, of our Navy's strike fighters, the planes 
that are launching the entirety of the Navy's attacks against 
ISIS, cannot fly. I am pleased to see the fiscal year 2018 
budget request including 14 F/A-18 Super Hornets as well as 
another 10 Super Hornets as a top priority of the Navy's 
unfunded priority list. So can you talk about how important it 
is for us to address the Navy's strike fighter shortfall and 
how important new procurement is in that effort?
    Secretary Mattis. Yes, ma'am. The bottom line is we cannot 
simply repair enough fighters to bring them back up to full 
strength, so we actually are going to have to buy more 
fighters.
    Furthermore, when you look at the $21 billion that Congress 
gave us as fiscal year 2017 supplemental, much of that went 
into buying spare parts for fighters for the very reason you 
are highlighting here and Admiral Moran highlighted. So we are 
on to the problem. We have got to keep the modernization going, 
but we are going to need some gap fillers. Before we get the F-
35, we are going to have to have more Hornets, for example, for 
the Navy to address this problem.
    So we share your appreciation of the problem, and we are 
addressing it, but at the same time, it is going to take a 
little while before you hear better testimony in here.
    Mrs. Hartzler. Thank you.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    To all three of you, I want to just say that, on behalf of 
the American people, I think they are all breathing a sigh of 
relief tonight because you exhibit the kind of confidence and 
steady leadership that I think we desperately need in the 
military right now. I am going to ask you three questions for 
the record that I will just ask them, and then I will move on 
to a question that you can answer orally.
    The Annual Report on Sexual Harassment and Violence at the 
Military Service Academies was just released a couple months 
ago, and it is stunningly bereft of answers to some of the most 
jarring statistics. Forty-eight percent of the service academy 
cadets and midshipmen indicate that they are sexually harassed. 
And of those that actually report sexual assaults, they suggest 
that there is a retaliation rate of 47 percent. So, for the 
record, I would like for you to provide to me and to the 
committee what you are going to do to address what I think is a 
staggering statistic.
    [The information referred to can be found in the Appendix 
on page 127.]
    Ms. Speier. Along with retaliation, James LaPorta was the 
reporter that broke the Marines United case. I think all of us 
here were shocked by the revelations. It is not just in the 
Marines; it is in all of the services. But he just recently was 
told that he is debarred from coming onto the Lejeune Base by 
the deputy commander. And I would like for you to explain to us 
why, after he did a great service I think to all service 
members by outing this conduct, that he would be debarred.
    [The information referred to can be found in the Appendix 
on page 127.]
    Ms. Speier. And, thirdly, there have been, to our 
knowledge, a number of government meetings, including meetings 
with foreign counterparts, that have been held at properties 
owned by the President. I would like to ask each of you if you 
or your staff have participated in official government events 
at properties owned by the President, and if so, did the 
Department of Defense expend taxpayer money to pay for costs 
associated with that event, including room and board, meals, or 
other incidental costs?
    [The information referred to can be found in the Appendix 
on page 127.]
    Ms. Speier. Those are the three questions.
    Now, the one I would like for you to answer publicly. 
Secretary Mattis, you have been blunt in your assessment of 
Russia as a principal threat to the United States. Russia has 
been seemingly relentless in its provocations: buzzing our 
ships in an irresponsible and dangerous manner, flying long-
range strategic bombers to Alaska, and violating the INF 
[Treaty]. The President has been silent about these hostile 
actions. There is much speculation as to why. But I guess my 
question to you, Mr. Secretary, is, do you believe that 
Vladimir Putin has any real interest in a mutually beneficial 
good-faith partnership with the United States?
    And, General Dunford, how do you plan to respond to these 
Russian military provocations?
    Secretary Mattis. At this time, Congresswoman, I do not see 
any indication that Mr. Putin would want a positive 
relationship with us. That is not to say we cannot get there as 
we look for common ground, but at this point, he has chosen to 
be competitive--a strategic competitor with us, and we will 
have to deal with that as we see it.
    Ms. Speier. General.
    General Dunford. Congresswoman, last year, in fiscal year 
2017, we requested $3.7 billion for what is called the European 
Reassurance Initiative. This year, we have requested $4.8 
billion. That money is designed to increase our forward 
presence in Europe. It will increase the three brigade combat 
teams as well as additional preposition equipment. It increases 
the exercises that we conduct in Europe, all of which is 
designed to deter Russia and assure our partners that we can 
meet our NATO alliance commitments.
    So we have significantly changed our force posture in 
Europe and, again, our exercises and capability development 
with our partners in response to growing Russian capability and 
aggression.
    Ms. Speier. Do you believe that Russia is our adversary?
    General Dunford. I think we have an adversarial 
relationship with Russia, a competitive adversarial 
relationship, yes, Congresswoman.
    Ms. Speier. Secretary Mattis.
    Secretary Mattis. Mr. Putin has chosen to be a strategic 
competitor, yes.
    Ms. Speier. Thank you. I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Gentlemen, thank you 
for your service.
    Just to refresh people's memory on the Budget Control Act, 
the reason the Budget Control Act was put in place was to 
effectively create so much pain on the discretionary side of 
the spending that it would force formula changes to the 
mandatory side of the budget. Those mandatory changes never 
came about. One of the challenges that we have is that we are 
just living longer, and that has created challenges with the 
funding of Medicare and Social Security. Probably better than 
the alternative, though.
    But as it is, we live under the Budget Control Act. We as a 
Congress have been reactive to trying to resolve this problem, 
and it has created a very serious challenge for the three of 
you at that table. We have talked about the military budget on 
an annual basis for the last several years, but, General 
Dunford, if the BCA is not repealed, what does our military 
look like 4 years from now if we are working under the Budget 
Control Act numbers?
    General Dunford. Congressman, we will have some tough 
choices to make, and it is either going to be a significantly 
smaller military incapable of meeting the strategy, or we will 
try to maintain capacity, in which case it will be the hollow 
force that I joined in the late 1970s. In either case, it is 
not what the United States of America needs to defend itself.
    Mr. Scott. I would just suggest that the sooner we deal 
with the BCA, the better off we will be. It makes no sense to 
start building a ship today that cannot be completed because 
the Budget Control Act forces the termination of the contract 
early.
    As we talk about those tough choices, a lot of countries 
were mentioned. Some countries that were not mentioned in your 
testimony were Venezuela, Honduras, El Salvador, Colombia, 
Guatemala, Mexico.
    I had time to visit with Admiral Tidd in Miami a few months 
ago. We talked about the narcotics flow into the United States 
from those countries. Approximately 50,000 Americans died from 
drug overdoses last year. At a minimum, half of that, half of 
those drugs originated from the SOUTHCOM [U.S. Southern 
Command] area of responsibility. A lot of other countries down 
there with chaos that are going on outside of the transnational 
criminal organizations.
    What additional resources do we need to combat the 
transnational criminal organizations within the SOUTHCOM 
region? Given the threat that they pose to Americans, why is 
this not a higher U.S. national security priority?
    General Dunford. Congressman, the two major capability 
areas that Admiral Tidd probably shared with you when you were 
down there is intelligence, surveillance, and reconnaissance, 
so he can support the interagency effort to stop drug flow, as 
well as maritime capability to interdict that drug flow. Those 
are the two main capability areas that he would want to have 
and that we have not been able to routinely meet the 
requirements that he has identified.
    Mr. Scott. General, they are so short-funded that, when 
they have the intel that there is a load of cocaine coming into 
the United States, in many cases, they have to sit there and 
watch it go by.
    I know, as we talk about all of these other concerns, you 
have got a lot to balance, but I just wonder if maybe, just as 
we do for OCO, maybe there should be a direct funding line for 
SOUTHCOM with regard to the drug interdiction mission. I know 
that, without training dollars, they simply would not be able 
to function at this stage. And so I would just encourage you as 
you go forward to just keep in mind that over 50,000 Americans 
died from drug overdoses last year, significantly more than 
have died from acts of terrorism in the last decade, and that 
war is on our border. It is right here. It is on top of us.
    With that said, I appreciate your service to the country, 
your commitment to the country.
    And, Mr. Norquist, I look forward to getting to know you 
better, but thank you for your service as well.
    With that, I yield the remainder of my time.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your service and for joining us here this evening.
    Secretary Mattis, after the attacks on 9/11, the leaders of 
our country made a commitment to the American people that they 
would go after and defeat Al Qaeda, yet we have not carried out 
a serious campaign to do so to defeat Al Qaeda in Syria 
specifically where, as a result of that, Al Qaeda has been able 
to gain strength and territory.
    In your budget request this year, your request of $500 
million to counter ISIS in Syria does not include any mention 
or dollars to go after Al Qaeda. So my question is, is this for 
military reasons or political reasons, namely that Al Qaeda is 
allied with and so deeply intertwined with the so-called 
moderate rebels that the United States, Saudi Arabia, Qatar, 
and other Gulf states have been financing and supporting in 
their fight to overthrow the Syrian Government?
    Secretary Mattis. Congresswoman, we have had a serious 
campaign, as you know, against Al Qaeda. Al Qaeda in the FATA 
[Federally Administered Tribal Areas] area has been shredded as 
a capable outfit. They have been unable to attack America for 
many, many years.
    Now, they have franchised out is the point you are making 
and from Yemen to Somalia, from the Sahel to certainly Syria, 
and all this is a franchised Al Qaeda metastasizing threat.
    Ms. Gabbard. And, respectfully, sir, I agree and understand 
that Al Qaeda has spread, but specifically with Syria, Al 
Qaeda's presence in Syria is far greater today than it ever was 
before, which speaks to my question about our lack of taking 
them on in a serious way, specifically in Syria.
    Secretary Mattis. The location of where they are at in 
Syria makes them very difficult for us to reach, frankly, and 
we would have to deconflict even more vis-a-vis the Russians. 
Let me ask General Dunford if he has anything to add to this. 
But you are right. They are embedded pretty deeply, and they 
are hard to get to.
    General Dunford. Congresswoman, I know you visited and you 
probably know--well, you can argue whether we have had 
sufficient resources. We do have a dedicated campaign against 
Al Qaeda in Syria. We do have specific resources dedicated just 
for the fight against Al Qaeda, but it is fair to say our 
priority in Syria has been ISIS because we are operating 
largely in the east, and that is where ISIS has been.
    Ms. Gabbard. To both of you gentlemen, when your budget is 
for a counter-ISIS program, your commander's mission on the 
ground for Inherent Resolve is to defeat Daesh or ISIS, and 
there is no mention of Al Qaeda and the fact that Al Qaeda has 
become so difficult to target specifically because our country 
has not been taking them on in a serious way and they have 
become so deeply intertwined with these armed militants that 
have been and continue to be working alongside and oftentimes 
under the command of Al Qaeda with our support through the CIA 
[Central Intelligence Agency] and Saudi Arabia and Qatar and 
these other countries.
    So, given the fact that this is the group that has been 
targeting us since that attack on 9/11, what can we do in 
Congress and the administration to stop that support of these 
armed militants that are strengthening Al Qaeda and actually go 
after them?
    Secretary Mattis. I think, Congresswoman, we can start, if 
this is Congress' intent, with an authorization for the use of 
military force in Syria against Al Qaeda with the funding and 
resourcing. The statement by Congress would show the spirit of 
Congress, frankly.
    Ms. Gabbard. Yes, sir, but the authorization that you are 
currently operating under in Syria was the one passed by 
Congress in 2001 to go after Al Qaeda and its affiliates. Is 
that not right?
    Secretary Mattis. We used that authority, yes, ma'am. The 
challenge is that, right now, we have a greater clear and 
present danger with ISIS, and you saw why in 2014, and we went 
after what we thought was the priority danger through two 
different--well, through one administration and now with this 
administration.
    Ms. Gabbard. Sir, I think the reason why ISIS you are 
saying is now a greater danger is because it was not taken 
seriously--one reason among many--it was not taken seriously 
from the beginning. And that is the concern here with Al Qaeda, 
is that because it has been largely ignored, it has grown to a 
point where it has now become difficult to take on and now 
presents a greater threat to the United States, and this must 
be addressed.
    Secretary Mattis. I think that is fair, and we are 
addressing it from Yemen to Somalia and other areas, but we are 
certainly--we will look at what you are talking about here. It 
is not that we are not addressing it there. It is just that we 
do not have the reach right now, and we will take a look at it, 
but there are plenty of enemies in Syria, and I would agree 
with you on that.
    The Chairman. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    I want to thank everybody for being here tonight. I know we 
have had a long session here, but Mr. Scott asked some of these 
issues, and it is something I am very concerned about. Quite 
frankly, I came to Congress to be on this committee, and maybe 
I might not be as empathetic to some of the other issues that 
are going on. Everyone's got their own area that they are 
really interested in. But I am sorry; with what is going on in 
the world and everything else, that your testimony is so 
important, and we have had testimony about being C3, C4, which 
translates--and, quite frankly, I do not think the rest of the 
Congress or the Senate know exactly the implications of being 
not combat ready. And that means, basically, if the balloon 
goes up, we are going to have to commit troops to a conflict 
where they are going to die or at least be wounded. And so that 
is a big priority with me.
    So, you know, we are going to have this debate whether we 
are going to have a continuing resolution. I think it will be 
so stupid if we send that message again and even worse if we do 
not end that sequester.
    Now, my question, you know where I stand, but I will be 
damned if I am going bury anymore Marines on my watch. If we 
continue with that, as I described, and we have units that are 
C3 and C4, and we have all these commitments in Europe all over 
the world, what kind of message will it send to our allies and, 
in this case particularly, our NATO allies that we have been 
after them to meet their 2 percent commitment, yet we ourselves 
cannot have our units combat ready?
    And in light of the RAND [Corporation] study, Mr. Secretary 
and General Dunford, if you could address that in terms of, you 
know, those 28 countries--actually, it is 29 now with 
Montenegro in there right under the gun of the Russians. And 
what kind of message would we be sending them?
    Secretary Mattis. Well, Congressman, we share your priority 
you place on this. That is the reason why we came for the 
fiscal year 2017 supplemental. It is why this budget grows 
significantly. I share the concern that it does not grow 
enough, but, again, we are trying to balance a lot of things 
along with a debt. And I just have to recognize that this is 
going to take some time to get out of.
    What is the message we send, sir? I would say the message 
to our allies would be worrisome. It will not be reassuring. 
But more importantly, it is the message to our adversaries that 
would concern me that this is a time to test us.
    General Dunford. Congressman, I think you raised two 
issues, and the Secretary spoke about one of them. The first is 
that I think history tells us that the perception of strength 
has a lot to do with the probability of conflict. And so if our 
adversaries look at us and we are strong and the perception is 
that we are strong, that drives down the probability that we 
will have to fight.
    But then the second thing you raise is, if deterrence fails 
and we do have to respond to a conflict, it will be come as you 
are. And the cost of not being ready will be in time to 
accomplish our objectives and in casualties, which is what you 
spoke about.
    So I could not agree with you more. And when our allies in 
NATO or elsewhere look to the United States, what they see is 
what gives them confidence that we can meet our commitments and 
that we will be strong. And so I think it is fair to say they 
have concerns about that.
    Mr. Cook. I yield back. Thank you.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Mr. Secretary, I wanted to begin by extending 
my sympathies to you and those who are serving currently in 
Afghanistan and to the families of those who lost their lives, 
U.S. service members who lost their lives in Afghanistan this 
weekend.
    And I think so much of what we are talking about and the 
support that you are asking us to provide is to ensure, as you 
mentioned, that we are ensuring the readiness and the ability 
of those brave service members to do the jobs that we have 
asked them to do.
    And you have also mentioned, and I think accurately so, 
that Congress has sidelined itself from some of its key 
responsibilities, and the effects of those are very serious. 
And I would add that I--I would say Congress has sidelined 
itself from its oversight and ownership of the wars that we 
have been fighting. And I want to make sure that we work more 
effectively together to ensure that we are doing our part.
    In this budget, in our projections for this coming year, 
what should we expect to see in Afghanistan? How many service 
members do we have there now? How many do we project to see 
over the course of the year that we have a budget for, or a 
proposed budget for?
    Secretary Mattis. Yes, sir. We have got, as you know, a 
little under 10,000 U.S. service members there at this time. 
The commander on the ground, in light of the situation, has 
asked for more. Those discussions are ongoing right now with 
the President and myself and the Chairman advising him.
    And I think the decision will be taken soon. We have got to 
come up with a more regional strategy. So what we are doing is 
connected to the geographic reality of where this enemy is 
fighting from. As you know, it is not just from Afghanistan.
    And so we are engaged in this. However, the bulk of the 
fighting will continue to be carried by the Afghan forces, as 
we have seen over the last several years.
    Mr. O'Rourke. Are the proposals in those ongoing 
conversations reflected in the overseas contingency operations 
numbers that you presented earlier?
    Secretary Mattis. They are not right now, Congressman.
    Mr. O'Rourke. There may be a supplemental request depending 
on the outcome of that conversation?
    Secretary Mattis. There would be, yes, sir, which we would 
have to have a discussion with you to explain it.
    Mr. O'Rourke. Something that you told us when we first had 
a chance to meet with you that has stuck with me since is that 
the United States has two principal powers, the power of 
intimidation and the power of inspiration.
    And I guess, to bring it back to the subject of the hearing 
and what the cost is of those two powers, do you feel that we 
have the appropriate balance of the two? Are we trying to do 
too much around the world through our powers of intimidation? 
And to use Afghanistan again.
    And you mentioned doing more with regional powers. How 
could we complement the extraordinary service of those who are 
deployed and whose lives are on the line with the resources 
necessary to provide the inspiration side of the equation?
    Secretary Mattis. Well, sir, the inspiration side is more 
than just what we deploy with. However, in the deployed 
category, where we are out there with USAID [U.S. Agency for 
International Development], U.S. diplomatic service, that sort 
of thing, our education efforts, where we fund students to come 
back to the United States on exchange tours, there is a host of 
things we do in terms of building the broader power of 
America's inspiration so that it is actually a player in this 
competitive--against competitive ideologies right now.
    So are we doing enough? Well, I mean, you can always do 
more, but you can always do more in the military realm. We try 
to get the right blend. And I think that we are at least going 
in the right direction on that.
    Mr. O'Rourke. Do you think we need to do anything 
fundamentally different in Afghanistan to achieve a different 
result as we approach almost 16 years in? Or, by and large, 
will it be more of the same for the foreseeable future?
    Secretary Mattis. I think we have got to do things 
differently, sir, and it has got to be looked at as across the 
board, whole-of-government, not just military efforts, plus 
allied efforts and internationals.
    Along the same lines of what Secretary Tillerson is 
orchestrating against, for example, ISIS, right now, what NATO 
is orchestrating in Afghanistan, but even broader than we are 
doing it up until now.
    Mr. O'Rourke. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And, Mr. Secretary and General Dunford, thank you both for 
your wonderful dedication and service to our country. We all 
appreciate that.
    Secretary Mattis, I want to ask you about research and 
development for space and then research and development for 
missile defense. And I know you see the need for both of those 
important areas.
    In your testimony on page 5, you said, ``Outer space, long 
considered a sanctuary, is now contested. This creates the need 
to develop capabilities and capacities for more resilient 
satellites designed to withstand persistent kinetic and 
nonkinetic attack.''
    So in your written testimony, you certainly point out the 
need for more capacity and more capability for space. And also 
in missile defense, I know you are a proponent of exploring 
boost phase missile defense, when the adversaries' missiles are 
at their most vulnerable state.
    But I am just concerned, and the chairman asked you this at 
the very beginning of the hearing, we are cutting the budget 
for missile defense research and development. And in the space 
R&D budget, it is at a 30-year low. So in both cases, we are 
really not putting our money where our mouth is.
    And I know President Trump wants to have a state-of-the-art 
missile defense system. So how do we square the needs out there 
with the fact that we are cutting and not necessarily--and, Mr. 
Norquist, I am going to ask you to jump in on this also--why 
are we not putting our money where our mouth is?
    Secretary Mattis. Sir, it is a prioritization. As you know, 
right now, we have the ballistic missile defense capability at 
Fort Greely and down in California, Vandenberg. And I think 
that right now we can first do the study to make certain we 
know what is the--what are we lacking, define the problem well 
enough that we are targeted like a laser beam on exactly what 
we need.
    Boost phase, as you know, is geographically dependent, for 
example, and that just may not be something that we want to put 
a lot of money into because, you know, it just may not be as 
relevant as increased naval capability that we can move around. 
It would be one example up and down our coast to help defend.
    I want to get this right. Before we come to you and spend a 
lot of money, you are going to count on us that we did our 
homework, and I have not yet done it. And that is probably the 
best answer I can give you.
    As far as space, we are taking advantage of some things 
that the intelligence services are telling us, but I would 
prefer to, again, study this a little more. I am not 
disagreeing that we do not need the R&D in these two areas at 
all, however.
    Mr. Lamborn. Okay. Thank you.
    Mr. Norquist, you are probably itching to answer a lot of 
questions here tonight, so could you jump in on it.
    Mr. Norquist. Thank you, Congressman.
    I would just point out two things. I do not know how the 
R&D breaks out among the individual programs, but overall the 
science and technology piece of RDT&E [research, development, 
test, and evaluation] that the research adds. That is $13.2 
billion, which is up $600 million from the 2017 budget. So 
there has been an investment in research and technology in the 
S&T [science and technology] area.
    And on the space----
    Mr. Lamborn. That is DOD-wide, right?
    Mr. Norquist. That is DOD-wide, correct. So I do not know 
the individual piece of that, but DOD-wide, there has been an 
increase in investment in that area.
    Mr. Lamborn. Okay. Well, I am glad to hear that. But you 
would agree with the need for space and missile defense 
research and development in particular. Would you not?
    Mr. Norquist. Correct.
    Mr. Lamborn. And, General, do you have anything to add to 
this conversation?
    General Dunford. I do not, Congressman.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Mr. Secretary, when I was a young second lieutenant 
standing in the Kuwaiti desert, you gave me a lot of confidence 
as my division commander. And I have to say that you give me a 
lot of confidence today as our Secretary of Defense. So thank 
you for continuing to serve the country.
    Mr. Chairman, I will withhold my praise for you, lest I be 
unduly accused of favoring the Marine Corps. But suffice it to 
say, we are lucky to have you as well.
    Speaking of that confidence, Mr. Secretary, do you have 
confidence in our post-Mosul, our day-after plan in Iraq? It 
would be--I would never have believed standing in that Kuwaiti 
desert 14 years ago that we would still be there today.
    With the plan as it is resourced today, are you confident 
that we will be able to win Iraq once and for all and bring the 
substantial number of our troops home?
    Secretary Mattis. Congressman, it is going to be a long 
fight. Even in Iraq, as we throw ISIS out, we are going to have 
to deal with the aftermath. I would tell you that we are 
working this by, with, and through allies, and so I do not have 
the same control over the day-to-day activities of what is 
going to happen, for example, in west Mosul in the post-combat 
phase.
    But I think that we are going to have to work with the 
Government of Iraq in the--what I would call post-combat pre-
reconciliation phase so we do not end up in this same situation 
again. And we are committed to working with the Government of 
Iraq and Prime Minister Abadi, who, as you know, visited here 
in Washington 2 months ago, month and a half ago.
    Mr. Moulton. Mr. Secretary, from your view, does the State 
Department have the resources it needs to support the Iraqi 
Government as you describe?
    Secretary Mattis. I believe they do. I would defer to the 
State Department evaluation of that, however.
    Mr. Moulton. Okay. Mr. Secretary, in order to do your job, 
you need to have a workforce. You need to have personnel in the 
Department of Defense. And there has been a lot of concern 
about just filling positions. How many positions at the 
Pentagon do you have unfilled today?
    Secretary Mattis. Congressman, I need to take that for the 
record. Day by day, we are getting more people through the 
process. As you know, the Senate Armed Services Committee has 
very high ethical standards, higher than any other department 
for the people that come to work, so it takes a while for some 
to disentangle their finances. It is challenging. But----
    Mr. Moulton. Have there been any nominations or any names 
that have been rejected by the administration, names not 
requiring Senate confirmation?
    Secretary Mattis. I am not aware of any rejected at the 
White House. There were some that we were told would not make 
it through Capitol Hill. But I had no one that I can think of 
rejected there.
    [The information referred to can be found in the Appendix 
on page 128.]
    Mr. Moulton. Is there anyone that you have brought on to 
the Department of Defense who has subsequently been pulled out 
for political reasons by the White House?
    Secretary Mattis. I cannot think--I have only had a few, as 
you know, brought on and--Secretary of the Air Force, 
Comptroller. I do not have very many--I have not had any pulled 
out by the White House.
    Mr. Moulton. Okay. Mr. Secretary, I would like to move on 
to the role of Congress in all of this. And you have outlined, 
as has the Chairman, the responsibilities that we have to 
ensure a proper budget, proper resources to come to grips with 
the financial situation of the country, which people in your 
position have cited as one of the greatest threats to our 
national defense.
    What are, if you could name the top five programs or 
projects, that you do not want at the Department of Defense but 
we here in Congress force upon you, thereby taking away 
resources from requirements that you need to fund? I think that 
would be helpful as we go through the NDAA process.
    Secretary Mattis. Congressman, I better do a little 
homework and get back to you on that. I have mentioned that 
BRAC is one that I do want that Congress may not want, but I 
think I can make a persuasive argument on that. But I cannot 
think of something that Congress is forcing right now, but I 
will look into this and get back to you.
    Mr. Moulton. Mr. Secretary, would you be able to get back 
to us before the NDAA markup with that list?
    Secretary Mattis. I should be able to get back to you this 
week, I would imagine. If there is something out there, I will 
find it quick.
    [The information referred to can be found in the Appendix 
on page 128.]
    Mr. Moulton. Okay. Thank you both again very much for your 
service. We are proud to have you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Secretary, I think you will find broad bipartisan 
support for the budget request that we have received, which, of 
course, increases defense spending a little bit. I think you 
will also find some bipartisan support for even more.
    As a former Navy pilot currently serving the Oklahoma Air 
National Guard, I used to fly counterdrug missions. I would 
like to piggyback for a second on what Mr. Scott from Georgia 
was talking about. I used to fly the E-2 Hawkeye, VAW-77, the 
Nightwolves.
    In 2013, my squadron under the sequester was eliminated. My 
squadron was responsible for busting about $2 billion worth of 
cocaine every year on the high seas, $2 billion. That cocaine 
now comes into the United States, and, of course, Mr. Scott 
mentioned, I think you said 50,000 Americans die in drug 
overdoses every year, which is more than all the Americans we 
lost in Vietnam, if not--maybe close to if not more.
    So this is a big concern. As far as the capability gap, I 
understand when you mentioned that the concern is if we spend 
too much too fast, it could end up putting us in a position 
where it is not sustainable and we could end up with a, as you 
mentioned, a hollow force, which is a concern, I think, for 
pretty much everybody on this panel.
    I would also say that there are a lot of unfunded 
requirements that ultimately we could be working on today. And 
I would just ask General Dunford, when we deploy an Aegis 
cruiser or a THAAD [Terminal High Altitude Area Defense] 
missile battery, are we deploying those with the full 
complement of interceptors?
    General Dunford. We have some precision munition challenges 
that bleed over into our Navy weapons systems.
    Mr. Bridenstine. And are you aware that when we deploy one 
Aegis, many times there is an underway switching of missiles 
from one Aegis to another Aegis?
    General Dunford. I am aware of that, Congressman.
    Mr. Bridenstine. So these are examples of unfunded 
requirements that ultimately we could meet today if the 
resources were there that ultimately would not put us into a 
position to have a hollow force in the future?
    General Dunford. Congressman, I would like to just address 
that precision munitions challenge. We today have requested 
resources that get to the maximum amount that industry can 
produce. But there is a caveat to that: Industry can produce at 
the level of prediction that they have right now; in other 
words, they can only produce so much today based on what we are 
able to tell them about tomorrow.
    So one of the areas that the Secretary has highlighted is 
the need for predictability and stability in the future as 
well. And the only way we are going to get around the challenge 
is--that is a great example of why we need stable, predictable 
budgets because we actually cannot buy the precision munitions 
we need until we do have stable, predictable budgets at 
adequate levels.
    So, again, industry is telling us today we are producing at 
the maximum rate we can. But if we were able to tell them what 
resources would be available 2, 3, 4, 5 years down the road, 
they would be able to increase the industrial capacity and 
actually address that particular issue.
    So that is just one of the second-order effects of the 
challenge we have been in living year to year with a number of 
CRs that we have had is we are not able to give industry the 
predictability they need to actually meet our requirements. And 
that is actually the story of precision munitions.
    Mr. Bridenstine. So if we are doing a defense appropriation 
annually, how do we address that?
    General Dunford. We would have to, with a program, be able 
to provide our industry partners with some degree of accuracy 
the rough order of magnitude of resources that would be 
available in the out-years. And because of the budget situation 
right now, we are simply not able to do that.
    Mr. Bridenstine. Okay. I would encourage, Mr. Chairman, Mr. 
Secretary, as you look at the budget and as we work as a body 
here, know that we fully support increasing the defense 
spending, that we have capabilities that we are leaving on the 
table. And if we can support you in that effort, whether it is 
long term or next year, we want to do it. And I would encourage 
you to look at unfunded liability or unfunded requirements 
specifically.
    I yield back, Mr. Chairman.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here this evening.
    Secretary Mattis, your testimony you have five priorities. 
The fifth, of course, is the support of what we call the OCO 
funding. OCO has been something that I never quite understood 
for the time that I have been here. It is sort of--it was 
originally not even on budget so to speak, then we kind of 
report it, but it is still a question as to whether it counts, 
it does not count.
    So in your mind, when you say your fifth priority is in 
support of the OCO budget, what do you anticipate the $64 
billion to be used for?
    Secretary Mattis. This is for operations, Congresswoman, 
against ISIS in Iraq and Syria. It has to do with any place 
that we have active areas of hostilities, Afghanistan, for 
example. And this is over and above the standard budget to 
maintain our military. These are for the operations we actually 
conduct there.
    Unfortunately, we have seen at times things that belonged 
in the base budget put into the OCO. And I share Congress' 
frustration, the base budget should have the base budget and it 
should only be for those things that grow based on overseas 
contingency operations.
    Ms. Hanabusa. So your overseas contingency operation 
definition is the battle against ISIS, and it is Afghanistan, 
Iraq, and Syria. Would that be a correct statement?
    General Dunford. Congresswoman, it also pays for units that 
are at home station preparing to go to those particular fights. 
And we also have some OCO outside of that with the Al Qaeda 
fight in Africa, as an example.
    Ms. Hanabusa. In Africa as well? But it is also tied to 
ISIS?
    General Dunford. It is tied to violent extremists.
    Ms. Hanabusa. Some terrorist organization?
    General Dunford. That is right.
    Ms. Hanabusa. Mr. Secretary, I do know from your history 
that you are a very interesting person in the sense that, your 
time at Hoover, you have written a lot, you have thought a lot.
    One of my favorite reading materials that you did was 
``Warriors and Citizens'' that you put together at Hoover 
Institute.
    So given that philosophy that I call it, your philosophical 
bet on a lot of this, how do you want to put together or come 
to grips with the fact that we have a QDR [Quadrennial Defense 
Review] in 2018, you have authorized an NPR in 2017, and I 
believe somewhere in there there is going to be a review of the 
ballistic missile defense.
    So do you feel that it is premature, or do you feel that 
any of these studies could somehow affect what you are coming 
here and asking us for today?
    Secretary Mattis. Certainly, it will affect it via there 
will be implications downstream. But right now we know the 
situation, the threats we face today. We know the force we have 
today. We know the readiness shortfalls we have today.
    And I am confident right now that we can justify the 
dollars that we are asking for. Certainly, we will define the 
problems, strategic and operational problems for the future 
that need further addressal. But right now, I am confident that 
what we are asking for we can defend.
    Ms. Hanabusa. Mr. Secretary, you cannot come to Congress 
and on page 11 of your testimony talk about BRAC and not expect 
any of us to just have a free pass at that. So can you tell me 
when you talk about BRAC and you want the ability--you want 
Congress to give you the authority to consider BRACing, can you 
tell me what your criteria is?
    You must have some idea by requesting it as to what kind 
of, quote, establishments, facilities, whatever you may want to 
call it, you want to BRAC, because you must feel that somehow 
it is excess, that we do not need it?
    Secretary Mattis. Right. It would be facilities that we no 
longer need nor can we foresee using them in the future even if 
we have to mobilize, for example, significant parts of our 
Reserves. It would be the ones that we do not--the facilities 
that do not perhaps any longer have training capability because 
of urban spread around them where we can no longer safely do 
what we used to do there. It would be that sort of a situation.
    Ms. Hanabusa. Mr. Secretary, is a list or some kind of a, 
you know, potential BRAC list exist? Does it exist today?
    Secretary Mattis. I have been told we have 20 percent 
excess capacity, but as I said earlier, I am not confident in 
that figure. And I would want to look at it again and make 
certain that we validate the criteria that was used to get 
there and then go back through it.
    Ms. Hanabusa. Before my time runs out, can you provide us a 
list, whatever you have?
    Secretary Mattis. I cannot right now, ma'am, because I am 
not willing to put my name to it. I want to study it first.
    Ms. Hanabusa. Thank you. And I yield back, Mr. Chair.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    I want to thank you for your service, especially in an 
extremely challenging time for our Nation and for the world. 
And neither of you have to be here, and you are choosing to do 
it. And it is a tremendous challenge. As I said, our threats 
are so many. It is so multifocal, it is so multifaceted that it 
is even hard to list. And the chessboard is more than three-
dimensional, in my opinion.
    You know, with that in mind, one of the things that you 
mentioned, Mr. Secretary, was that it is going to be a long 
slog. A lot of these things are going to be long, drawn out. 
You know, as a soldier in the field, when you know that is the 
situation, then you look for your short gains, right, because 
you want to have that motivation there.
    So I guess my first question is, how do you see the morale 
of our military today?
    Secretary Mattis. Sir, I would like the Chairman also to 
respond to that. In my discussions, in the e-mails I receive, 
the young people are quite--they show a lot of initiative in 
helping me to run the Department. I would just tell you that so 
far I think we have got--the morale is holding. The affection 
of the American people is understood, and that has a lot to do 
with why the morale is held.
    That said, I believe the families in many cases have become 
riddled with repeated deployments of their husbands, wives, 
mothers, fathers, whatever. And I think that there is some 
question about the level of commitment when people cannot fly 
the airplane that they know they have got to be good at flying.
    They cannot put their vehicles in the field. The ships are 
not going to sea on schedule or they are deployed longer 
overseas because they are waiting for the ship that had to go 
through more extensive repairs to get out.
    But let me ask the Chairman to give a few words on that, 
sir. He is a little closer.
    General Dunford. Congressman, you know, one of the 
privileges is having the chance to go around and meet with 
members and families from all the services. And I think, by and 
large, morale is very high.
    But the Secretary spoke about families, and I think I do 
see some challenges with our families. And also, if you look at 
some of these readiness challenges, they cannot help but affect 
morale. If you are a pilot that is flying 10 or 11 hours a 
month and you are in a squadron that should have 12 aircraft 
and only has 6 aircraft, it cannot help but affect you.
    Now, I will tell you, we are recruiting and retaining high-
quality people. I think morale is better than any of us should 
expect that it would be after 16 years at war. As the Secretary 
said, the All-Volunteer Force was never envisioned to be at war 
for this enduring period of time.
    So I think there is a lot of reasons for us to be proud of 
the morale and proud of the quality of people that we are 
recruiting and retaining. But I do not take it for granted. And 
I do think some of the challenges we have with our families and 
some of the challenges we have with people who are in units 
most affected by these readiness challenges, those are going to 
have an impact over time and we should be attentive to that.
    Dr. Wenstrup. Yeah, I think that sometimes the country does 
not always understand the sacrifices that are being made by the 
troops and their family and then the challenges that they face 
when we really do not have them at full readiness the way that 
we would like to. And so I think that is in part on us here to 
make sure that the country is aware of that.
    And as you look ahead, you know, our current readiness 
state, as you just mentioned, it has us doing less things than 
we would like. And so to me, it is very difficult and 
challenging for you to make a list of what we are going to do 
next, you know, how do we have a step-by-step plan, you know.
    I think traditionally in wars, you know, we take this land, 
we go to the next step and we keep moving on. This is very 
challenging, a different environment than we have ever seen, 
and you are talking about terrorism as well as near-peer 
adversaries.
    So I think it would be helpful to us to be able to explain 
how difficult it is if we are not fully ready and equipped to 
even compile a plan that can get us where we want to be someday 
where there may be some peace.
    And so my question is, do you have a list and based on 
that, does it reflect what you need but do not have?
    Secretary Mattis. Sir, we have an assessment that tells us 
what we need to be ready for and that assessment comes to us 
from our regional commanders based on any treaties that we are 
in, the protection of the American homeland. There is all sorts 
of things that figure into what national security looks like.
    Based on that, we know a number of forces that we need and 
what level of readiness, how fast they have to be ready to 
deploy. So that is the way we parse it out. And then we look at 
what each of those forces needs, an Air Force, Navy, this sort 
of thing for readiness to deploy.
    So we break it down into something that is manageable by 
unit commanders who know what they are expected to do. An Army 
brigade commander knows he must be able to move, shoot, and 
communicate with his brigade of troops, close with and destroy 
an enemy.
    A ship commander knows he must be prepared to deploy on so 
many days' notice with this much ordinance and his people 
trained to do things. So we do have it. It is broken down. It 
is very complex to make the joint force work. But the 
commanders know and the troops know, the NCOs [noncommissioned 
officers] know, sir.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Thank you.
    I want to thank you for being here into these late hours 
and your willingness to answer all of our questions so 
candidly.
    And, you know, a question was asked a few minutes ago by 
Representative O'Rourke that mentioned America's role and 
inspiration in being a world leader. And, Secretary Mattis, in 
2013, you said yourself that if you do not fund the State 
Department fully, then I need to buy more ammunition 
ultimately.
    So we know that the President's budget slashes funding for 
the State Department and foreign aid about 32 percent. In a 
recent op-ed by a retired Admiral Michael Mullen and retired 
General James Jones, they mentioned that research does suggest 
that investing in prevention is 60 times--I will say that 
again--60 times less costly than war and post-conflict costs.
    So do you support this decrease of foreign diplomatic 
support by the President, and does it not seem to undermine our 
success and our stature around the world if we do this?
    Secretary Mattis. Congresswoman, that is a tough one for me 
to answer because I have not looked at where those cuts lie, 
you know. I cannot give you an authoritative answer.
    I will tell you that when the President's budget was 
released, due to the teamwork between Department of Defense and 
Department of State, we immediately--Secretary Tillerson and I 
met and we looked at where is the money that I have for 
development aid, what does he still anticipate receiving, and 
looking at how do we jointly figure out the priorities.
    So we are working on it within a sense of teamwork, a 
spirit of collaboration between DOD and Department of State to 
try to get the best return on the money. But I have not--I 
honestly have not looked at his budget and looked at where the 
cuts are coming from, so I would rather not speak about 
something I have not studied.
    Ms. Rosen. Thank you.
    I guess what I want to say about that then is, does that 
relate--how does that relate to what you are going to request? 
Because if we do not put money into prevention, is that going 
to increase your budget request, and where will it do it, 
especially in regards to ISIS, cyberterrorism, some of those 
issues? If we are not stopping and preventing, then what do you 
have to do on the back end?
    Secretary Mattis. Well, I mean, the challenges we face in 
some cases, having fought this enemy for a long time, there is 
probably very little we can do to rationally move them out of 
where they are at because they did not rationally gain their 
perspective.
    That does not mean we should not try to take the next 
generation and prevent them from going down this path. But I 
would just tell you that in terms of defense of the country, 
that is what Department of Defense does when it comes to the 
kinetic side, the lethal side and making the Department the 
most lethal it can possibly be is where I focus in, although I 
work very, very closely with Secretary Tillerson to support his 
efforts.
    Ms. Rosen. Thank you. I will yield back my time.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, thank you for being so patient with us. If you 
do not mind, I would like to go back to the discussion we had 
earlier about the size of our Navy fleet. Now, we know from the 
Navy's Force Structure Assessment that has been just last year 
that they recommend 355 ships.
    Our President, our Commander in Chief says he knows we need 
350 ships, pretty close to one another. So we know where we 
want to go. The Congressional Budget Office [CBO] gave us an 
estimate that to build a 355-ship Navy would require an 
additional $5 billion a year for shipbuilding.
    General Dunford, let me start with you. Do you agree in 
general with CBO's analysis to what more we need to be spending 
per year on shipbuilding?
    General Dunford. Congressman, I have seen that study and it 
looks about right to me based on my experience.
    Mr. Byrne. Thank you, sir.
    Well, looking at this year's budget, obviously, after you 
heard the questioning from Chairman Wittman, we know that we 
are actually not going in that direction with the proposed 
budget for 2018. At what point, in your estimation, General, 
are we going to get to the point where we are spending that 
extra $5 billion to get to the size of fleet we are trying to 
get to?
    General Dunford. No, Chairman, thanks for asking that 
question. I mean, you know, my characterization of 2018 is that 
it is the second year in a row we begin to turn around a trend 
that really was 7 or 8 years in the making. And it is going to 
take several years to get us out of the hole that we are in 
right now, which is why I just maybe highlight in my opening 
remarks that just to maintain the relative competitive 
advantage today would require a 3 percent above inflation.
    And so in the coming years--and, of course, we do not have 
a long-term program now. We will have that in the future--when 
we think about what is adequate in the future, we need to have 
it in context of those requirements that you have identified 
and the real growth above inflation that will be required to 
realize that.
    Mr. Byrne. Mr. Courtney made a very important point. When 
you are building ships, the timeline is very long. And so every 
year that you wait you push that timeline back further. Do you 
have any concerns that we are pushing that timeline back 
further with what is happening with retirement of some of our 
ships that are presently in the fleet?
    General Dunford. Congressman, I do. And the other thing I 
have a concern about is, you know, back to the example I used 
of precision munitions, you know, if we told a shipbuilder, you 
know, with predictability we were going to build 10 ships, they 
would be able to buy 10 ships worth of steel, 10 ships worth of 
copper piping--copper wiring and so forth; it would cost X.
    The fact that we are not able to provide predictability and 
actually make multiyear contracts for things like shipbuilding 
means we pay much more, which means we cannot get after meeting 
the requirements that you have identified.
    So I am concerned on two fronts: I am concerned that we are 
late to need in getting after these requirements; and I am also 
concerned that a failure to provide predictability means we 
will not be able to afford getting to this number of ships with 
the top line envisioned.
    Mr. Byrne. Mr. Secretary, if I could turn to you for a 
moment. Your boss, the Commander in Chief, wants a 350-ship 
fleet. You just heard what General Dunford said. Where do you 
see--with the pace that we are on right now, where do you see 
the fleet being at the end of President Trump's Presidency in 
January of 2025?
    Secretary Mattis. Congressman, I think that depends on 
whether or not sequester is repealed, whether or not we start 
going for multiyear--there is a lot of variables here.
    Mr. Byrne. Assume we do not have sequester. Based upon your 
budget request for 2018 and what you are--I know you are 
planning for years after that, where do you see the fleet 8 
years from now?
    Secretary Mattis. Sir, I need to come back to you with a 
reply that is researched here.
    [The information referred to can be found in the Appendix 
on page 128.]
    Secretary Mattis. The challenge is, sir, that we are in a 
position right now where we have got to get the fleet back to 
sea that we have now. We are trying to address this--trying to 
eat this elephant one bite at a time.
    And so we are going to have to increase--I would think it 
is going to take a budget that is probably up around 5 percent 
growth, real growth in order to get towards where we want to 
go. Three percent will not do it. A 3 percent growth will not 
suffice, I will tell you that. It is going to have to be up 
over 5 percent.
    Mr. Byrne. Well, both--General, both to you and to the 
Secretary, I said this to you when we were together in 
Singapore a couple weeks ago, I strongly support what we need 
to do to give you the resources you need to protect the people 
of America. And if that means we need to repeal the Budget 
Control Act, I am prepared to do that.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you very much, Mr. Chairman. And thank 
you all for being here.
    Secretary Mattis, General Dunford, I cannot tell you how 
relieved I am that you are in the positions you are in. You 
actually provide great adult supervision to this 
administration, and I am just extremely grateful for your 
service and for you being where you are at.
    Secretary Mattis, I would like to follow up on the question 
that--Mr. Langevin's question regarding climate change. One of 
the many reasons why I find President Trump's decision to 
withdraw from the Paris climate accord disturbing is because of 
all the security risks we will face if we do not address 
climate change.
    For example, rising sea levels will affect the stability of 
military sites on the coastlines, including but not limited to 
sites in California, Virginia, South Carolina, North Carolina, 
Georgia, Florida, as they are at higher risk of severe flooding 
and other extreme weather events.
    In 2008, the National Intelligence Council found that over 
30 military sites in the continental United States are already 
facing elevated risks because of sea-level rise.
    Secretary Mattis, what actions is the Department taking to 
protect against the effects of sea-level rise and climate 
change in general, especially in terms of protecting critical 
military infrastructure; and two, how can climate change 
complicate our strategic objective especially in terms of our 
Asia-Pacific rebalance strategy?
    Secretary Mattis. Congressman, first, I would say that 
withdraw from the Paris accord is not--the administration is 
not going to do anything about it. They are going to do it 
under a different framework, but it is not that they are not 
going to address climate change, a warming climate.
    As far as what we do to address this inside the military, I 
have frankly been a little consumed by the situation in Korea 
and Europe and some others, so I need to get some specifics on 
this. But I know that we look at protection of our physical 
infrastructure wherever we are at, and along the coast, 
obviously, it is a significant concern with the effects of 
water, you know, whether it be a hurricane or rising sea 
levels.
    But I do not have a good answer for you right now, sir. But 
I will get you one.
    [The information referred to can be found in the Appendix 
on page 128.]
    Mr. Carbajal. Thank you.
    Secretary Mattis, it is estimated that it will cost $1 
trillion to sustain and modernize the nuclear deterrent over 30 
years. We extensively discuss whether such modernization is 
necessary or not, whether we need more nuclear weapons. 
However, an area we tend to sideline is the threat of nuclear 
proliferation.
    What actions are you taking to address the threat of 
nuclear proliferation? How vital are nonproliferation programs?
    Secretary Mattis. Sir, I think nuclear nonproliferation has 
not received enough attention over quite a few years. I have 
met with former Secretaries of Defense to gain from them their 
perspective when they were in the job I am in now.
    A former Secretary of Defense is coming in to see me 
tomorrow afternoon after I get done testifying in the morning 
over on the Senate side on this very issue. Rose Gottemoeller 
was mentioned earlier by one of your colleagues. I have met 
with her in Brussels.
    But I think this is going to be critical to what we turn 
over to our children's generation. We have a responsibility to 
reenergize the nuclear nonproliferation effort.
    Mr. Carbajal. Thank you very much. I yield back, Mr. Chair.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    And thank you, gentlemen.
    I want to talk about North Korea. Kim Jong-un has 
threatened to build the capability to hit the United States 
with an ICBM and a nuclear warhead. He seems to be obsessed 
towards gaining that capability.
    Secretary Mattis, do you believe that is an existential 
threat to our country if he were to gain that capability?
    Secretary Mattis. I do, Congresswoman. He does not have it 
yet, but we do not have to wait until it is there to start 
addressing it, yes, ma'am.
    Ms. McSally. Exactly, and I agree with you.
    Should diplomacy fail and we need to use conventional 
capability to deal with this threat, can you paint a picture in 
this environment of what that would entail and what is left of 
North Korea when it is over?
    Secretary Mattis. It would be a war like nothing we have 
seen since 1953. And it would--we would have to deal with it at 
whatever level of force was necessary. I am not the most 
articulate on this, ma'am, but it would be a very, very serious 
war.
    Ms. McSally. General Dunford, do you want to comment on 
that?
    General Dunford. You asked about North Korea, Congresswoman 
McSally. Let me talk about South Korea. Regardless of what 
happens, there is 25 million people in Seoul, 300,000 of those 
are Americans, who are within range of thousands of rockets, 
missiles, and artillery pieces along the border.
    I do not have any doubt in my mind if we go to war with 
North Korea that we will win the war. We will be successful in 
accomplishing our objectives. I am equally confident in what 
Secretary Mattis said in that that conflict we will see 
casualties unlike anything we have seen in 60 or 70 years.
    And many of those casualties will be in the first 3, 5, 7 
days of that war where all those people in the greater Seoul 
area are exposed to the North Korean threat that we will not be 
able to mitigate initially.
    Ms. McSally. Thank you. I just think the American people 
need to understand the gravity of the situation that we are 
dealing with. But also our enemies need to know that 
ultimately, even as we are discussing readiness challenges and 
other challenges, we will win. But this is like something we 
have never seen in my lifetime anyway, should deterrence fail 
and should diplomacy fail.
    One of the capabilities you will need in that scenario--I 
was on the hook to deploy over there in the OPLANs [operational 
plans]--is the mighty A-10 Warthog. I was pleased to see in the 
President's request of fully funding the remaining 283 
aircraft, which is 9 operational squadrons. But we do not have 
the funding in there for re-winging the remaining 110 that need 
re-winging. They will be grounded soon if they are not re-wung. 
It is on your unfunded request, which is good.
    But nine squadrons is not a lot. Right now they are on the 
DMZ [demilitarized zone]. They are fighting against ISIS. They 
are deploying periodically to Europe to deal with the threat 
from Russia. And last week, we had Air Force generals testify 
that they are, you know, willing to go down to six squadrons, a 
cut of 33 percent, should the re-winging not happen.
    So you have agreed that you want this capability at least 
until 2030, and I appreciate finally getting to that point. And 
I realize the limitations we have had fiscally in the last 
years. So we want the capability to at least to 2030. But if we 
were to provide that funding for the re-winging of the 
remaining 110, would you appreciate having the capacity of 
having those nine squadrons given the threats we are facing?
    Secretary Mattis. Absolutely. The priorities are right 
where they are right now, but if we got the money for the 
additional ones, it would increase our warfighting capability.
    Ms. McSally. Great. Thank you.
    General Dunford, anything else to add?
    General Dunford. The only thing I would say, Congresswoman, 
I think you understand that dynamic. What I always tell the 
Chief of Staff of the Air Force is, I said, look, to meet our 
requirements right now, I need all out of your legacy 
capability and a little bit more. And I also need you to start 
taking your legacy capability offline to grow the Air Force 
that we need tomorrow.
    So they really have--I think they have got it about right 
in terms of prioritization within the top line they have been 
given. But the truth of the matter is that there is more 
requirement than there is capability and capacity at 55 
squadrons.
    Ms. McSally. Exactly. Thank you, gentlemen. I appreciate 
it. And I yield back.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your service, for your 
presence here this evening, your stamina, and your patience. I 
think my question is primarily for Secretary Mattis. You are 
not only well read, as I understand, but also well written. One 
of your works has already been referred to this evening.
    I had an opportunity to read an essay that you coauthored 
entitled, ``Restoring Our National Security,'' in which you 
wrote that for the past 20 years, across administrations of 
both political parties, the United States has been operating 
largely unguided by strategy.
    You say that while we have experienced tactical successes, 
they do not add up to strategic victories. And, in fact, they 
have cost lives, both soldiers and diplomats, national 
treasure, and global credibility.
    So I am a little confused as to why and how you can say 
that you are confident today about what is being proposed when 
we are looking at a proposal for a fiscal year 2018 budget 
without what we normally see, which is the Future Years Defense 
Program.
    I do acknowledge that in your testimony, your written 
testimony, I believe you stated as well that we will make hard 
choices as we develop our new defense strategy for fiscal year 
2019 to 2023, and that will be informed by national defense 
strategy.
    But as we sit here today, would you not say that this is a 
costly undertaking that you are asking us to take without a 
strategy? There has been some conflicting comments, sometimes 
silence on issues like what are the decision rules regarding 
North Korea's development of nuclear capabilities? What is an 
acceptable end state regarding China's aggression in the South 
China Sea?
    And there are just a lot of other components that would go 
into a strategy. So what we are seeing here now seems here like 
a budget designed more for tactical success and not strategic 
victory. Can you just sort of respond or--yeah, respond to 
that?
    Secretary Mattis. Right. What we have to do is define very 
clearly what is the threat that we see, and, in fact, a number 
of studies have been mentioned here this evening that have 
helped in that definition.
    So far as the point I was making in the article, the 
chapter you read there from George Shultz's ``Blueprint for 
America,'' what I was referring to was why did we go into 
Korea, Vietnam, Iraq, and why did we end up with tactical 
victories and not a strategic outcome.
    There is a very interesting article by the president 
emeritus Jim Wright, president emeritus of Dartmouth University 
in the Atlantic, July of 2013, that said, why do we go into 
these wars when we do not know how to end them. And the point 
he made was if you do not define the political end state when 
you go in, then you cannot figure out how to end the war on a 
positive note.
    Notice I left out one war, Desert Shield, Desert Storm, 
where very clear political guidance was given. But when you 
shift from those kind of tactical events to more broadly, we 
can define the threats to this country pretty well right now. 
That is why I am confident, Congressman.
    Mr. Brown. Are you confident though that we have a strategy 
for the post-ISIL Syria and Iraq, how we ensure security and 
stability?
    Secretary Mattis. That is being put together. We have been 
here a couple months. Secretary Tillerson, in his role as 
Secretary of State, I inform him of the military factors, but 
this foreign policy of the United States should largely be 
drawn up by the--basically the State Department. And I believe 
he is putting that together very, very well. His diplomats are 
literally serving alongside us in Syria right now with our 
officers who are in that fight.
    So I am confident it is being put together. It is not 
complete yet. But I know that we have got to fight this enemy 
no matter what. So that is just part of the current situation 
we have to address. It does not require a fully fleshed out 
strategy yet, but we are going to have to have one pretty darn 
quick.
    Mr. Brown. Thank you.
    And, finally, if I can get this in, I do not want you to 
necessarily--you do not have to comment on what you think about 
the reduction of 29 percent in the State Department's budget, 
but is that proposed--because you talked about whole-of-
government approach.
    The reduction, does that inform the budget that we see in 
front of us? You know, fewer State Department dollars, you 
acknowledged that that means more Defense Department dollars. 
Is that reflected in the numbers?
    Secretary Mattis. I do not believe so, sir. This is--I 
mean, I have diplomats from State Department serving alongside 
us right now, so I have not been affected by a reduction in 
State Department's budget. And, again, I do not feel I am 
knowledgeable enough to give you a detailed understanding of 
what those cuts are. I would have to defer to the Secretary of 
State.
    Mr. Brown. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman. And thank you, each, 
for being here tonight.
    Probably, there is no greater historical example of 
unpreparedness than what happened in the Philippines in 1942. I 
would like to read just a couple of brief excerpts from one of 
those soldiers that was there. There were 10,000 Americans that 
surrendered, 650 died on the Baatan Death March by itself. All 
of those that survived that were weakened and endured horrific 
suffering, and more than two-thirds of them died.
    One of the survivors stated, ``I am one of the few 
Americans who has lost a war and who has seen an American Army 
overrun and defeated by a combination of starvation, sickness, 
unpreparedness, and superior enemy forces. . . . It was a 
lonesome feeling. I have seen a country we were defending 
occupied by hostile enemy forces occupied thoroughly, 
efficiently, sadistically, and completely.
    ``I have seen the American way of life change in one moment 
and have seen the stunned bewildered faces of the erstwhile 
American high command as they tried to comprehend the enormity 
of the blow that had just struck them. I have seen veteran 
officers schooled for 30 years in traditional authority and 
routine of command, change overnight into tired, dirty, beaten, 
unshaven old men just trying to keep walking.
    ``From American soldiers with the heritage of generations 
of liberty and our blood, we became the chattel. We used to 
say, if what is happening here could happen to everyone in the 
United States for just one week, what a change it would make in 
their attitude about the future insurance of our way of life.
    ``Use the prayers of our good people, but remember that 
prayers work better where the guns are bigger and the planes 
are faster and the regiments are more numerous. So in the back 
of all of these plans, I say, let us have what it takes just in 
case some gentleman does not get the word.
    ``I do not know if all the peoples in the different nations 
will understand our high ideals and unselfish motives, but I do 
know one thing they will understand: They will know what force 
we have to back up what we say, and if it is big enough, they 
will act accordingly.
    ``The United States is big business. It is bigger than you 
and bigger than I, and I say there is no cost too great to 
preserve it.''
    Secretary Mattis, you stated in the remarks tonight that 
the enemy will move against our weak areas and that Congress 
has at times risen to the challenge to provide what the 
military needs. I think we are in one of those moments now.
    When we take the President's budget and what this committee 
is proposing, when the DOE [Department of Energy] and defense-
related dollars are subtracted, this committee is proposing 
about an additional $25 million baseline over the President's 
budget of 574. Why could the President not want to take 
Congress' lead, and which budget would best prepare our 
military?
    Secretary Mattis. Congressman, thank you for what you read. 
I have read about that campaign, and I share your appreciation 
that either--you do not want to be in second place. And we have 
no right to victory on the battlefield. That takes commitment 
and that takes leadership. And how we got into this situation, 
I mean, I told you I was shocked when I came back and saw this.
    We are going to have to move this forward in a stable way. 
I will just give you an example. We could not afford--we could 
not recruit right now 100,000 more troops for the U.S. military 
additional right now. You heard the acknowledgment earlier 
about what percent of our young people are even eligible.
    We could not right now have the industrial base to build 
the number of ships, even if you were to somehow repeal the 
BCA, repeal the Budget Control Act, say you are going to pass 
budgets on time. We literally could not do some of this that 
would fully address what you rightly bring up in your role to 
raise armies and sustain navies.
    I would just tell you that we are going to have to work 
together, and if this is the will of the Congress that they be 
willing to spend that amount, I am confident that the Commander 
in Chief would be in your corner all the way.
    Mr. Russell. Thank you, Mr. Secretary.
    And thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman. I thank you for 
your service to our country and for those that you lead. Thank 
you for their service and their family's.
    I want to bring us back to a couple of things, but one of 
them is the cost issue. It is obvious that we need to invest, 
and it is also obvious to me that we need to eliminate the 
Budget [Control] Act issues and all the other issues associated 
with it. But we still have a situation here where as much as 
you want to know where we are going to go with--for you, we 
need to know where you want to go in the future.
    And then we have heard the issue of studies so far. We have 
talked about $19 billion plus a year for inflation at 3 
percent. We have now talked about $5 billion potentially for 
additional ships puts us up to 24 plus billion dollars not 
compounded over the years, but just at today's rates. And this 
is just a statement, but I really have a concern with being 
able to get to next year and where we are going to be with the 
larger scope of budget needs that the Congress has before it.
    The second thing is, Secretary, you mentioned that the--for 
the enlisted people that we are competitive with salary with 
the high school diplomas, and we probably are. But we are not 
asking--and I am not saying something you do not know. But I 
just want to make clear that we are not asking these young men 
and women to go and do work here in the United States at one 
location and not move their families around and not put 
themselves in harm's way. This is something that we need to be 
better than the competitive atmosphere in our society today.
    And I want to go back to the Secretary of State's issue. 
The cut is 32 percent to the State Department. That includes 
the U.S. Agency for International Development and a cut of 
nearly half to development assistance. These are programs that 
obviously, talking does one thing, you have to be able to 
negotiate with a package and stop terrorism by getting to the 
hearts of people.
    These are what a lot of these programs are for. And, 
Secretary, you had made a statement that reducing regional 
chaos in tandem with our interagency partners and international 
allies to help foster a coherent order requires adequate 
diplomatic resources. And former Chairman Admiral Mullen has 
stated that cutting the budget in this manner puts the lives of 
our men and women in uniform at risk.
    So instead of getting into the cost issue, can we have 
agreement that it is critical that our State Department be able 
to function at the highest level necessary to work in unison 
with you, the Defense Department and other agencies so that we 
can stop wars and therefore stop the bloodshed that we are 
trying to prevent through both the kinetic energy and the State 
Department side of the equation.
    Secretary Mattis. Yes, sir, and I want to always make 
certain our diplomats under Secretary Tillerson are negotiating 
from a position of strength that the U.S. military, well-funded 
U.S. military can provide.
    Mr. O'Halleran. Thank you, Secretary. And I just want to 
say thank you for the great work that you are doing right now 
and bringing Mr. Norquist on, I think you have a job that you 
are going to have a challenge at, and, Mr. Chairman, I yield 
back.
    The Chairman. Dr. DesJarlais.
    Dr. DesJarlais. The Russians and Chinese are allocating 
more and more resources towards advanced weaponry and 
technology and are making rapid gains in these areas, 
especially hypersonics. As you may be aware, several news 
outlets have reported that Russia recently conducted tests of 
its Zircon hypersonic missile nearly a year ahead of schedule.
    Defense analysts have described this as a quantum leap in 
technology. When it comes to hypersonics, do you feel like we 
are where we need to be to meet these threats?
    Secretary Mattis. No, sir, this is the fourth concurrent 
force I mentioned about rapid technological change. I think we 
have got to increase our hypersonic R&D effort.
    Dr. DesJarlais. Do you feel the bureaucracy and 
compartmentalization of our budget process is putting us in a 
vulnerable position in areas such as R&D?
    Secretary Mattis. There are areas, sir, where we need to 
get acquisition reform, and we need it quickly. I am bringing 
in people from private industry with those specific skill sets 
in order to identify to you the problems well enough that you 
can see the solution here because some of it requires 
legislative relief. Much of it requires reform inside the 
Department.
    Dr. DesJarlais. Is part of your reevaluation of the missile 
defense budget going to be allocated towards hypersonic defense 
systems? I think right now $75 million has been set aside.
    Secretary Mattis. I am not sure where the money will be 
taken from or if it will be added on, but I know we are going 
to have to put more money into hypersonic R&D.
    Dr. DesJarlais. Okay. Thank you. I yield back.
    The Chairman. Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman. You know, whenever I 
am in this hearing room I am always sobered by the important 
responsibility we as elected officials have, and I am 
incredibly sobered by the awesome responsibility that each of 
you have. And I thank you again for your wonderful service.
    Secretary Mattis, you talked about this close collaboration 
you have with Secretary Tillerson trying to work together to 
have a joint strategy. I was fortunate to go to Afghanistan in 
April and was very impressed by the 4-year plan that there 
was--the by, with, and through strategy of building up the 
Afghan army and air force and the special forces and putting 
pressure on trying to get a little bit more out of Pakistan to 
do their responsibilities--but I did not see a similar 4-year 
plan with the State Department.
    Are you developing plans together that are long-term plans 
in conjunction with each other as a whole-of-government?
    Secretary Mattis. Secretary Tillerson and I are tied at the 
hip on this, sir. I assure you the planning is ongoing to keep 
us in step with one another and to ensure that we have a tandem 
approach to this, not just a military or even a principally 
military, it has got to be a collaboration.
    Mr. Suozzi. It would be great if there were documents that 
showed this collaboration between these two branches, this 
whole-of-government, that showed a long-term plan as to how to 
address or the short-term plan even how to address our 
situation in Afghanistan.
    In this current budget the request for funds is for the 
current 8,448 troops, and when we went to Afghanistan General 
Nicholson and others made a very persuasive case that a few 
thousand, 3,000, 5,000 more troops for force protection and to 
replace some of these private contractors really made a lot of 
sense, it will save money, it will build morale, it will be 
effective in helping out.
    In May a report came out in a Bloomberg article that the 
intelligence community is pushing for 50,000 more troops, and 
it looked like it was a move away from by, with, and through. 
So can you put us at ease as to what the current thinking is 
regarding the current force level versus an increase, a modest 
increase for force protection versus this report of 50,000 more 
troops?
    Secretary Mattis. Sir, I give no credibility to any report 
about 50,000 more troops. I can assure you neither the 
commander in the field nor the Chairman of the Joint Chiefs 
have given me any requests like that, not even close. That is 
somebody's flight of fantasy, I assure you, sir.
    Mr. Suozzi. Thank you. And the by, with, and through 
strategy is the strategy that we are going to continue in the 
foreseeable future?
    Secretary Mattis. And how we enable them by, with, and 
through, but also perhaps a little more regional approach, sir.
    Mr. Suozzi. General Scaparrotti was here on March 28th of 
2017, and he said that ``Additional Russian activity short of 
war range from disinformation to manipulation. Examples include 
Russia's outright denial of involvement in the lead-up to 
Russia's occupation and attempted annexation in Crimea, 
attempts to influence elections in the United States, France, 
and elsewhere, its aggressive propaganda campaigns targeting 
ethnic Russian populations among its neighbors, and cyber 
activities directed against infrastructure in the Baltic 
nations and the Ukraine. In all of these ways and more Russia 
is attempting to exert its influence, expand its power, and 
discredit the capability and relevance of the West.''
    And, you know, we hear this all the time, and a lot of it 
is caught up in the partisanship these days, but Russia is a 
bad actor, especially in Europe and Eastern Europe. Forget 
about the United States now and everything everybody is in the 
news this days.
    What is the DOD's responsibility regarding hybrid warfare 
to combat--you know, we talk heavily about troops and about 
equipment. What are we doing to combat this hybrid warfare of 
propaganda disinformation from the DOD's perspective and what 
can we do and how else can we assist you?
    Secretary Mattis. I will have the Chairman speak to this 
for a moment, sir. What you defined with General Scaparrotti's 
words there, Russia has chosen to be a strategic competitor. 
They want a veto authority over the diplomatic, economic, and 
security interests of their near abroad and actually a little 
deeper than just near abroad. The changing character of war, 
this deniable gray zone, cyber--this is what you are saying.
    Mr. Suozzi. And beyond that corruption, outright 
corruption----
    Secretary Mattis. Absolutely.
    Mr. Suozzi [continuing]. They are trying to make money by 
undermining governments in Eastern Europe and Europe.
    Secretary Mattis. Absolutely, sir. How do we adapt to this 
so that we are not waiting with tank columns for an enemy that 
never can be taken on? It is the changing character of war.
    Let me have the Chairman just give a few groups on this. It 
is a heavily military education issue, as well of our own----
    General Dunford. Congressman, we have spent a lot of time 
over the past year looking at this issue, and if you really 
break it down into political influence, economic coercion, 
information operations, cyber capabilities, military posture, 
all put together to advance Russia's national interest, I think 
U.S. military presence in Europe is a key piece of it, our 
assurance. Our cyber capabilities are an important part of it. 
Information operations is something we can do from a military 
perspective.
    The one thing that Russia is able to do is very quickly 
integrate their entire government to advance their interests in 
Europe. And one of the things that they are doing, of course, 
is undermining the credibility of our alliance structure in 
NATO and causing people to question whether we can meet our 
alliance commitments.
    And so I think at least three out of the five major areas 
or areas where there is a military dimension, but the thing I 
would emphasize is that what you are describing, I call it 
adversarial competition, it has a military dimension. It falls 
short of war, but it also is the whole-of-government, and I 
think probably three out of the five areas I mentioned are 
areas where the military can contribute, but the entire 
government needs to be waging in this adversarial competition.
    Mr. Suozzi. I have used up all my time. Thank you, Mr. 
Chairman. And I look forward to discussing this further in the 
future. Thank you.
    The Chairman. Dr. Abraham.
    Dr. Abraham. Thank you, Mr. Chairman. Thank you for your 
endurance tonight, gentlemen. I have heard some phraseology 
used tonight: prioritize, challenges with families, do not have 
the reach, balancing act.
    And it all goes back to the Budget Control Act, just we are 
not giving you guys the money that you have to do, and I know, 
Secretary Mattis, your burden must be very great trying to 
balance this on a daily basis.
    So certainly us on the committee but all of Congress we 
have got to put our money literally where our mouth is and 
break this Budget Control Act, and I know we on the committee 
with the chairman's leadership certainly would love to do that.
    One of your priorities with your 2018, in your testimony, 
was saying was to keep the faith with the service men and women 
and their families. I saw where in Italy, for example, you have 
got two naval hospitals and one Air Force hospital that are on 
a closure list, and I worry that when and if those do get shut 
down that standard of care for the service members and their 
families will suffer greatly.
    And I guess my question of Secretary Mattis is, What is 
your opinion on that? What is your take on the closure of those 
three hospitals and hospitals like those? Where will these 
people go? I am worried about the standard of care being 
lowered, and I will let you answer.
    Secretary Mattis. I have got to look at it, sir. I would 
have to look at the specifics of the location, but the bottom 
line is we cannot deploy troops and families where we do not 
provide sufficient hospital care. So let me look at those three 
in Italy and come back to you with what we have in mind and 
what we are going to do to mitigate any loss of capability, but 
I cannot give you a good answer right now, sir.
    [The information referred to can be found in the Appendix 
on page 128.]
    Dr. Abraham. That is fine. You can get back to me as soon 
as you can. It has been referenced with the maintenance issue 
on the aircraft, we in this particular hearing room we also 
have been told by others where we are 1,500 to 1,600 pilots 
short. We are about 3,400 to 3,500 maintainers short.
    You have got the commercial airlines that are pulling 
pilots from the military daily, and even with the commercial 
carriers incentivizing with perks and monies they are still not 
able to meet their demands, and they are even talking about 
reducing routes commercially.
    What is the DOD doing to retain, build a pilot cadre, and 
is it even solvable with money? Where would it go?
    General Dunford. Congressman, you have just identified an 
issue that actually is keeping the Chief of Staff of the Air 
Force and the Chief of Naval Operations and the Commandant of 
the Marine Corps awake at night. And there actually is 
collaboration right now with industry to look at this as a 
national problem for the aggregate number of pilots both for 
the commercial sector as well as for the Department of Defense.
    And so General Goldfein has been leading an effort to do 
that, to open up that dialogue and look at what will it take to 
rebuild that pilot base to meet both commercial needs and 
military needs. And, of course, in the near term, one thing we 
use is the incentive system to keep our pilots in. A key piece 
of the incentive system, though, is not just base pay and 
bonuses for flying it's--we call it quality of work, it is the 
numbers of hours you fly and your confidence in your aircraft 
and those kinds of things.
    So those are the areas that the Chief of Staff of the Air 
Force is focused on the squadron level, that is where it makes 
a difference, and in a number of initiatives that he is doing 
they are designed specifically to retain pilots. But as you 
point out, it is going to take a public-private dialogue and 
solution to get at both the commercial requirements and the 
Department's requirements.
    Dr. Abraham. Well, like you gentlemen, I have the highest 
faith in the Chief of the Air Force also, Dr. Goldfein.
    So I yield back, Mr. Chairman.
    The Chairman. Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    Secretary Mattis, I am a new Congressman, and I have to 
tell you that I was surprised by the amount of engagements we 
have across the globe. I quickly became a disciple of a 355-
ship Navy. You have spoken in your testimony today or at least 
alluded to that our future defense strategy might change or 
evolve. I do not want to put words into your mouth, sir.
    My initial question is this, I understand our National 
Defense Strategy to be being capable of fighting two major 
conflicts simultaneously, perhaps one with a state actor, 
perhaps one with a non-state actor. Do you envision--I know 
your crystal ball may not be perfect--but do you envision that 
aspect of our National Defense Strategy changing over time?
    Secretary Mattis. Sir, if the enemy, our adversary has four 
courses of action that I prepare for, I am pretty confident 
number five will be the one he uses. What I am saying is we 
have a fundamentally unpredictable phenomenon that this 
committee deals with, and that is called war. That is the 
auditor that we have to be prepared for. Ultimately it audits 
our recruiting, our equipping, our research, our pay, it audits 
everything about the military.
    So how do we create a military that has got a shock 
absorber in it so that when surprise strikes, we are ready for 
it? I believe that we will have to be ready for more than one 
adversary at one time because we are up against thinking, 
cunning adversaries, and if they see us engaged with one in one 
arena and they have mischief in mind, they certainly will take 
advantage of our distraction. So in creating a military with a 
shock absorber in it we have to be prepared to do more than one 
thing at a time.
    Mr. McEachin. I would also ask you, I know that maybe it 
was Mr. Wittman, maybe it was Mr. Courtney, but someone asked 
you about the billion dollar reduction in the shipbuilding 
account, and I have to confess to you that I either missed your 
answer or did not understand your answer. Would you mind 
repeating your answer as to why that is justified at this time?
    Secretary Mattis. I would not justify reducing the 
shipbuilding account. Right now we are trying to prioritize 
readiness. In other words, we have ships that you have already 
bought that we already have manned that cannot go to sea. So in 
some cases what we are doing is putting money into readiness 
while trying to save the shipbuilding account so we have 
tomorrow's readiness being constructed today.
    But this is a matter of prioritization, Congressman, as we 
deal with the reality of too many years of these ships not 
being maintained in a way that we get full use out of them. So, 
you know, what we cannot do is cease to put in operations and 
maintenance money there because we are putting it all into 
building new ships. As much as I would love to build new ships, 
it is a balancing act, sir.
    Mr. McEachin. So, Mr. Secretary, would you reject the 
characterization then that the funding for the Navy's 
shipbuilding and conversion account relative to fiscal year 
2017 has been reduced?
    Secretary Mattis. No, sir. I just ask for your patience 
that we are digging our way out of a readiness hole, and in 
order to do that we cannot always build or put the money where 
we would want to if we did not have to deal with this reality 
that comes from years of living under the Budget Control Act 
where we have been unable, unable to maintain the ships. It is 
not the option that I would prefer.
    Mr. McEachin. And, again, I apologize if this question has 
already been asked, but at what point in the future do you see 
us making strides towards that 355-ship Navy, positive strides 
whether it is getting out of whatever holes you perceive us 
being in or just what?
    Secretary Mattis. I think even this year with nine ships in 
the budget, sir, at least it starts us in the right direction, 
but it is only a start, and I share your impatience or your 
concern about it.
    And in 2019 to 2023 obviously we need the kind of growth 
that Chairman Dunford was referring to of 3 to 5 percent a year 
in order to start enlarging the fleet. We need a larger fleet. 
I do not seem to get much argument on that from anybody, so I 
think it is a matter of allocating the resources.
    Mr. McEachin. Sadly my time is used up, but I thank you, 
sir.
    The Chairman. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman, and thank all you 
gentlemen for being here.
    I still currently serve in the Mississippi Army National 
Guard, served there for almost 32 years, it will be 33, I 
think, in December. Our readiness level is not where I have 
seen it in my entire career, and I think there are units that 
are really good. I think there is equipment, but we have got to 
maintain our equipment and get back to the level that we can 
sustain. And I do not think that we can do that on the budget 
that is proposed of $603 billion. I think we need to be more in 
the range of 604.
    We talked about munitions. Those can come out of OCO 
because they are being used in operations or overseas 
contingency operations, so I do not understand why we cannot 
have a little certainty in purchasing new munitions through the 
OCO funding that is specifically to buy those munitions that we 
are shooting at the bad guys.
    Equipment. We have got to--right now what I am seeing, and 
it is all underhanded and nobody said this, this is just Trent 
Kelly's little assumption, but right now what I am seeing is 
most of the Active Component services are eyeballing the 
equipment of the Guard and Reserves and saying we can transfer 
this to us and give them the old stuff and fall in on their 
stuff to help us get through. I do not blame them for doing 
that.
    That does not help us [with] long-term readiness. We have 
got to be equipped. If you want me to go fight the enemy as a 
National Guardsman, I have got to have an M1A2 SEPv2 tank. I 
cannot deploy in an M60A3 and achieve the effects that I need 
to achieve.
    Our communications do not work. We have got to look and 
smell the same, whether it is Active or Reserve and get the 
force structure to meet that, but when we start trying to take 
equipment from one to shift to the other--in the old Army that 
I grew up in, you did not hot rack tanks, you did not use other 
people's equipment. You painted your name on yours, and you 
owned it, and you took a lot of pride in it.
    Our soldiers and airmen and Marines, they do not have to do 
that anymore because they do not deploy with their equipment, 
they deploy with somebody else's. And they leave it over there 
for the next guy to fall in on, and the guys back here cannot 
train because of readiness.
    What are we doing to get the spare parts and to get the 
current fleet across the board not to transfer readiness from 
one unit to the other, but to actually start building the OR 
[operational readiness] rates of these units?
    Secretary Mattis. Sir, the first step that was the $21 
billion that Congress gave us for the fiscal year 2017 
supplemental was directly targeted on this. This budget this 
year is designed to further that, but, sir, it took us a long 
time to get here, and again, I share your impatience with this, 
but I would tell you, too, that OCO will not tell industry with 
any confidence that they should open another line, put in the 
money into their industrial plant because they do not know if 
that is going to be there next year.
    This has got to be part of a budget plan if we want them to 
make the industrial contribution that their stockholders are 
going to have to put money up for because for them to go broke 
is not part of their responsibility.
    So OCO does not help us expand the industrial base. We can 
get max out of the industrial base, but they are not going to 
build more industrial base on OCO.
    Mr. Kelly. So then why do we not ask for 640 instead of 603 
and call it all top-line spending and not OCO?
    Secretary Mattis. Well, I mean, that is an option, sir. As 
you know, we are already coming in asking you to violate, bust 
the Budget Control Act. I mean, at some point we have to 
recognize the law that you have passed, and I do not have an 
answer because that law was passed with the idea that it would 
be so injurious that it would never go into effect.
    Well, it has been in effect for years now, and frankly, the 
Department of Defense cannot change that law, only Congress 
can.
    Mr. Kelly. I agree wholeheartedly, Secretary, and we have 
got to break the sequester in the BCA. I do think that we need 
a higher number, and I think we need the certainty to go with 
that. If we give that to you can you spend that on training 
soldiers? We do not have enough slots to train soldiers. We 
cannot send soldiers to additional training to developing 
classes, AIT [Advanced Individual Training] and NCOES [Non-
Commissioned Officer Professional Development System] and OES 
[Officer Education System]. Can you spend that money in new 
schools and new things to train these soldiers and equipment if 
we get that BCA busted and we give you the money on the top 
line?
    Secretary Mattis. We can, sir. It would help if it was in 
multiyear money so that we could have a program that we know we 
are going to implement over a couple of years. It would help if 
it came in a budget on time, not a continuing resolution with 
the paralysis a continuing resolution will apply to us.
    So with fiscal discipline we will do our level best to 
spend every bit of it and address every problem you have got. 
We share your assessment of what the problem is.
    Mr. Kelly. Thank you all for your service, and thank you, 
Mr. Chairman. I yield back.
    The Chairman. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your service to our country and for being so patient to 
take questions from some of the junior members.
    Secretary Mattis, Geo Saba on my staff tells me how 
respected you were back home at Stanford. I appreciate your 
service. I have two questions. I want to read from the 
[Section] 809 Panel interim report, which as you are aware, was 
the commission panel created to help streamline the defense 
acquisition process.
    And they wrote, ``According to DOD, the last major defense 
downturn in the late 1980s and early 1990s resulted in more 
than 300 prime contractors, platform providers, and subtier 
companies merging to form [the] five megaprimes of today: 
Boeing, Lockheed Martin, Northrop Grumman, Raytheon, and 
General Dynamics.''
    My question is, do you think there is enough competition in 
the defense industrial base and what steps are you taking to 
create more competition?
    Secretary Mattis. It is very hard for us to create 
competition, sir. It is based on how much budget we have and 
how many different companies feel they can compete and stay 
healthy. We saw this coming in the 1990s. What the Defense 
Department did--I happened to be the executive secretary to two 
Secretaries of Defense, William Perry and William Cohen. They 
looked at each case where they concentrated the industrial base 
into smaller and fewer and fewer companies, a larger actually, 
but fewer companies, but there was no way to maintain the 
vitality, the financial vitality of the companies if we stood 
in the way of it.
    So it was forced on us. We were worried about it then. We 
saw this coming, whether it would be less competition, but 
frankly, we were unable to sustain an effort to maintain the 
wider industrial base.
    Mr. Khanna. Well, I hope you will consider things we can do 
to have more competition if it is possible.
    My second question concerns I mean, your testimony was very 
eloquent where you said our Nation has been at war for 16 
years, the longest war our country has faced, and that this has 
been in part why our resources have been strained.
    And I think if you were to look objectively at Iraq and 
Afghanistan and Libya and ask has our country met the 
objectives we set out to meet, you would probably get people on 
both sides of the aisle saying that has not been the case. I 
mean, as you know much better than I, Taliban still controls 40 
percent of Afghanistan. And so where I come in Silicon Valley, 
you know, when you have a business and they come for more 
funding, one of the questions will be, well, is the strategic 
plan working or do we need a change in strategy?
    And my question is, I have great confidence in our troops. 
I have less confidence in the policymakers. Do we need before 
we talk about more funding, a clear sense of what the strategy 
is going to be so that we know that the last 16 years if we 
have not achieved our goals that we will achieve our goals in 
these regions?
    Secretary Mattis. Well, I think we do need a change in 
strategy, and I think it has got to be one that starts with a 
good exchange between the Congress and the level of resources 
they believe is appropriate to the Department of Defense. And I 
would start there by saying that continued BCA, which makes the 
Congress a spectator to all this, is probably an irresponsible 
way to go.
    I am much more comfortable coming up here and defending a 
strategy and a good relationship and a good discussion back and 
forth than I am with coming up here as we all watch BCA put us 
into a position that some of the serving members who have been 
in the National Guard and the Armed Forces say is destroying 
that very military readiness.
    So it is a balancing act of getting a good strategic 
dialogue, determining what level of the government's treasure 
we are willing to put into defense and make certain that what 
we have got are well-defined objectives that we can accomplish. 
I am not going to condemn what someone has done before me. I 
will leave that to history. I am here to deal with the reality 
of the threat to the country today.
    Mr. Khanna. Thank you for your answers. I yield back the 
balance of my time.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. General Dunford, 2 
years ago Lieutenant General Glueck told this committee that 
the COCOM [combatant command] demand for amphibs [amphibious 
assault ships] was closer to 54 than the nominal Navy-Marine 
Corps unconstrained goal of 38. Is that still the case?
    General Dunford. That is pretty close to being the case, 
Congressman. I remember those numbers. I was the Commandant of 
the Marine Corps at the time.
    Mr. Gallagher. And, if anything, I would submit that the 
Navy's 2016 Force Structure Assessment where the formal 
requirement was raised from 34 to 38 suggests that in a greater 
threat environment the amphibious demands are growing.
    Despite this trend, your budget request does not support 
another amphibious ship until fiscal year 2020. Navy officials 
have supported the long-term layup of certain amphibious ships, 
which, while it will support certain modernization readiness 
requirements, will also take them out of the fleet and further 
reduce our amphib capacity.
    Your fiscal year 2018 request also reduces the planned 
procurement of ship-to-shore connectors from six in the fiscal 
year 2017 FYDP to three, so I guess my question at the end of 
the day is in light of that does the fiscal year 2018 budget 
request improve or degrade the capacity of the Navy-Marine 
Corps team to project power?
    General Dunford. Congressman, I have to go back and check 
the numbers, but it certainly does not enhance the capacity of 
the Navy-Marine Corps to project power.
    Mr. Gallagher. I think the answer we have heard sort of in 
the five or so shipbuilding or Navy questions we have asked 
tonight is that you have chosen to prioritize readiness over 
long-term shipbuilding, and I understand why readiness is so 
important, I just do not understand why we cannot do both at 
the same time.
    I mean, you look at Reagan's first full-year budget he 
added $3 billion on Navy O&M [operations and maintenance], $10 
billion on shipbuilding. So why have we chosen this sort of 
false choice, that is my word, right now between readiness and 
long-term shipbuilding in this budget?
    Secretary Mattis. Right. It is a good question, 
Congressman, and I do not take any issue with where you are 
going with it. I would just tell you that when we are already 
busting the BCA cap by $52 billion this is not a budget that 
has taken readiness or modernization laying down, but we have 
got to marry our time.
    Congress has the Budget Control Act in effect. I mean, if 
we walk into here acting as if there is nothing that you have 
said and put into law has any effect, you would understandably 
or at least some Members of the Congress would understandably 
question our judgment. We have got to at least deal with this. 
And if you come out and tell us that you are willing to go 
right now as a Congress, not this committee, this committee has 
stood by us through thick and thin.
    This committee is not the problem, nor are your colleagues 
in the Senate Armed Service Committee. You know where the 
problem lies. It is more broadly. And please guide us. Talk to 
us. We are eager to do what you are talking about.
    Mr. Gallagher. I guess my only difference of opinion on 
that approach is it suggests that the Pentagon and the 
President are passive spectators in this process and have 
priced in sort of what the congressional market can bear. When 
we know that sort of leadership from Article I can change the 
market dynamics themselves.
    Secretary Mattis. Well, Article I, if I remember right 
sir----
    Mr. Gallagher. Article II, excuse me.
    Secretary Mattis. Yes, sir. I think Article I is you.
    Mr. Gallagher. If you are indeed urging us to--you both 
condemned BCA, why does the budget extend the reductions under 
BCA from 2021 when they expire through 2027? Are those just 
placeholders? It grinds it down to roughly 2 percentage of GDP 
[gross domestic product].
    Secretary Mattis. Go ahead.
    Mr. Norquist. When you are looking at the FYDP, the out-
years numbers, those are placeholders. Secretary Mattis's 
reference, when the studies are done next year will include the 
out-years in the implications, but right now they are just 
placeholders.
    Mr. Gallagher. Sure. And then quickly going back to a line 
of questioning that Mr. Conaway and Ms. Hanabusa brought up, 
you said that, you made the claim in your testimony that a 
round of BRAC could allow to us buy something like 120 Super 
Hornets. What is the Department's assessment of what we have 
been able to buy from the last round of BRAC?
    Secretary Mattis. We could go in and show the amount of 
money that we have saved, and we just obviously it goes into 
the defense budget. We can give you some examples of what--I 
was showing examples of what that savings would translate to in 
terms of combat capability, but we could certainly go back, 
show you what we have saved from past BRACs and then tell you 
what that translates into in terms of number of ships or 
airplanes or tanks or whatever.
    Mr. Gallagher. And I think we all appreciate that, and also 
an assessment of what investments and readiness we are prepared 
to forego in order to fund another round of BRAC.
    In other words, sort of reverse the dynamic and say how 
many Hornets would it cost us to fund BRAC? But I think we 
really would appreciate that assessment.
    Secretary Mattis. You mean for a couple of years until it 
started paying off?
    Mr. Gallagher. Yes. All the cost on the front end.
    Secretary Mattis. Okay.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gallagher. Thank you. I yield back.
    The Chairman. Mr. Secretary, the last round of BRAC took 
more than 10 years to break even, so just part of the reason 
there is concern on this committee is--and last time I checked 
with CBO they did not have it breaking even yet.
    Now that has been a year or so, but there is no doubt it 
took more than 10 years to break even--not a couple--and so 
that has left a bitter taste in a lot of folks' mouth. It did 
not achieve the savings that were promised. So just an 
editorial comment. I am happy to continue to talk, as I know 
other members are, but the last one is not a very good basis to 
go on.
    Secretary Mattis. I would try to align--I told you I do not 
accept the current----
    The Chairman. And I appreciate that.
    Secretary Mattis. And what we will do is we will look at 
what can we do to make certain what we get rid of this next 
time starts paying off in 5 years, not 10 or 20.
    The Chairman. It has got to be a different approach.
    Secretary Mattis. Yes, sir.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman, and thank you for your 
patience in being here and for your leadership.
    A lot of great insightful comments tonight, and I thank you 
for them. One of the ones that stands out is the fact that we 
have this huge bow wave of modernization as the Chairman 
pointed out, and you have had to work within the top line that 
you have been given and that the BCA has had that huge impact, 
so I think it is just a great summary of what you had to 
contend with here.
    My first question is for the Chairman dealing with 
intelligence, surveillance, and reconnaissance. Today only 30 
percent of our combat commanders' airborne intelligence, 
surveillance, reconnaissance, or ISR, are being met by the 
capabilities from the combatant commanders, their requirements.
    This means we are choosing between providing ISR support 
for counterterrorism or collection of peer competitors like 
Russia or China. Is 30 percent good enough and does the current 
budget proposal by you or by the executive branch here, is it 
helping to narrow that gap?
    General Dunford. Congressman, just a little bit of history, 
we actually have grown the ISR enterprise by 1,200 percent 
since 2001. We have increased in numbers of platforms by 600 
percent since 2008, and we are currently meeting 30 percent of 
the requirements. So this is one of those areas in the 
Department I actually do not think we can buy our way out of, 
and it is probably number one, not probably, it is number one 
for me in terms of innovation initiatives, leveraging big data 
and finding a different way to feed decision-making.
    In other words, we will not be able to buy enough platforms 
to meet the current articulated requirement by the combatant 
commanders, and yet we still need to get the intelligence 
necessary to feed decision-making.
    So I guess what I am suggesting to you is that we do have--
we are growing now from 60 caps to 90 caps over the next couple 
years. That is our program growth, and so that is a 50 percent 
growth, and at the end of that period of time I suspect we will 
be somewhere at 34 percent or 35 percent.
    So the areas that we need to burn some intellectual capital 
on this particular problem is at the top of the list.
    Mr. Bacon. Secretary Mattis, do you have anything else to 
add to that?
    Secretary Mattis. Sir, as our military has shrunk in size 
the need for more precise intelligence is one of the ways we 
mitigate the risk that smaller military. So part of this is a 
growing need for a level of what is over the next hill, where 
is the enemy, what is going on as we have gotten a smaller 
military that we are still committing, as you know, around the 
world.
    We did not pull everybody out as we had anticipated a few 
years ago and reconstituted at a time when we could have put 
more effort into this, more finances into it. So we are going 
to have to continue to work this, but what we are doing right 
now is challenging for us, very challenging to shrink this gap.
    Mr. Bacon. Another area of concern is electronic warfare. 
When I came in in 1985 we had, I would say, a dominant 
electronic warfare capability compared to our near peers, we 
will say, but in the 1990s and I think the 2000s we let it 
atrophy, and I would say today the Russians and Chinese are 
producing electronic warfare capabilities technology-wise and 
capacity-wise that exceeds us.
    Does this budget, Chairman, does it help narrow that gap in 
electronic warfare realm?
    General Dunford. Congressman, it does, and we started in 
2017, and I could not agree with you more that our competitive 
advantage has eroded over time in electronic warfare, and we 
talk about our ability to project power and we talk about 
adversaries like China and Russia specifically targeting our 
ability to move into an operational area and operate freely 
within that area. You have heard the term anti-access/area 
denial. Electronic warfare is one of the key areas that we need 
to improve our competitive edge.
    Mr. Bacon. Mr. Secretary, anything else to add?
    Secretary Mattis. No.
    Mr. Bacon. Thank you very much. I yield back.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman, and thank you to each 
of you, sirs, for joining us late into the evening tonight to 
talk about these important issues.
    Mr. Secretary, General Nicholson suggested and you endorsed 
efforts to add a, quote, ``few thousand'' additional troops to 
prop up the Afghan security forces in the face of aggressive 
Taliban attacks. I want to dig more deeply into testimony that 
you have already provided related to the budget related to 
Afghanistan. Why would a new total of approximately 15,000 
troops be decisive when just a few years ago they were close to 
100,000 troops in Afghanistan? Have our interest or the mission 
changed?
    Secretary Mattis. The Afghan Army, as you know, has been 
fighting hard, and you will just have to look at the casualty 
figures to see that reality. The troops that are being asked 
for by General Nicholson, and I do not want to characterize 
them all this way, but many of them are going to be what we 
call train, advise, assist. These are troops that will go, that 
are specifically trained by our U.S. Army to go out in the 
field, and you apply them with the brigades, the Afghan 
brigade.
    Now remember, we have been operating at what we call the 
three-star headquarters, the corps level headquarters. Below 
them is the two-star division headquarters, then you get down 
to the one-star and colonels in the brigades. We are talking 
now about putting people who can call NATO air support down at 
the brigade level, so that when they are in contact the high 
ground is now going to be owned by the Afghans.
    It is a fundamental change to how we bring our, what I 
would call, our real superiority in terms of air support to 
help them. So, in other words, we are not talking about putting 
our troops in the front line and saying somehow a few thousand 
more troops in the front line alongside them are going to help 
taking the hill by closing with the rifles and machine guns.
    These are going to be people specifically designed, 
trained, and organized and equipped to go in and advise them 
how to take the hill, get them the air support, the artillery 
support, the rocket support that will enable them. Does that 
help to address your question?
    Mr. Banks. Yes. Mr. Secretary, like you, I am supportive of 
ensuring that Al Qaeda and groups that want to attack the U.S. 
homeland are unable to gain safe haven again in Afghanistan, 
and I support those efforts. But when it comes to corruption 
and ensuring to the American taxpayers that the investment is a 
sound one in Afghanistan, what do we need to do to ensure that 
our support for the Afghan security forces is used 
appropriately and effectively.
    Secretary Mattis. Yes, I think corruption has been probably 
the biggest strategic vulnerability that we faced in terms of 
the Government of Afghanistan gaining the respect and the trust 
of their own people. The authorities we give and the 
expectations we give to these troops that we are plugging in 
down at lower levels for one thing will help to change that, 
but furthermore, I went to Afghanistan here a month and a half 
ago, and I met the officer who has now been put in charge of 
going after corruption.
    I find a fellow who is serious, but as you know this is a 
society that is run by reciprocity. It is a tribal society by 
and large, and we are going to have to deal with the corruption 
in a way consistent with that society. They recognize the 
problem there. They recognize that something has got to be done 
about it, but this is a critical problem.
    I would say this biggest strategic problem we face is 
corruption, and we will be dealing with it, President Ghani has 
a program to deal with it, and we will do our best to address 
it. We have got to.
    Mr. Banks. Thank you very much. I yield back.
    The Chairman. Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman.
    Thank you very much, Secretary Mattis and General Dunford. 
I appreciate your time here this evening.
    First of all, I want to say I completely agree. We have got 
to repeal the Budget Control Act. I believe there is no more 
important obligation we have as Members of Congress than 
providing resources necessary for the defense of the Nation. It 
does not matter how much healthcare reform we do, how much tax 
reform we do. It does not matter if we balance our budget. If 
we get this wrong, none of that matters, and we cannot get this 
right without repealing the Budget Control Act.
    Having said that, though, I am very troubled by the budget 
that the administration has put forward. And I think that in 
both of your written testimony to the committee and in 
testimony here tonight you have done a tremendous job at laying 
out the gravity of the threats that we face, laying out the 
seriousness of the situation, the pace of advancements that our 
adversaries are making against us, including in areas we may 
not be able to counter or defend against. And dominance lost.
    And in particular, General Dunford, in your written 
testimony you talk about within 5 years the potential that we 
would lose the ability to project power. Yet the budget that 
has been presented to us is at best a holding pattern. At best. 
When we face an existential threat from North Korea and this 
budget cuts missile defense, it cuts directed energy funding, 
which in your testimony, Secretary Mattis, you said is crucial.
    I want to understand, General Dunford, this is a question 
for you, how can we possibly justify, you know, we have heard 
tonight this budget is a holding pattern before we get to real 
growth? How can we possibly justify a year of holding pattern? 
Why is it not better to begin the real growth today when we 
should have begun it yesterday?
    General Dunford. Congresswoman, all I can do is tell you if 
our priorities are correct within the top line that have been 
given, and when I talked about that 5 years, and we will talk 
more in detail on Wednesday night, we came up with that by 
analyzing our peer competitors by functional area and taking a 
look at where are we today, where will we be in 5 years based 
on projected resources? Where are our potential adversaries 
today, and where will they be in 5 years?
    So I am trying to share with you the problem. I cannot 
solve it. I can tell you that we have the right priorities in 
the top line we have been given, but I also emphasize that if 
we do not turn around the trend, if we do not change the 
trajectory that we are on, that is where we will be at a 
competitive disadvantage within 5 years. So I am trying to do 
the best I can with candor to share the situation as it exists 
today and what it will be in 5 years if we do not actually take 
action.
    Ms. Cheney. I appreciate that. Who gave you the top line? 
Are we talking about OMB?
    Secretary Mattis. That is correct. It is a growth of about 
5 percent, a little over 5 percent over 2017, and it is, as I 
said it is $52 billion above the BCA cap. At some point we have 
got to get some freedom, and OMB will need the same freedom.
    Ms. Cheney. But with all due respect, Mr. Secretary, we are 
in a hole that may be greater than we have, you know, certainly 
been in since the 1970s. We are facing an array of threats, you 
said in your testimony, that is basically more volatile than 
any time in your career.
    And so I am trying to understand how it is that we could 
possibly have an administration that is saying but it is okay, 
we can wait until next year to begin the serious buildup?
    Secretary Mattis. I do not think anyone is saying that, 
ma'am. Five percent growth, that is a bit of a change to say 
the least.
    Ms. Cheney. Well, it is 3 percent, as I understand it, Mr. 
Secretary----
    Secretary Mattis. Over 2017?
    Ms. Cheney [continuing]. Over the Obama administration 
request for 2017.
    Secretary Mattis. Okay. Well, Congresswoman, we are growing 
the budget, we are dealing with readiness problems that we 
inherited that the Congress has watched for some time. We are 
going to do our best to create combat capability as swiftly as 
we can using an All-Volunteer Force and trying to get ships 
back to sea, trying to get airplanes back in the air.
    Ms. Cheney. But I am sorry, Mr. Secretary, but I just do 
not understand when you say we are doing it as quickly as we 
can, why, you know, tonight we have said we are going to begin 
real growth next year. Why are we all right to wait until next 
year to begin that real growth?
    Secretary Mattis. Well, for one thing, ma'am, we have got 
to put a lot of money into readiness where we are already in a 
hole. I mean, I have looked at the unfunded priorities list, 
and after the priority we have already set, I agree with every 
one of the unfunded priorities, as well. And that is 33 billion 
more dollars, but the bottom line is you are asking us to come 
in with a budget request beyond what we have now that would be 
even more of a violation of the act that Congress has passed.
    I mean, we need some direction from you, as well. I mean, 
frankly, as I recall my civics textbook the President does not 
even have to send a budget.
    Ms. Cheney. Right, but, Mr. Secretary, with all due 
respect, I know my time is up, just to echo what my colleague 
Mr. Gallagher said, the President has got to lead on this, and, 
you know, in terms of the budget proposal that came up, and I 
know you dealt with this issue of the proposed caps, but the 
President's budget extends the Budget Control Act out 6 years. 
So we can say it is a placeholder, but table S7 foresees the 
Budget Control Act and the caps going beyond where they are 
supposed to be today.
    And so I think we can all agree we have got to repeal the 
Budget Control Act. It is crucially important. But we cannot be 
in a holding pattern in my opinion with all due respect for a 
year, you know, while we face the grave nature of the threats 
we face.
    Thank you.
    Secretary Mattis. Okay.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman and General Dunford, 
Secretary Mattis, Mr. Norquist. I am grateful tonight to see 
the bipartisan appreciation of your service.
    It is clear that we all want you to be successful for 
American families. The Vice Chief of Staff of the Army, General 
Daniel Allyn, testified that quote ``based on current readiness 
levels, the Army can only accomplish defense planning guidance 
requirements at a high military risk,'' end of quote.
    General Dunford, what is your assessment of the impact on 
our soldiers of being able to accomplish requirements at a high 
military risk? How many casualties does this mean for the Army 
to incur when it is ordered to fight at a high military risk? 
How many casualties at a low military risk?
    General Dunford. Congressman, without talking about a 
specific scenario, I cannot talk about casualties, but when 
General Allyn did testify, and when we all testified to risk, 
we do look at two variables. One is the time it takes to 
accomplish the objectives and then the amount of casualties we 
would estimate under particular circumstances.
    So I think what General Allyn was suggesting is that 
readiness translates into casualties, and I would subscribe to 
that, as well.
    Mr. Wilson. And I appreciate that Colonel Paul Cook has 
reflected such concern and wants to work with you obviously.
    And, Mr. Secretary, I want to thank you for your very clear 
warnings about the destructive consequences of sequestration. 
But at the same time, the budget level in your request, how 
many years do you think it would take normally to address high 
military risk?
    Secretary Mattis. It is a constantly moving target, sir, 
because the enemy does not stand still. But I would just tell 
you that between 2019 and 2023 we intend to significantly grow 
the force, the Navy fleet, the Army brigade, and the fighter 
squadrons to reduce that risk.
    Mr. Wilson. And, Mr. Secretary, I am very concerned as Ms. 
Cheney, too, the defense budget request states, quote, ``The 
condition of mission facilities, airfields, training areas, 
housing barracks directly impacts the readiness of the units 
and the morale of the soldiers, civilians, and families.''
    Yet the budget also tells us that the Army has $10.8 
billion in unmet needs, the Navy at $9.5 billion short, and the 
Air Force is $25 billion short. How long will it take to fix 
these critical backlogs, 5 years, 10 years, 20 years? Will we 
ever be able to fix these facilities for our soldiers, airmen, 
and Marines to train for war and for their families to live?
    Secretary Mattis. Well, we are increasing the MILCON 
[military construction] budget, sir. You know, as we look more 
broadly at this, as I said earlier, Congressman Wilson, we did 
not get into this overnight, and it is going to take time to 
get us out of this. We are given a top line as the President's 
budget had to deal with a lot of priorities, and we are doing 
the best we can with the money that we have been given, which 
is an increase over what past years have committed to DOD. Is 
it enough?
    Can I give you a timeline on this? Probably not right now, 
but it is going in the right direction, and I think we would 
all agree with that even if it is not sufficient in terms of 
getting us where we need to go. But the Congress has the purse 
strings, and if the Congress decides to fund the unfunded 
priority list, some of these issues are listed right there, 
then that money can be applied to it.
    Mr. Wilson. And specifically, Mr. Secretary, the Navy alone 
submitted unfunded requirements of more than $690 million for 
critical repairs to airfields, dry docks, wharfs, and other 
facilities. The Air Force asked for more than $858 million, the 
Army for $820 million. What is the explanation for the 
committee and how should we accept whether the budget request 
is adequate when the services are asking for so much, and 
really there has been a great description by Congresswoman 
Cheney that we are in a holding pattern, and so we want to work 
with you, and so how quickly can we get this done?
    Secretary Mattis. Sir, the budget is growing, so a holding 
pattern I do not agree with. It is not sufficient to address 
all the shortfalls that grew over the years. I will be the 
first to admit that, and if the Congress sees fit to give us 
enough money to do all that then we can probably do it a lot 
faster. But for me to give you an estimate would take a heck of 
a lot of analysis and a firm, stable budget horizon that we 
have not enjoyed in a decade.
    Mr. Wilson. Thank you very much again for all of you being 
here tonight.
    The Chairman. Mr. Gaetz. Make it good.
    Mr. Gaetz. Thank you, Mr. Chairman. I am not sure when the 
Secretary said that he kept others up at night, he quite had 
this in mind.
    Mr. Secretary, please know that the warfighters in my 
district in northwest Florida are as proud of you as I am 
certain you are of them. We have spent now 4 hours in this 
hearing to essentially answer this question: If we gave you 
more money than the administration requested with a stable 
budget horizon, could you use it effectively?
    Secretary Mattis. Yes, Congressman, we could.
    Mr. Gaetz. And would that effective use of money above and 
beyond what the administration has requested make our troops 
safer in combat?
    Secretary Mattis. We would ensure it did.
    Mr. Gaetz. And would the money that we could provide above 
and beyond what the administration has requested do a great 
deal to advance America's interests throughout the world?
    Secretary Mattis. I would presume so, yes.
    Mr. Gaetz. And as we sit here today is it accurate that the 
average airplane in our Air Force is about 27 years old?
    Secretary Mattis. I would have to confirm that, but it 
sounds--it is in the ballpark.
    Mr. Gaetz. At any other time in the Air Force's history has 
the average age of an aircraft been higher?
    Secretary Mattis. I do not believe so, but, again, I would 
have to look at the specific data.
    Mr. Gaetz. And today in the Air Force would we have to say 
that more or less than half of our fighter squadrons are full-
spectrum ready?
    Secretary Mattis. Well, Congressman, again, I prefer not to 
get too specific in open hearing, but I think you are about 
right.
    Mr. Gaetz. And the fact that we have an Air Force where 
perhaps readiness is less than optimal with aircraft that are 
older than at any other time in the Air Force's history, could 
you take just a moment and reflect on the impact that has on 
our ability to project power and the safety of those that we 
send into combat?
    Secretary Mattis. Well, Congressman, I think you have heard 
from the Chairman tonight. We have pilots who are not flying 
enough to stay current in their aircraft or have their 
confidence in the aircraft. We have readiness problems across 
the force and these for anyone I think who has been on this 
committee for more than a year probably this is not a surprise.
    It was a bit of a shock for me coming back to the 
Department. But what you are outlining appears to be a pretty 
good definition of the problem.
    Mr. Gaetz. Earlier in response to a question you indicated 
that you thought Qatar was moving in the right direction. I 
appreciated that characterization because it is quite binary. 
In a world that is always moving, things are always going in 
the right direction or in the wrong direction. What 
characterization would you apply to Turkey, are they going in 
the right direction or the wrong direction?
    Secretary Mattis. Well, in what regard, sir?
    Mr. Gaetz. In the same regards in which you answered the 
question as it related to Qatar.
    Secretary Mattis. Qatar was in regard to whether or not 
they were moving away from funding, and much of it was private 
funding, not governmental, but funding of any kind of violent 
extremist, and in that regard they are moving in the right 
direction. I am not aware of Turkey funding violent extremists.
    Mr. Gaetz. Then in the broadest sense, Mr. Secretary, of 
Turkey's interaction with the world, with our allies, taking 
into account our utilization of Turkish airspace, military 
assets, also taking into consideration, you know, the 
challenges that we have in the Aegean with the Greeks and the 
Turks, is Turkey moving in the right direction or the wrong 
direction?
    Secretary Mattis. Turkey is a NATO ally, as you know. It 
has got internal political issues that they are dealing with. 
They provide an air base that has been invaluable in the fight 
against ISIS.
    It is a mixed bag in that regard, but I think right now we 
are doing the best we can to work with Turkey in areas where we 
have common interests in order to take advantage of the 
situation that they provide being right on the border of being 
a frontline state against terrorists.
    Mr. Gaetz. Thank you so much, Secretary Mattis.
    I yield back, Mr. Chairman.
    The Chairman. Thank you, both, for responding to all the 
questions that this committee put to you.
    I think you can tell, there is bipartisan interest in going 
above 603. There is also bipartisan interest in working with 
you to reform the Department to be more agile and more 
efficient, which is also a part of the equation.
    So needless to say, we have got lots of work together yet 
to come.
    Without objection, members have 3 legislative days in which 
to submit extraneous material for inclusion into the record 
consistent with the committee policy limits.
    And with that, the hearing stands adjourned.
    [Whereupon, at 11:04 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             June 12, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 12, 2017

=======================================================================

      

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 12, 2017

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 12, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Secretary Mattis. The cost of climate preparedness and resilience 
is spread across much the Department's portfolio. Areas affected 
include operational planning, infrastructure, training, weapon systems 
operations and maintenance, and personnel health. At the same time, 
climate effects are localized and require evaluation on a case-by-case 
basis. The Department approaches climate effects as a risk factor to 
our mission. There is no single bill to pay for climate preparedness 
and resilience. The costs associated with enhancing climate 
preparedness and resilience address long-term mission risks and must be 
factored into the Department's overall cost of doing business. Climate 
risks have and will continue to be a factor prevalent in our 
operational, programmatic, and planning processes.   [See page 17.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER
    Secretary Mattis. The Military Service Academies continue to make 
clear and demonstrable progress in supporting those who report sexual 
assault and harassment. However, this year's survey results underscore 
the unique challenges the Academies face in sustaining long-term 
decreases in the occurrence of sexual assault. Department research 
indicates that retaliatory behavior associated with crime reporting 
occurs with less frequency at the Service Academies than in the Active 
Duty force, but remains an important concern. All three Academies took 
steps aimed at eliminating retaliatory behavior, improved resources for 
victims perceiving such behavior, and provided tools for faculty, 
staff, and peers to better prevent and respond to it. The Department's 
Retaliation Prevention and Response Strategy (RPRS) details actions to 
address retaliatory behavior against victims who report a sexual 
assault, complainants of sexual harassment, witnesses, bystanders who 
intervene, and first responders, such as SARCs and SAPR VAs. Work to 
implement the strategy across the Military Departments began in 
February 2016 and remains ongoing. The Academies are leveraging the 
RPRS to drive changes in retaliation. However, in response to the 
issues and statistics addressed in the report, I met with the 
Superintendents in March to discuss ways to decrease prevalence of 
sexual assault, sexual harassment, retaliation, and increase reporting. 
As a result, the Secretaries of the Military Departments have been 
directed to address several key areas of concern at the Academies, to 
include reinvigorating prevention efforts and improving sexual assault 
and harassment reporting by reducing barriers to reporting within the 
Academies. Their plans to address these issues are due not later than 
October 30, 2017.   [See page 34.]
    Secretary Mattis. On 4 March 2017, Mr. Thomas Brennan, not Mr. 
LaPorta, broke the Marines United story. Mr. LaPorta was debarred prior 
to the release of the Marines United story for conduct that occurred on 
5 February 2017. The debarment decision was formalized on 10 February 
2017. Mr. LaPorta was debarred for failing to comply with regulations 
addressing media conduct aboard Camp Lejeune, North Carolina and at 
naval correctional facilities generally. [Base Order P5720.7G; 
Secretary of the Navy Instruction 1640.9C] On 5 February 2017, Mr. 
LaPorta, without coordinating with Camp Lejeune public affairs 
personnel, traveled to the on-base residence of an alleged child sexual 
assault victim to obtain information from the child's parents for a 
story he was working on. The alleged victim's family did not invite Mr. 
LaPorta onto the installation or to their quarters, and were upset by 
his unannounced appearance. Prior coordination with the installation's 
public affairs office is required before media representatives may 
enter the installation to gather information. On the same day, Mr. 
LaPorta visited a pretrial detainee at the Camp Lejeune Brig, but 
failed to identify himself as a member of the media. The detainee is 
pending trial on several charges, including the alleged sexual assault 
of a child. Personal interviews between prisoners and media 
representatives are not permitted without prior authorization.   [See 
page 34.]
    Secretary Mattis. No.   [See page 35.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BYRNE
    Secretary Mattis. Under the Fiscal Year 2018 President's Budget 
out-year planning profile, the Navy's fleet will grow from 276 ships 
today to 308 ships by January 2025. With additional topline over a 
number years, the Navy estimates the fleet could grow to 315 ships by 
January 2025. This modest difference highlights the long build times 
and high costs of shipbuilding. Even with significant additional 
topline for multiple years, the Navy's forecast is that we could not 
reach 350 ships until Fiscal Year 2041.   [See page 51.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. MOULTON
    Secretary Mattis. There are 243 political positions in the 
Pentagon. All but 93 positions have been hired or are in the process of 
being hired.   [See page 43.]
    Secretary Mattis. Rather than offer five specific programs that 
place an undue burden on the Department, I submit that mandates that 
adversely affect the Department's priorities fall into two categories: 
congressional adds and restrictions. The programs and projects included 
in the Fiscal Year 2018 budget request represent my highest, balanced 
priorities. Congressional adds are usually aligned with the Services' 
list of unfunded requirements, though valid and executable, should not 
replace my highest priorities. The Fiscal Year 2018 request represents 
the best approach to rebuild readiness while repairing damage from five 
years of unstable budgets and budget caps in preparation for future 
investments. Likewise, congressional restrictions on the Department's 
reform initiatives limit investment opportunities. Authorization for a 
new round of Base Realignment and Closure in 2021 would reduce excess 
infrastructure and save at least $2 billion per year. Additionally, the 
enactment of proposed TRICARE reforms would yield an additional $5.7 
billion over five years. These savings could be invested in more 
planes, helicopters, and ships to improve our warfighting readiness, 
increasing both capacity and lethality.   [See page 44.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CARBAJAL
    Secretary Mattis. In my view, the changing climate is a driver of 
instability that requires a broader, whole-of-government response. At a 
practical level, the Department of Defense incorporates consideration 
of the effects of a changing climate into our infrastructure planning 
cycle. As we develop new projects, climate effects is one of the risks 
that is factored into planning and programming analysis. Furthermore, 
the Department developed scenarios for sea level rise and extreme water 
levels on our installations and issued specific policy requiring the 
consideration of risk associated with construction in flood plains. Our 
methodology to managing the changing climate is one component of our 
overall strategic commitment to the security and prosperity of the 
Asia-Pacific, and the Department will continue to work to secure a 
peaceful, prosperous, and free region.   [See page 52.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY DR. ABRAHAM
    Secretary Mattis. To clarify, the hospitals you mentioned are to be 
transitioned to outpatient clinics meaning that substantial DOD-
provided medical capability will remain at each location. The 
outpatient clinics will continue to address the vast majority of the 
care given at these facilities. These hospitals have extremely low 
volumes of inpatient care, have limited capabilities with emergency or 
complex inpatient care being routinely transferred to larger and more 
capable local hospitals. We would be asking these same local hospitals 
to take on a marginal inpatient workload comprised of less complex 
patients. As we move forward with the transitions, we are committed to 
ensuring that patient access and standards of care will not be 
compromised and are working with the local facilities to address 
access, language, and bedside nursing needs. Senior members of my 
medical staff, with Navy participation, have visited these facilities 
and spoken with military providers, visited the local hospitals and 
beneficiaries and have not identified any insurmountable barriers to 
transitioning these hospitals. The Army's successful transition of its 
inpatient facility at Vicenza, Italy to outpatient-only status provides 
lessons learned for similar changes at these facilities.
    I think it's important to mention that, as these facilities 
transition, military surgical staff can be to be relocated to hospitals 
with greater inpatient volume, diversity, and acuity that are better 
able to sustain the lifesaving clinical skills that are key to 
supporting our deployed warfighters. To answer your question directly, 
I believe that we can transition these hospitals to outpatient clinics 
without compromising the care that will be given to our service members 
and their families at these locations. Further that these transitions 
support the Department's focus on ensuring that our medical force 
maintains the clinical readiness that has been so amply demonstrated 
over the past 15 years of conflict.   [See page 61.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 12, 2017

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. 1. There has been widespread concern about the 
President's proposed cuts to the international affairs budget, as 
exhibited by the following:
    a. Op-ed from former Secretary of State Colin Powell, https://
www.nytimes.com/2017/05/24/opinion/colin-powell-trump-budget-state-
department.html
    b. Joint Testimony to SASC on June 13, 2017 by General Philip 
Breedlove, USAF (Ret.); General George Casey, USA (Ret.); General 
Carter Ham, USA (Ret.); General James Jones, USMC (Ret.); General; 
George Joulwan, USA (Ret.); General Stanley McChrystal, USA (Ret.); 
Admiral William McRaven, USNA (Ret.); Admiral Michael Mullen, USN 
(Ret.); Admiral Eric Olson, USN (Ret.); General John Paxton, USMC 
(Ret.); General David Petraeus, USA (Ret.); General Joe Ralston, USAF 
(Ret.); Admiral Gary Roughead, USN (Ret.); General Hugh Shelton USA, 
(Ret.); Admiral James Stavridis, USN (Ret.); and Admiral Sandy 
Winnefeld, USN (Ret.), https://s3.amazonaws.com/one-org/us/wp-content/
uploads/2017/06/13115833/2017-06-13-joint-testimony-to-SASC.pdf
    c. Op-ed from General James Jones, USMC (Ret.) and Admiral Michael 
Mullen, USN (Ret.), http://www.politico.com/agenda/story/2017/06/12/
budget-foreign-aid-cuts-national-security-000456
    d. Letter from 120 retired military officers, http://www.usglc.org/
downloads/2017/
02/FY18_International_Affairs_Budget_House_Senate.pdf
    Secretary Mattis [No answer was available at the time of printing.]
    Mr. Smith. 2. There has been widespread support and a claim that 
``Strategic investments in diplomacy and development make America safer 
and more prosperous.''--as exhibited by the following: a. Letter from 
225 business leaders, http://www.usglc.org/downloads/2017/05/Business-
Letter-Tillerson-May-22.pdf
    3. There has been widespread support from the faith-based community 
to support and protect the international affairs budget, claiming that 
diplomatic and development tools lead to ``peaceful, productive 
societies that do not turn to violence or terrorism'', as exhibited by 
the following: a. Letter from Faith Leaders, http://www.
usglc.org/downloads/2017/04/Faith-Letter.pdf
    Secretary Mattis. [No answer was available at the time of 
printing.]
    Mr. Smith. In light of paragraphs 1-3 above, please answer 
questions 4-8.
    4. Would you agree that 32% is a severe cut to the State Department 
and USAID or any department or agency? Would you agree that cuts to the 
State Department and USAID will impact national security and American 
security? How? How would the President's proposed budget for the State 
Department and USAID impact American power projection and global 
leadership?
    Secretary Mattis. I defer to Secretary Tillerson on how he intends 
to manage the budget cuts across the State Department and US AID to 
ensure that the United States is able to maintain its leadership role 
in the international order. He will need to make some tough decisions 
about how to manage risk. The foundation of American power rests on our 
unmatched ability to project influence, both militarily and 
diplomatically. Adequate diplomatic resources are as critical as 
military resources to defeating ISIS as well as to preventing state 
actors, like Russia or China, from challenging established 
international norms.
    Mr. Smith. 5. From a defense perspective, how would the President's 
proposed budget for the State Department and USAID make America safer 
and advance U.S. national security interests?
    Secretary Mattis. Again, I defer to Secretary Tillerson on how he 
intends to manage the budget cuts across the State Department and USAID 
to ensure that the United States is able to maintain its leadership 
role in the international order. With regard to funds related to 
building the capacity of partner security forces, Secretary Tillerson 
and I have directed our staffs to deepen collaboration to ensure that 
our security sector assistance funds address the highest priorities to 
minimize risks to interoperability and our partners' ability to address 
shared threats.
    Mr. Smith. 6. From a defense perspective, how would the President's 
proposed budget for the State Department and USAID impact stability in 
the world and/or potential conflict?
    Secretary Mattis. The U.S. Government is most effective when it 
leverages the expertise resident across its departments and agencies to 
plan and employ all its tools of national power in a coherent, 
synchronized manner. Just as I have to manage risk across the Defense 
Department's sequestration budget, Secretary Tillerson needs to manage 
the proposed budget cuts to the State Department and USAID in a way 
that will minimize risk to the stability and security of the 
international order.
    Mr. Smith. 7. What is the Department's planning and what resources 
are required to address those potential impacts to stability and 
conflict?
    Secretary Mattis. As I've consistently stated in testimony and 
public statements, my first priority is to restore warfighter 
readiness, filling in the holes from trade-offs made during 16 years of 
war, nine years of continuing resolutions, and Budget Control Act caps. 
Restoring readiness enables the U.S. Armed Forces to defend the United 
States and perform its roles with regard to promoting stability and 
preventing conflict. Congress has a critical role to play in supporting 
the Department's planning and resources. Passing a Fiscal Year 2018 
budget in a timely manner, avoiding yet another continuing resolution, 
eliminating the threat of future sequestration cuts, and providing a 
stable budgetary planning horizon will better enable the Department to 
promote stability and deter conflict.
    Mr. Smith. 8. Would you agree that the adequate resourcing of 
diplomacy, development, and defense is critical to advancing U.S. 
national security interests? If funding is cut for diplomatic and 
development avenues, how would this complicate the Department's ability 
to operate with coalitions or work with our allies, partners, and other 
actors? How could this complicate negotiations with host nations where 
our service members are operating missions from or are stationed in? 
How could this complicate the Department's ability to work by, with, 
and through partners and other stakeholders?
    Secretary Mattis. I agree that adequate resourcing of diplomacy and 
development is just as critical to advancing U.S. national security as 
adequate resourcing of defense. However, I am encouraged by the 
willingness of our allies and partners to share the burden of the 
campaign to defeat the Islamic State in Iraq and Syria and other 
terrorist organizations that represent a clear threat to international 
order. I believe a willingness to address shared challenges will 
continue to motivate allies and partners to collaborate with the United 
States. In some cases, the United States must provide support to 
partners to ensure that they have the capability and capacity to 
operate alongside, or in lieu of, U.S. forces. In these cases, the 
State and Defense Departments are collaborating closely to ensure that 
the security sector assistance funds that each Department oversees are 
directed to the highest priorities.
    Mr. Smith. 1. There has been widespread concern about the 
President's proposed cuts to the international affairs budget, as 
exhibited by the following:
    a. Op-ed from former Secretary of State Colin Powell, https://
www.nytimes.com/2017/05/24/opinion/colin-powell-trump-budget-state-
department.html
    b. Joint Testimony to SASC on June 13, 2017 by General Philip 
Breedlove, USAF (Ret.); General George Casey, USA (Ret.); General 
Carter Ham, USA (Ret.); General James Jones, USMC (Ret.); General; 
George Joulwan, USA (Ret.); General Stanley McChrystal, USA (Ret.); 
Admiral William McRaven, USNA (Ret.); Admiral Michael Mullen, USN 
(Ret.); Admiral Eric Olson, USN (Ret.); General John Paxton, USMC 
(Ret.); General David Petraeus, USA (Ret.); General Joe Ralston, USAF 
(Ret.); Admiral Gary Roughead, USN (Ret.); General Hugh Shelton USA, 
(Ret.); Admiral James Stavridis, USN (Ret.); and Admiral Sandy 
Winnefeld, USN (Ret.), https://s3.amazonaws.com/one-org/us/wp-content/
uploads/2017/06/13115833/2017-06-13-joint-testimony-to-SASC.pdf
    c. Op-ed from General James Jones, USMC (Ret.) and Admiral Michael 
Mullen, USN (Ret.), http://www.politico.com/agenda/story/2017/06/12/
budget-foreign-aid-cuts-national-security-000456
    d. Letter from 120 retired military officers, http://www.usglc.org/
downloads/2017/
02/FY18_International_Affairs_Budget_House_Senate.pdf
    General Dunford. [No answer was available at the time of printing.]
    Mr. Smith. 2. There has been widespread support and a claim that 
``Strategic investments in diplomacy and development make America safer 
and more prosperous.''--as exhibited by the following: a. Letter from 
225 business leaders, http://www.usglc.org/downloads/2017/05/Business-
Letter-Tillerson-May-22.pdf
    3. There has been widespread support from the faith-based community 
to support and protect the international affairs budget, claiming that 
diplomatic and development tools lead to ``peaceful, productive 
societies that do not turn to violence or terrorism'', as exhibited by 
the following: a. Letter from Faith Leaders, http://www.
usglc.org/downloads/2017/04/Faith-Letter.pdf
    General Dunford. [No answer was available at the time of printing.]
    Mr. Smith. In light of paragraphs 1-3 above, please answer 
questions 4-8.
    4. Would you agree that 32% is a severe cut to the State Department 
and USAID or any department or agency? Would you agree that cuts to the 
State Department and USAID will impact national security and American 
security? How? How would the President's proposed budget for the State 
Department and USAID impact American power projection and global 
leadership?
    General Dunford. Both Secretary Mattis and I work closely with 
Secretary Tillerson. DOD and State are one team. The State Department 
has yet to release the details of the proposed budget cuts, so I cannot 
comment on the impact to security. However, I do not see one security 
issue or threat we face that can be solved by military power alone. Our 
most pressing national security issues can only be addressed within a 
foreign policy framework. We will work collaboratively with the 
Department of State and USAID to ensure we fully leverage our 
collective capabilities and capacities to protect the Homeland and 
advance our foreign policy interests.
    Mr. Smith. 5. From a defense perspective, how would the President's 
proposed budget for the State Department and USAID make America safer 
and advance U.S. national security interests?
    General Dunford. The State Department has yet to release the 
details of the proposed budget cuts, so I cannot speculate on the 
impact to our national security interests. I cannot name a single 
security issue that can be solved by military power alone. We will work 
collaboratively with the Department of State and USAID to ensure we 
fully leverage our collective capabilities and capacities to protect 
the Homeland and advance our foreign policy interests.
    Mr. Smith. 6. From a defense perspective, how would the President's 
proposed budget for the State Department and USAID impact stability in 
the world and/or potential conflict?
    General Dunford. The State Department has not revealed the details 
of the proposed budget cuts, so I cannot speculate on their impact. A 
cornerstone of our ability to project power, and support stability, is 
our network of allies and partners. Every relationship we have with 
another country has diplomatic, economic, and military elements. In 
order to be successful, any military relationship, or action, must be 
crafted within a foreign policy framework maintaining our national 
security interests and end states. We will work collaboratively with 
the Department of State and USAID to ensure we fully leverage our 
collective capabilities and capacities to protect the Homeland and 
advance our foreign policy interests.
    Mr. Smith. 7. What is the Department's planning and what resources 
are required to address those potential impacts to stability and 
conflict?
    General Dunford. We will not be able to identify or mitigate 
potential impacts until we fully understand the details of the State 
Department's budget going forward.
    Mr. Smith. 8. Would you agree that the adequate resourcing of 
diplomacy, development, and defense is critical to advancing U.S. 
national security interests? If funding is cut for diplomatic and 
development avenues, how would this complicate the Department's ability 
to operate with coalitions or work with our allies, partners, and other 
actors? How could this complicate negotiations with host nations where 
our service members are operating missions from or are stationed in? 
How could this complicate the Department's ability to work by, with, 
and through partners and other stakeholders?
    General Dunford. I would agree that diplomacy, development and 
defense are all critical to advancing U.S. security interests. There is 
no security threat today that can be solved by military power alone. At 
the core of our alliances and partnerships are intertwined military, 
economic, political, and intelligence sharing relationships that allow 
us to collectively take action against threats. We have not seen the 
details on the State Department's proposed budget cuts, so I cannot 
comment on specific impacts. Our relationship with allies and partners 
is critical. We will collaborate with the State Department to ensure we 
can meet our alliance commitments and maintain our network of allies 
and partners.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Last year's NDAA established U.S. Cyber Command 
(CYBERCOM) as its own Unified Combatant Command and formalized the 
relationship with the Principal Cyber Advisor. The steps taken by 
Congress recognized the importance of governing the development of DOD 
cyberspace policy and strategy. Leveraging the successes and lessons 
learned, the Principal Cyber Advisor will maximize the result of each 
strategic objective and ultimately the success of each strategic goal 
of the Cyber Mission Force. What steps is the Department taking to 
establish

CYBERCOM as a Unified Combatant Command and to enable the Principal 
Cyber Advisor to serve as the service-like secretary? How will this 
elevation serve your broader strategic goals for the Department?
    Secretary Mattis. The Department is preparing for the elevation of 
U.S. Cyber Command (USCYBERCOM) to a Unified Combatant Command, 
consistent with Section 167b of Title 10, U.S. Code. I have provided 
recommendations to the President on how and when to proceed with 
elevation and remain in discussions with the White House about this 
matter. Elevation would enhance the Department's position in the cyber 
domain by streamlining and consolidating responsibility for cyberspace 
operations in a single operational commander. Elevation would empower 
the Commander to interact as a peer with other Combatant Commanders, 
increase coordination of cyber forces and their training, and 
demonstrate commitment to cyberspace as a warfighting domain; thereby 
assuring partners and enhancing deterrence messaging. The additional 
oversight responsibilities of the Principal Cyber Advisor under section 
167b are closely aligned with the plan that will be developed for a 
more optimized cyber organizational structure, as prescribed in Section 
902 of the National Defense Authorization Act for Fiscal Year 2017. The 
organizational efforts will be sequenced to allow the Department to 
maintain focus on the lethality and mission readiness of an elevated 
USCYBERCOM.
    Mr. Langevin. I have advocated for the transition of mature, game-
changing technologies to our warfighters so that we never send them 
into a fair fight. Last year's NDAA required the installation of a 
Designated Official for DE technologies, and it is critical that this 
position focus not just on research and engineering, but especially on 
facilitating technologies' transitions to the joint battlefield. Can 
you provide an update on where the Department is in installing this 
official?
    Secretary Mattis. I am fully committed to furthering the 
development and transition of directed energy weapons that complement 
kinetic weapon systems to fulfill near- and long-term warfighter needs. 
We are creating a detailed strategic plan to develop, mature, and 
transition directed energy technologies to acquisition programs of 
record as directed in Section 219 of the Fiscal Year (FY) 2017 National 
Defense Authorization Act (NDAA). This roadmap will be the cornerstone 
for future studies focused on other directed energy technologies, such 
as high-energy lasers and high-power microwave, which could fulfill 
warfighter needs. Once the reorganization of the Under Secretary of 
Defense (Acquisition, Technology & Logistics), creating the Under 
Secretary of Defense (Research & Engineering) and Under Secretary of 
Defense (Acquisition & Sustainment), is complete, as directed by 
section 901 of the FY 2017 NDAA, the Department will designate a senior 
defense official for directed energy technologies.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. On May 8, 2017, Deputy Secretary of Defense Work sent 
a memorandum to the Secretaries of the Military Departments and Chiefs 
of the Military Services directing an assessment of their readiness to 
access transgender applicants into the military services beginning on 
July 1, 2017. The memorandum stated that ``[w]e do not intend to 
reconsider prior decisions unless they cause readiness problems that 
could lessen our ability to fight, survive and win on the 
battlefield.'' Subsequently, the Army and Marine Corps requested a 
delay of the July 1 deadline for implementation of service plans to 
access transgender applicants. Please describe the process OSD intends 
to follow in assessing the Army and Marine Corps's requests and the 
standard that will be used for any reevaluation of the transgender 
policy or implementation timelines based on impacts to readiness.
    Secretary Mattis. There is no modification to the current policy 
until we receive the President's direction to the Department. In the 
meantime, we will continue to treat all our personnel with respect. As 
importantly, given the current fight and challenges we face, we will 
all remain focused on accomplishing our assigned missions.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. 1. As the battle to liberate Raqqa gets underway, I'd 
like you to describe your long-term vision for Syria and how you expect 
the U.S. military mission in Syria to change or evolve after the 
Islamic State of Iraq and Syria (ISIS) has been pushed from major city 
centers.
    a. What is the desired end-state? b. In addition to our obvious 
counter-terrorism objectives in Syria, what other U.S. national 
security objectives do we have in Syria? c. How do you prioritize those 
and would you advocate for expending U.S. military resources to achieve 
or sustain those objectives?
    2. The President's budget assumes troop levels will stay constant 
in Syria.
    a. Is that your expectation? b. If not, where would that extra 
funding come from? c. Do you plan on requesting additional funding 
through a supplemental? d. Or do you intend to take from other areas in 
an already insufficient budget request?
    3. Do you anticipate a confrontation with regime-aligned forces 
will in southern or eastern Syria?
    4. How do we prevent unintentional escalation with the regime or 
the state-actors supporting the regime?
    Secretary Mattis. We remain focused on defeating the Islamic State 
in Iraq and Syria's (ISIS) physical caliphate and plan to surround the 
enemy to ensure foreign fighters are not able to escape and return 
home. The liberation of Raqqa is a necessary step in defeating ISIS, 
but it is not the last step. ISIS remains entrenched along the 
Euphrates River Valley, and operations to defeat ISIS and prevent its 
resurgence will take many more months. The U.S. desired end state is to 
defeat ISIS's physical caliphate in Iraq and Syria; destroy ISIS' 
ability to conduct external operations; protect partner and allied 
nation borders and preserve the coalition; and create the conditions 
for a secure environment that prevents the rise of ISIS ``2.0'' and 
other violent extremist organizations. The United States seeks a 
unified Syria and a political solution that addresses the root causes 
of terrorism and instability and where Syrians decide their own 
government. The Department of Defense's (DoD) number one priority is to 
protect the homeland by defeating ISIS in Iraq and Syria and destroying 
its ability to plan and execute external attacks against the United 
States and its partners and allies.
    We are continuously assessing the force management levels in Syria 
to ensure we are able to balance the Defeat-ISIS mission effectively 
with other regional and global priorities. As the environment on the 
ground changes, we will adjust manning to meet operational needs and 
will keep Congress informed. In fiscal year (FY) 2017, DOD requested 
(and Congress passed) funding for the Defeat ISIS mission in the 
Overseas Contingency Operations Transfer Fund (OCOTF) to meet 
operational requirements in support of emerging decisions on 
contingency operations without disrupting approved program execution or 
force readiness. Congress provided DOD the flexibility to reprioritize 
operations, identify assets, and employ forces quickly to meet the 
challenges of trans-regional counterterrorism activities, and provided 
DOD the ability to apportion funding to the Military Departments 
directly impacted to enable them to meet urgent operational needs. The 
funding provided in the DOD Appropriations Act, 2017 for the Counter-
ISIS OCOTF allows for flexibility and responsiveness to address 
emergent requirements related to the Defeat-ISIS mission. In addition 
to the $1.6 billion available in the Counter-ISIS OCOTF, DOD will 
continue to monitor emergent requirements in order to reprioritize 
resources or request additional funding, as necessary.
    The United States and the Coalition do not seek to fight the Syrian 
Government, the Russians, or pro-regime forces and take careful 
measures to avoid engagements with those forces. It is in neither the 
Coalition's nor Syria's best interest to provoke a confrontation. The 
Department will remain focused on our efforts to defeat ISIS, and 
encourage the Syrian Government and Regime-aligned forces to do the 
same. The U.S. Government has established effective multi-level de-
confliction channels with Russia to prevent incidents between Coalition 
forces and Syrian Government and pro-Regime forces. There are daily 
communications between our forces in the field and Russia to mitigate 
the risk of unintended escalation or miscommunication between air and 
ground forces.
    Mr. Scott. Given the threat the transnational criminal 
organizations and other networks pose, what additional budgetary 
resources or authorizations does the Department need in order to combat 
those organizations within the Southern Command region?
    Secretary Mattis. As this Committee knows, the Department has not 
been able to source U.S. Southern Command's (USSOUTHCOM) intelligence, 
surveillance, and reconnaissance (ISR) and other force requirements in 
full due to competing global priorities. To support U.S. and partner 
nation law enforcement entities, intelligence capabilities in all forms 
of collection and analysis are critical to identifying and disrupting 
the leadership, financial, and communication infrastructure of both 
criminal and extremist networks. Although USSOUTHCOM receives minimal 
U.S. Navy presence to support its statutory detection and monitoring 
(D&M) mission, the pursuit and use of non-traditional commercial 
(leased) alternatives does allow USSOUTHCOM to address some of its D&M 
resourcing shortfalls. Although Department of Defense-enabled law 
enforcement actions mitigate threats to the homeland, Department of 
Defense-enabled diplomatic and developmental actions (e.g., Defense 
Institution Building, humanitarian and civic assistance, information 
operations) provide a more long-term sustainable solution and should be 
resourced in tandem with more direct efforts.
    Mr. Scott. Given the Presidential Budget Request for Fiscal Year 
2018 and the Service's own unfunded priorities list, both have 
displayed that we cannot fund our military to execute what we ask of it 
today under the current Budget Control Act. We have been discussing 
what happens in the near term with the 2018 budget, but my question is; 
what will the U.S. Military look like in four years if we stay under 
the caps?
    The Air Force has made it clear that it is the smallest, oldest and 
least ready it's been in its history. Yet in its unfunded requirements 
list, the Air Force shows the need to accelerate the MC-130J 
recapitalization by procuring 12 additional aircraft ($1.2 billion) and 
the need to accelerate the HC-130J recapitalization by procuring one 
additional aircraft ($100 million).
    How does this budget reverse the years of underinvestment that has 
left us with the smallest, oldest and least ready force in history?
    General Dunford. The PB18 base budget request is $575B, $52B above 
Budget Control Act (BCA) levels. This plus-up is intended to reverse 
the negative funding trends created by BCA, which has underfunded the 
Department since 2012. The PB18 base budget continues the progress 
started in FY17 toward restoring and improving warfighting readiness, 
and achieving program balance by addressing pressing shortfalls. While 
PB18 is not intended to grow the force, it will set the conditions for 
growth in FY19 and beyond. This budget includes sufficient funding to 
support our commitments around the world, however, our competitive 
advantage is eroding and without adequate and stable funding, we will 
be challenged to maintain these commitments.
    Mr. Scott. 1. As the battle to liberate Raqqa gets underway, I'd 
like you to describe your long-term vision for Syria and how you expect 
the U.S. military mission in Syria to change or evolve after the 
Islamic State of Iraq and Syria (ISIS) has been pushed from major city 
centers.
    a. What is the desired end-state? b. In addition to our obvious 
counter-terrorism objectives in Syria, what other U.S. national 
security objectives do we have in Syria? c. How do you prioritize those 
and would you advocate for expending U.S. military resources to achieve 
or sustain those objectives?
    2. The President's budget assumes troop levels will stay constant 
in Syria.
    a. Is that your expectation? b. If not, where would that extra 
funding come from? c. Do you plan on requesting additional funding 
through a supplemental? d. Or do you intend to take from other areas in 
an already insufficient budget request?
    3. Do you anticipate a confrontation with regime-aligned forces 
will in southern or eastern Syria?
    4. How do we prevent unintentional escalation with the regime or 
the state-actors supporting the regime?
    General Dunford. We remain focused on destroying ISIS' physical 
caliphate, with an emphasis on surrounding the enemy to ensure foreign 
fighters are not able to escape and return home. The liberation of 
Raqqa is a necessary step in defeating ISIS, but it is not the last 
step. ISIS remains entrenched along the Euphrates River Valley, and 
operations to defeat them and prevent their resurgence will take many 
more months. The desired end-state is to destroy ISIS' physical 
caliphate in Iraq and Syria; Defeat ISIS' ability to conduct external 
operations; protect partner and allied nation borders and preserve the 
coalition; and create the conditions for a secure environment that 
prevents the rise of ISIS 2.0 and other violent extremist 
organizations. In addition to counter-terrorism objectives in Syria, 
other U.S. national security objectives are: a political solution in 
Syria that addresses the root causes of terrorism and instability; 
local security forces capable of providing security to Syrian citizens; 
and the return of refugees and internally displaced persons to their 
place of origin. The first and foremost military priority is to protect 
the Homeland by destroying core ISIS in Iraq and Syria and defeating 
its ability to plan and execute external attacks against the United 
States and its partners and allies. To do this we must preserve the 
Coalition and prevent the rise of ``ISIS 2.0'', which is vital to 
ensuring we can achieve our end state.
    2. We are continuously assessing the force management levels in 
Syria to ensure we are able to effectively balance the Defeat ISIS 
mission with other regional and global priorities. As the environment 
changes, we will adjust manning to meet operational needs and keep 
Congress informed. In FY 2017, the Department requested (and the 
Congress enacted) funding for the Defeat ISIS mission in the Overseas 
Contingency Operations Transfer Fund (OCOTF), $1.6 billion, to meet 
operational requirements in support of emerging decisions on 
contingency operations without disrupting the approved program 
execution for force readiness. The Congress provided the flexibility to 
quickly reprioritize operations, identify assets, and employ forces to 
meet the transregional nature of counterterrorism activities, with the 
ability to issue funding to the Military Departments directly impacted 
to meet urgent operational needs.
    3. The United States and the Coalition do not seek to fight the 
Syrian Regime, Russian, or pro-Regime forces and we take great effort 
to avoid confrontation. It is in neither the Coalition's nor Syria's 
best interest to provoke a confrontation. We will remain focused on our 
efforts to Defeat ISIS, and we encourage the Regime and Regime-aligned 
forces to do the same.
    4. We have established effective multi-level deconfliction channels 
with the Russians to prevent incidents between the Coalition and the 
Syrian Regime and pro-Regime forces. There are daily communications 
between our fielded forces and the Russians to mitigate the possibility 
of unintended escalation or miscommunication between air and ground 
forces.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HUNTER
    Mr. Hunter. President Trump signed a Defense Production Act 
Presidential Determination (Number 2017-09) on June 13, 2017 stating 
that ``critical technology item shortfalls affecting adenovirus vaccine 
production capability; high strength, inherently fire and ballistic 
resistant, co-polymer aramid fibers industrial capability; secure 
hybrid composite shipping container industrial capability; and three-
dimensional ultra-high density microelectronics for information 
protection industrial capability are critical to national defense.'' 
The Determination goes on to say that ``Without Presidential action 
under this Act, the United States defense industrial base cannot 
reasonably be expected to adequately provide those capabilities or 
technology items in a timely manner.'' Given the urgency of these 
programs as determined by the President, what is the Department's 
timeline (i.e. funding and initiating the program) to address these 
industrial base shortfalls? Please provide timelines for each of the 
technologies identified as critical in Presidential Determination No. 
2017-09.''
    Secretary Mattis. The Department of Defense is actively working to 
address the four shortfalls within the President's June determination:
    1. We are expecting the adenovirus vaccine production project 
contract to be awarded in the first quarter of fiscal year 2018 (FY18). 
We have allocated $15.42M for this project.
    2. The effort to address the industrial capability of high-
strength, inherently fire- and ballistic-resistant, co-polymer aramid 
fibers is currently in the contracting phase, and execution is planned 
for FY18. We have allocated $35.38M for this project.
    3. The secure hybrid composite shipping container project is also 
in the contracting phase and award(s) are expected in the first quarter 
of FY18. We have allocated $19.08M for this project.
    4. Our effort to address three-dimensional microelectronics for 
information protection has resulted in a contract awarded to Draper 
Labs, effective July 28, 2017. We have committed $13.20M to this 
effort.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. There have been numerous reports of official government 
meetings, including meetings with foreign counterparts, being held at 
properties owned by the President. Because of the President's refusal 
to divest himself of those business interests, there is the prospect of 
the President and his family making a personal profit off of that 
official government business. The American people have a right to know 
whether Department of Defense money--taxpayer money--is ending up in 
the President's personal wallet.
    Mr. Secretary, General Dunford: Have either of you, or any of your 
staff, participated in official government events at a property owned 
by the President? If so, did the Department of Defense expend 
appropriated money to pay for costs associated with that event--
including room and board, meals, or other incidental expenses?
    Secretary Mattis. No.
    Ms. Speier. Last school year, fewer students at the military 
service academies reported sexual assault and harassment, but the 
estimated rates of unwanted sexual conduct increased. Both of these are 
trending in the wrong direction. One reason could be the ostracism of 
sexual assault victims. 47% of those who reported their unwanted sexual 
contact experienced social isolation or maltreatment. We must foster an 
environment at the service academies in which students who have been 
sexually assaulted or harassed feel like they can come forward without 
fear of retaliation.
    Mr. Secretary, General Dunford: Were you aware of these depressing 
statistics? If so, what are you doing about them?
    Secretary Mattis. The Department must focus its attention on 
defeating this crime and learning how to do that begins at places like 
the Military Service Academies. Consequently, I met with the three 
Academy Superintendents and the four Service Chiefs in March to discuss 
ways to better understand the unique environments at the academies. As 
a result of that meeting, I directed the Under Secretary of Defense 
(Personnel and Readiness) and the Sexual Assault Prevention and 
Response Office to work with the Academies this summer to help them 
address issues identified in the report, including improving sexual 
assault prevention efforts, enhancing their climates to reduce sexual 
harassment and other readiness-impacting behaviors like retaliation, 
encouraging healthier alcohol choices, and increasing reporting of 
sexual assault. I have every confidence the Superintendents will make 
the kinds of changes that will result in the progress we're seeking. 
The Academies' plans to address these issues are due to the Department 
not later than October 30, 2017.
    Ms. Speier. On June 7, the non-profit group Protect our Defenders 
issued a report on ``Substantial and Persistent Racial Disparities 
Within the United States Military Justice System.'' POD's findings show 
that, for every year reported and across all four branches, black 
service members were substantially more likely than white service 
members to face military justice or disciplinary action. These 
disparities have not improved, and in some cases have increased, in 
recent years.
    Mr. Secretary, General Dunford: Have you been made aware of these 
findings? Do you agree that this is a concern--and, if so, what will 
the Department do in response?
    Secretary Mattis. The Department of Defense is an inclusive 
organization that continually strives to ensure equal opportunity and 
justice for all its Service members, regardless of race or ethnicity. 
The Department first became aware of the subject report through a 
published story by USA Today on June 7, 2017. The subject report and 
subsequent news story were written in part based upon information 
received from the Military Services through Freedom of Information 
requests.
    The Department's initial review of the report findings reveals that 
the data provided by the Military Services to Protect Our Defenders 
(POD) is not consistent, primarily because of the disparate ways in 
which demographic information is tracked by the Military Services. As a 
result, the conclusions reached by POD are somewhat limited.
    Specifically, the conclusions drawn by POD, and subsequently 
reported on by USA Today, are based on the assumption that all Military 
Services define and track demographic data similarly; however, this is 
not the case. Furthermore, the information provided by the Military 
Services, specific to military justice and disciplinary action, is not 
standardized; thus, each of the Military Services track and report 
dissimilar information.
    Nevertheless, the Department agrees that further study of this 
important topic is needed and continues to review and refine how to 
analyze the data. The Department is looking forward to engaging the 
Military Services in developing standardized tracking and reporting 
systems, specific to the types of information collected and published 
regarding demographic data, military justice involvement, and final 
adjudication outcomes.
    Ms. Speier. On June 6, the Acting Director of Operational Testing 
and Evaluation upgraded the Department's assessment of the Ground-Based 
Midcourse missile defense system, now stating that the system is no 
longer ``limited.'' The Acting Director judged that the system now has 
the capability to intercept intercontinental missiles targeting the 
homeland. This judgment was made shortly following the most recent 
intercept test of the system, which was judged a success. However, that 
test increases the overall test success rate to only 40 percent since 
2010. Further, these tests are tightly scripted and controlled, with a 
single target, known flight parameters, and with no countermeasures or 
decoys. Finally, there are significant questions surrounding the 
reliability of the interceptors already deployed. I'm concerned that 
the capabilities of the system are being oversold.
    General Dunford, would you sign off on an operation or a 
contingency plan that has a 60 percent probability of failure?
    Mr. Secretary, given all this, how can the Department's assessment 
of the system be upgraded based on the results of a single test?
    Secretary Mattis. The Ground-based Midcourse Defense (GMD) program 
is continuing to improve. A total of 25 Ground-based Interceptors 
(GBIs) are new or have recently been upgraded in the past 3-years. The 
Missile Defense Agency (MDA) successfully intercepted an 
intercontinental ballistic missile (ICBM) target during the Flight Test 
Ground-based Interceptor-15 (FTG-15) flight test on 30 May 2017. This 
was the first live-fire test event against an ICBM-class target 
included countermeasures for GMD and the Ballistic Missile Defense 
System (BMDS). The test was representative of real world timelines and 
geometries. FTG-15 demonstrated a new GBI configuration with a three-
stage Configuration 2 (C2) booster vehicle and a CE-II Block 1 
Exoatmospheric Kill Vehicle (EKV) that contains new alternate divert 
thrusters. The C2 design increases reliability through design and 
producibility improvements. Sustainment of fielded hardware was 
enhanced by addressing obsolescence in booster components. The 
successful intercept of an ICBM-class target supports the decision to 
emplace nine additional GBIs. These new interceptors provide improved 
reliability, discrimination performance, and safety when compared to 
previously fielded interceptors. MDA emplaced the first of nine new 
GBIs in the FTG-15 configuration on 28 June 2017 and will complete the 
deployment of 44 GBIs by the end of 2017.
    I have confidence in the Operational Test and Evaluation's Homeland 
Defense BMDS Director's assessment that the GMD has demonstrated 
capability to defend the U.S. Homeland from a small number of 
intermediate-range or intercontinental ballistic missile threats with 
simple countermeasures when the Homeland Defense BMDS employs its full 
sensors/command and control architecture.
    Ms. Speier. There are reports that the Army and Marine Corps have 
requested that you delay the deadline of July 1, set by Secretary 
Carter, for the Services to implement policies for recruiting enlisted 
troops and commissioning officers who are transgender. Such a delay 
would be unwise and detrimental to readiness, as documented in studies 
by DOD, RAND, and others. The military has been benefiting from open 
transgender service by current service members since October 1, 2016, 
and has had a full year to prepare their accession policies.
    Mr. Secretary, can you affirm that you will hold the Services to 
the deadline imposed by your predecessor?
    Secretary Mattis. There is no modification to the current policy 
until the Department receives the President's direction. In the 
meantime, we will continue to treat all our personnel with respect. As 
importantly, given the current fight and challenges the Department 
faces, we will all remain focused on accomplishing our assigned 
missions.
    Ms. Speier. The Military Accessions Vital to the National Interest 
program, or MAVNI, offers a path to citizenship through military 
service for noncitizens and certain qualified members of the Deferred 
Action for Childhood Arrivals (DACA) program. MAVNI, which impacts 
approximately 4,300 future soldiers throughout the United States, has 
had a start-stop history over the past two years, and delays are 
compounded by the lethargic pace of requisite background and 
counterintelligence investigations. These delays are especially 
concerning, as the future soldiers have contractual ``drop dead'' dates 
when their eligibility has been mandated to expire if the MAVNI 
accession program does not continue processing applicants in a timely 
manner. Recruiters and regional commanders do not seem to have 
information regarding what is going on. Applicants have put other 
educational and professional decisions on hold waiting for this program 
to move.
    Mr. Secretary, what is the current status of the MAVNI program? Is 
it DOD's intent that the program will continue?
    Is there an expected timeline when the freeze on 
counterintelligence interviews will be lifted? Will individuals who 
incurred cancellation of their interviews have those interviews 
rescheduled?
    Is DOD considering an Exception To Policy regarding the current 
policy to drop MAVNI future soldier contracts after 730 days, or an ETP 
around the current security protocol requirements (NIAC, SSBI, CI 
interview) before a MAVNI future soldier may depart for basic combat 
training?
    Some program applicants have been waiting for 1-2 years due to 
program delays at DOD. If their contractual eligibility windows 
approach their end-dates due to program delays, are there any 
intentions at DOD to extend the individual eligibility windows for 
those applicants?
    Does DOD have any advice to MAVNI applicants on what to expect or 
how best to proceed at this moment in time and process?
    Secretary Mattis. Q. Mr. Secretary, what is the current status of 
the MAVNI program? A: The MAVNI pilot program is currently suspended. 
Policy was issued on September 30, 2016, that included increased 
vetting requirements for MAVNIs. There have been no new MAVNI 
Accessions since June 2016; however, vetting of all MAVNIs in the 
Delayed Entry Program (DEP) and Delayed Training Program (DTP) 
continues.
    Q. Is it DOD's intent that the program will continue? A. A 
determination on the future of the program has not been made.
    Q. Is there an expected timeline when the freeze on 
counterintelligence interviews will be lifted? A. There is no freeze on 
counterintelligence interviews. The intelligence community has 
prioritized vetting those individuals currently in the force before 
conducting vetting on those in the DEP and DTP. Counterintelligence 
interviews are ongoing.
    Q. Will individuals who incurred cancellation of their interviews 
have those interviews rescheduled? A. DOD continues to conduct 
counterintelligence interviews and individuals will receive a 
notification once their interview has been scheduled.
    Q. Is DOD considering an Exception To Policy regarding the current 
policy to drop MAVNI future soldier contracts after 730 days, or an ETP 
around the current security protocol requirements (NIAC, SSBI, CI 
interview) before a MAVNI future soldier may depart for basic combat 
training? A. By law, individuals may remain in the DEP for 365 days, 
with the Secretary concerned authorized to extend that time by 365 days 
for a total of 730 days. The Department is examining all available 
options to extend MAVNIs in DEP to complete requisite screening 
requirements.
    Q. Some program applicants have been waiting for 1-2 years due to 
program delays at DOD. If their contractual eligibility windows 
approach their end-dates due to program delays, are there any 
intentions at DOD to extend the individual eligibility windows for 
those applicants? A. Recent changes to the investigative service 
provider background check and vetting program have resulted in long, 
complex, and costly processes, particularly for higher tiered 
background investigations and vetting. The average wait time for a Tier 
5 investigation is approximately 422 days for MAVNI applicants. The 
Department is examining all available options to extend MAVNIs in DEP 
to complete requisite screening requirements.
    Q. Does DOD have any advice to MAVNI applicants on what to expect 
or how best to proceed at this moment in time and process? A. MAVNI 
applicants were advised to maintain their immigration status until such 
time they shipped to basic training. For those who may have fallen out 
of status, the Department has advised MAVNIs to seek a renewed status 
or deferred action from the Department of Homeland Security based on 
their enlistment contract.
    Ms. Speier. Exposure to blast overpressure is the leading cause of 
mild traumatic brain injury for military personnel. Brain science 
research points to a clear relationship between Post-traumatic Stress 
Disorder and even non-concussive blast overpressure events caused by 
activities such as heavy weapons training. The Army has purchased tens 
of thousands of DARPA-developed gauges to monitor, record, and analyze 
blast overpressure data--however, my understanding is that they may not 
in widespread use in overseas operations or in training environments.
    What actions are you taking to mitigate exposure to your personnel 
in the field and training environments?
    How many of our men and women are using the DARPA gauges in the 
field or in training? Do high-risk units have access to the devices? 
How many devices have been purchased and where are they today?
    Secretary Mattis. Blast overpressure (BOP) injuries account for 10% 
of all traumatic brain injuries (TBIs) within the Department of Defense 
(DOD). The DOD has taken actions to improve our understanding while 
simultaneously implementing policies to protect, screen, diagnose, and 
treat not just TBIs, but potentially concussive events. In parallel to 
policy efforts, the DOD monitors BOP exposure through the Environmental 
Sensors in Training (ESiT) program. The ESiT effort fields blast gauges 
in training with the goals of 1) optimizing the use of current or next 
generation sensor technologies, 2) understanding the health effects of 
BOP, and 3) establishing evidence-based injury thresholds.
    In 2012, the Army procured approximately 108,000 gauges for use in 
Operation Enduring Freedom. The data from this effort did not provide 
actionable information or insights into the impact of single or 
cumulative BOP. The Army's effort to understand low-level BOP shifted 
to a more tailored approach in the training environment. Within the 
current Army effort (Environmental Sensors in Training (ESiT)), there 
are 1600 gauges in use on select training ranges: artillery, breacher, 
mortar, grenade, engineers, and shoulder fired weapons. These gauges 
are drawn from both existing inventory and purchase of newer designs. 
The gauges are available to ``high-risk units'' as commercial off the 
shelf (COTS) devices.
    Ms. Speier. There have been numerous reports of official government 
meetings, including meetings with foreign counterparts, being held at 
properties owned by the President. Because of the President's refusal 
to divest himself of those business interests, there is the prospect of 
the President and his family making a personal profit off of that 
official government business. The American people have a right to know 
whether Department of Defense money--taxpayer money--is ending up in 
the President's personal wallet.
    Mr. Secretary, General Dunford: Have either of you, or any of your 
staff, participated in official government events at a property owned 
by the President? If so, did the Department of Defense expend 
appropriated money to pay for costs associated with that event--
including room and board, meals, or other incidental expenses?
    General Dunford. No. Additionally, all travel is conducted in 
accordance with the Joint Federal Travel Regulations.
    Ms. Speier. Last school year, fewer students at the military 
service academies reported sexual assault and harassment, but the 
estimated rates of unwanted sexual conduct increased. Both of these are 
trending in the wrong direction. One reason could be the ostracism of 
sexual assault victims. 47% of those who reported their unwanted sexual 
contact experienced social isolation or maltreatment. We must foster an 
environment at the service academies in which students who have been 
sexually assaulted or harassed feel like they can come forward without 
fear of retaliation.
    Mr. Secretary, General Dunford: Were you aware of these depressing 
statistics? If so, what are you doing about them?
    General Dunford. I am aware of the statistics and the impact that 
any form of retaliation has on a victim's decision to report incidents 
of sexual assault and harassment. The Department recently released the 
DOD Retaliation Prevention and Response Strategy as a comprehensive 
approach address this issue. The strategy aligns Departmental efforts 
in combating retaliation and targets five areas: standardizing 
definitions, improving data collection and analysis, streamlining 
investigation and accountability efforts, strengthening reporter 
protections, and creating a culture intolerant of retaliation. It 
applies to Service member bystanders and witnesses as well as DOD first 
responders. We are committed to addressing retaliatory behavior and 
have dedicated resources to that end.
    Ms. Speier. On June 7, the non-profit group Protect our Defenders 
issued a report on ``Substantial and Persistent Racial Disparities 
Within the United States Military Justice System.'' POD's findings show 
that, for every year reported and across all four branches, black 
service members were substantially more likely than white service 
members to face military justice or disciplinary action. These 
disparities have not improved, and in some cases have increased, in 
recent years.
    Mr. Secretary, General Dunford: Have you been made aware of these 
findings? Do you agree that this is a concern--and, if so, what will 
the Department do in response?
    General Dunford. I am aware of POD's findings. The Department of 
Defense and military services are firmly committed to maintaining the 
highest levels of discipline and readiness in the joint force by 
upholding the integrity of the military justice process while ensuring 
fair treatment and equal opportunity for all Service members. I am 
confident that the services will appropriately address any issue that 
interferes with the impartial administration of military justice.
    Ms. Speier. On June 6, the Acting Director of Operational Testing 
and Evaluation upgraded the Department's assessment of the Ground-Based 
Midcourse missile defense system, now stating that the system is no 
longer ``limited.'' The Acting Director judged that the system now has 
the capability to intercept intercontinental missiles targeting the 
homeland. This judgment was made shortly following the most recent 
intercept test of the system, which was judged a success. However, that 
test increases the overall test success rate to only 40 percent since 
2010. Further, these tests are tightly scripted and controlled, with a 
single target, known flight parameters, and with no countermeasures or 
decoys. Finally, there are significant questions surrounding the 
reliability of the interceptors already deployed. I'm concerned that 
the capabilities of the system are being oversold.
    General Dunford, would you sign off on an operation or a 
contingency plan that has a 60 percent probability of failure?
    Mr. Secretary, given all this, how can the Department's assessment 
of the system be upgraded based on the results of a single test?
    General Dunford. The Department's assessment of the Ground-based 
Midcourse Defense system is based on results of all testing to date, 
warfighter integration and system-wide enhancements. A rigorous 
complement of ground and flight testing allows for the verification of 
system performance. The Homeland Defense system, including the 
supporting sensors and communications architecture are continually 
improved through hardware and software upgrades which increase overall 
effectiveness in defense of the Homeland. A few of the performance and 
capability upgrades utilized by the Acting Director of the Operational 
Test and Evaluation to make the determination to remove ``limited'' 
from the original assessment include:
    --25 Ground-based Interceptors (GBIs) are new, or have been 
upgraded in the past three years.
    --The Missile Defense Agency (MDA) successfully intercepted an 
intercontinental ballistic missile (ICBM) target during the Flight Test 
Ground-based Interceptor-15 (FTG-15) test on May 30, 2017. This was the 
first live-fire test event against an ICBM-class target for GMD and the 
Ballistic Missile Defense System (BMDS).
    --The successful intercept of an ICBM-class target supports the 
decision to emplace nine additional GBIs. These new interceptors 
provide improved reliability, discrimination performance and safety 
when compared to previously fielded interceptors. MDA emplaced the 
first of nine new GBIs in the FTG-15 configuration on June 28, 2017 and 
the full the deployment of 44 GBIs will be complete by the end of 2017.
    We will continue to work collaboratively within the Defense 
Department, to ensure we fully leverage our collective capabilities as 
well as advancing technologies to fully protect the Homeland.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. O'ROURKE
    Mr. O'Rourke. If forces under the control of Bashar al Assad or 
another country engage forces in Syria that the U.S. has trained and/or 
equipped, does the United States have the legal authority to defend 
against such engagement? If so, please explain the legal authority the 
U.S. can use.
    Secretary Mattis. The efforts of the U.S.-led Coalition in Syria 
are aimed at the defeat of the Islamic State in Iraq and Syria (ISIS), 
and the United States does not seek to fight the Syrian Government or 
pro-Syrian-Government forces. However, the United States will not 
hesitate to use necessary and proportionate force to defend U.S., 
Coalition, or partner forces engaged in the campaign against ISIS, if 
necessary.
    As a matter of domestic law, the 2001 Authorization to Use Military 
Force (AUMF) authorizes the use of force in Syria against ISIS and al-
Qa'ida. The 2001 AUMF also provides authority to use force to defend 
U.S., Coalition, and partner forces engaged in the campaign to defeat 
ISIS to the extent such use of force is a necessary and appropriate 
measure in support of these counter-ISIS operations.
    As a matter of international law, the United States is using force 
in Syria against ISIS and al-Qa'ida and is providing support to Syrian 
partners fighting ISIS, such as the Syrian Democratic Forces, in the 
collective self-defense of Iraq (and other States) and in U.S. national 
self-defense. Consistent with the inherent right of individual and 
collective self-defense, the United States initiated necessary and 
proportionate actions in Syria against ISIS in 2014 and reported those 
actions to the UN Security Council consistent with Article 51 of the 
United Nations Charter. Those necessary and proportionate actions may 
include the use of force as needed to defend U.S., Coalition, and U.S.-
supported partner forces engaged in the campaign to defeat ISIS from 
threats by Syrian Government and pro-Syrian Government forces.
    Mr. O'Rourke. Under what legal authority did the U.S. act when 
launching missile strikes on April 7th, 2017, against Syria? Under what 
legal authority did the U.S. act when engaging and shooting down a 
Syrian Su-22 on June 18th, 2017?
    Secretary Mattis. The U.S. military action on April 6, 2017, 
against Syrian military targets directly connected to the chemical 
weapons attack in Khan Sheikhoun on April 4, 2017 was a justified, 
legitimate, and proportionate measure to deter and prevent Syria's 
illegal and unconscionable use of chemical weapons.
    The use of force against the Syrian Su-22 on June 18, 2017, was a 
limited and lawful measure to counter immediate threats to U.S. partner 
forces engaged in the campaign to defeat the Islamic State in Iraq and 
Syria (ISIS). As a matter of domestic law, the 2001 Authorization to 
Use Military Force (AUMF) authorizes the use of force in Syria against 
ISIS and al-Qa'ida. It also provides authority to use force to defend 
U.S., Coalition, and partner forces engaged in the campaign to defeat 
ISIS to the extent such use of force is a necessary and appropriate 
measure in support of these counter-ISIS operations.
    As a matter of international law, the United States is using force 
in Syria against ISIS and al-Qa'ida and is providing support to Syrian 
partners fighting ISIS, such as the Syrian Democratic Forces, in the 
collective self-defense of Iraq (and other States) and in U.S. national 
self-defense. Consistent with the inherent right of individual and 
collective self-defense, the United States initiated necessary and 
proportionate actions in Syria against ISIS in 2014 and reported those 
actions to the United Nations (UN) Security Council consistent with 
Article 51 of the UN Charter. Those necessary and proportionate actions 
may include the use of force as needed to defend U.S., Coalition, and 
U.S.-supported partner forces engaged in the campaign to defeat ISIS 
from threats by Syrian Government and pro-Syrian Government forces.
    Mr. O'Rourke. If forces under the control of Bashar al Assad or 
another country engage forces in Syria that the U.S. has trained and/or 
equipped, does the United States have the legal authority to defend 
against such engagement? If so, please explain the legal authority the 
U.S. can use.
    General Dunford. The United States may use necessary and 
proportionate force to defend U.S., Coalition, or partner forces 
engaged in the campaign against the Islamic State of Iraq and Syria 
(ISIS). The 2001 Authorization to Use Military Force (AUMF) authorizes 
the use of force against ISIS and al-Qa'ida under domestic law. To the 
extent a use of force is necessary and appropriate to defend U.S., 
Coalition, and partner forces engaged in the ISIS campaign, the 2001 
AUMF provides such authority. Under international law, U.S., Coalition, 
and partner forces are fighting ISIS in the collective self-defense of 
Iraq, and in U.S. national self-defense, consistent with the U.N. 
Charter. The U.S. may use necessary and proportionate force to defend 
U.S., Coalition, or partner forces engaged in the campaign to Defeat 
ISIS from threats posed by Syria or another country.
    Mr. O'Rourke. Under what legal authority did the U.S. act when 
launching missile strikes on April 7th, 2017, against Syria? Under what 
legal authority did the U.S. act when engaging and shooting down a 
Syrian Su-22 on June 18th, 2017?
    General Dunford. The April 7, 2017 missile strike taken by the 
United States against Syrian military targets was a justified, 
legitimate, and proportionate response to Syria's illegal use of 
chemical weapons on April 4. These military targets were directly 
connected to Syria's indiscriminate use of chemical weapons in Khan 
Sheikhoun. The June 18, 2017 strike taken by the United States against 
the Syrian Su-22 in the vicinity of Tabqah, Syria, was a limited and 
lawful measure to respond to an immediate threat to partner forces 
engaged in the campaign against the Islamic State of Iraq and Syria 
(ISIS). The efforts of the U.S.-led Coalition are aimed at the defeat 
of ISIS, acting in the collective self-defense of Iraq and in U.S. 
national self-defense, and are consistent with the U.N. Charter. 
Additionally, the 2001 Authorization for Use of Military Force (AUMF) 
authorizes the use of force in Syria against ISIS and against al-Qa'ida 
and associated forces. To the extent the use of force is necessary and 
appropriate to defend U.S., Coalition, and partner forces engaged in 
the ISIS campaign, the 2001 AUMF provides such authority.
    Mr. O'Rourke. How does declaring parts of Somalia as areas of 
active hostilities affect the funding necessary to carry out U.S. 
missions in that country? Did additional authorities to pursue Al 
Shabaab's forces in that country result in an increase to the 
President's Overseas Contingency Operations or any other request? If 
so, how much is that increase? If not, will the Department require 
additional appropriations in the future for Somalia? How much had the 
U.S. previously spent on operations per year on Department of Defense 
operations in Somalia?
    Mr. Norquist. In March 2017, the President approved a Department of 
Defense proposal to conduct precision air strikes against al-Shabaab in 
Somalia to enable African Union Mission in Somalia (AMISOM) and Somali 
National Army (SNA) operations to defeat al-Shabaab. Counterterrorism 
operations in support of our partners in the East Africa region are 
funded within the amounts appropriated in the Department's Fiscal Year 
(FY) 2017 budget and FY 2018 budget request. The Department will 
continue to assess the duration, frequency, and intensity of support to 
our partners in Somalia in order to determine whether additional 
resources are required.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. The Air Force and Navy are recapitalizing the 
aging KC-135 tanker and P-3 anti-submarine warfare fleets with the new 
KC-46A and P-8 aircraft. Industry has the capability to more rapidly 
and cost efficiently produce these critical enablers, but PB18 does not 
provide adequate funds in the base budget as seen in the Air Force and 
Navy unfunded requirements requests. How does this budget ensure that 
our service men and women have the equipment they need to execute their 
missions while getting the most out of every dollar for our taxpayers?
    Secretary Mattis. The Department annually balances the funding 
within the national defense enterprise. However, the Department's 
ability to fully fund all mission requirement is constrained by the 
2011 Budget Control Act. Both President Trump and President Obama have 
repeatedly recommended that the Congress repeal this law. The fact that 
the law has not been repealed means the Department continues to face 
many difficult resource decisions.
    Mr. Bridenstine. What is the USAF's plan to phase in the B-21 and 
phase out older bombers?
    Secretary Mattis. The acquisition of the B-21 Raider and its 
integration into the long range strike force structure are a national 
security imperative. The Air Force and Air Force Global Strike Command 
have conducted extensive analysis to determine the right mix of B-21 
and legacy bombers considering adversary capabilities, future defense 
strategies and our current fiscal constraints. The Bomber Vector 
provides the roadmap for the future bomber force structure and is being 
socialized with Congress with an anticipated public roll-out in the 
fall of 2017.
    Mr. Bridenstine. What is the USAF's plan to phase in the B-21 and 
phase out older bombers?
    General Dunford. Our bombers represent a multi-role, long range, 
intercontinental strategic part of the Air Force arsenal. The U.S. Air 
Force is best suited to provide further details that address your 
concerns on the plan to phase in the B-21 and phase out older bombers.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MS. ROSEN
    Ms. Rosen. Iran continues to exercise direct and indirect military 
influence in Iraq, Syria, and Yemen. How do Iranian-backed forces and 
Iranian political influence in Iraq and Syria affect our own strategy 
and military operations against ISIL in both countries? As the Assad 
regime consolidates power, what are your concerns about Iran and 
Hezbollah strengthening their influence and presence in Syria? What are 
your overall concerns about a broader regional Shia-Sunni sectarian 
conflict emerging? Will Iran remain the greatest long-term threat to 
U.S. interests in the region, as General Votel has stated? If so, why 
and how can the United States, its allies, and partners best deter and 
contain that threat?
    Secretary Mattis. Iran remains a key strategic and enduring 
challenge for the United States and our partners in the Middle East 
because of its regional destabilizing activities. Iran's sectarian 
approach in both Iraq and Syria is destabilizing the situation further, 
which may be a root cause of the Islamic State in Iraq and Syria's 
appeal among select Sunni Arab populations. In Syria, Iran's 
destabilizing support to the murderous Asad regime is a key impediment 
to solving the Syrian crisis. Left unchecked, Iran and Hizballah's 
continued influence and military presence in Syria would pose a direct 
threat to U.S. and allied interests. Their activities contribute to 
extremism and instability in the country and hinder any attempt for a 
lasting political settlement. Tehran's continued unprofessional and 
unsafe conduct on the seas, sponsorship of terrorists and proxies 
around the region, malicious cyber actions, and ballistic missile 
launches in defiance of United Nations Security Council resolutions 
remain top issues for me. To deter and contain Iran's conventional 
capabilities and irregular warfare activities, the Department maintains 
military plans, preparations, and a strong force posture. Our robust 
partnerships strengthen the regional security architecture in a manner 
that blunts Iran's ability to coerce its neighbors.
    Ms. Rosen. Iran continues to exercise direct and indirect military 
influence in Iraq, Syria, and Yemen. How do Iranian-backed forces and 
Iranian political influence in Iraq and Syria affect our own strategy 
and military operations against ISIL in both countries? As the Assad 
regime consolidates power, what are your concerns about Iran and 
Hezbollah strengthening their influence and presence in Syria? What are 
your overall concerns about a broader regional Shia-Sunni sectarian 
conflict emerging? Will Iran remain the greatest long-term threat to 
U.S. interests in the region, as General Votel has stated? If so, why 
and how can the United States, its allies, and partners best deter and 
contain that threat?
    General Dunford. Iran is the greatest long term threat to U.S. 
interests in the region. Iran will attempt to generate political 
influence through Iranian-backed forces that backfill areas of Iraq and 
Syria previously controlled by ISIS. While this may not directly impact 
U.S. Defeat ISIS operations, it does certainly impact our longer term 
interests in the region as Iran seeks to displace U.S. and Western 
influence with its own. As the Assad regime consolidates power we are 
concerned about the strengthening of Iran and LH's influence in the 
region. This expanded level of influence could further destabilize Iraq 
and increase the chance of conflict between Israel and LH. The U.S. 
works to contain the spread of Iran's influence and deter conventional 
conflict by being ready to respond through a robust network of partners 
and allies and maintaining a posture in the region that allows the U.S. 
to an-

swer Iranian aggression quickly and effectively. While a broader Shia-
Sunni sectarian conflict is possible, Islam in the Middle East is more 
complex than that. Ethnic, tribal, political, economic, and other 
cultural factors drive identities and actions in the Middle East and 
will factor into any Middle East conflict.

                                  <all>
</pre></body></html>
